<html>
<title> - THE CURRENT STATE OF PRIVATE-SECTOR ENGAGEMENT FOR CYBERSECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





    THE CURRENT STATE OF PRIVATE-SECTOR ENGAGEMENT FOR CYBERSECURITY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           CYBERSECURITY AND
                       INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2017

                               __________

                            Serial No. 115-7

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-905 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

      SUBCOMMITTEE ON CYBERSECURITY AND INFRASTRUCTURE PROTECTION

                    John Ratcliffe, Texas, Chairman
John Katko, New York                 Cedric L. Richmond, Louisiana
Daniel M. Donovan, Jr., New York     Sheila Jackson Lee, Texas
Mike Gallagher, Wisconsin            James R. Langevin, Rhode Island
Clay Higgins, Louisiana              Val Butler Demings, Florida
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Brian K. Fitzpatrick, Pennsylvania       (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Brett DeWitt, Subcommittee Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Cybersecurity 
  and Infrastructure Protection:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity and Infrastructure Protection:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Daniel Nutkis, Chief Executive Officer, HITRUST Alliance:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. Scott Montgomery, Vice President and Chief Technical 
  Strategist, Intel Security Group, Intel Corporation:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Jeffrey Greene, Senior Director, Global Government Affairs 
  and Policy, Symantec:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. Ryan M. Gillis, Vice President of Cybersecurity Strategy and 
  Global Policy, Palo Alto Networks:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28
Mr. Robyn Greene, Policy Counsel and Government Affairs Lead, 
  Open Technology Institute, New America:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36

                                Appendix

Questions From Honorable James Langevin for Daniel Nutkis........    61
Questions From Honorable James Langevin for Scott Montgomery.....    61
Questions From Honorable James Langevin for Jeffrey Greene.......    64
Questions From Honorable James Langevin for Ryan M. Gillis.......    66
Questions From Honorable Cedric Richmond for Robyn Greene........    67
Questions From Honorable James Langevin for Robyn Greene.........    68

 
    THE CURRENT STATE OF PRIVATE-SECTOR ENGAGEMENT FOR CYBERSECURITY

                              ----------                              


                        Thursday, March 9, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Cybersecurity and 
                                 Infrastructure Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:09 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Ratcliffe 
(Chairman of the subcommittee) presiding. Present: 
Representatives Ratcliffe, Katko, Donovan, Gallagher, 
Fitzpatrick, Richmond, Jackson Lee, Langevin, and Demings.
    Mr. Ratcliffe. The Committee on Homeland Security 
Subcommittee on Cybersecurity and Infrastructure Protection 
will come to order.
    The subcommittee is meeting today to receive testimony 
regarding the current state of DHS's private sector engagement 
for cybersecurity.
    I now recognize myself for an opening statement.
    Cybersecurity touches every aspect of the world that we 
live in. It is central to every sector of our economy. It is 
vitally important to the protection of all Americans' most 
sensitive information and it is one of the foremost National 
security challenges of our time.
    Our collective ability to combat these threats with 
Government and the private sector working together will be one 
of the defining public policy challenges of our generation.
    Today, the Homeland Security Subcommittee on Cybersecurity 
and Infrastructure Protection meets to hear from key 
stakeholders on the current state of private-sector engagement 
for DHS's cybersecurity mission.
    As Chairman of this subcommittee, I don't take the 
responsibility that we as lawmakers in this room have lightly. 
In a world of rapidly-evolving threats, we have been entrusted 
to be part of the solution, and I believe that today's hearing 
will be an important piece of this on-going effort.
    DHS's cyber mission includes a robust portfolio of existing 
private-sector partnerships, including information-sharing and 
analysis organizations, the Cyber Information Sharing and 
Collaboration Program, Sector Coordinating Councils and the 
Automated Indicator Sharing Program.
    Specifically, we hope to learn how these partnerships can 
be improved and what more DHS can be doing to ensure that these 
programs and activities are meaningful, substantive, and 
effective.
    Today, the private-sector entities, including U.S. critical 
infrastructure owners and operators, are on the front line of 
conflict in cyber space. Our civilian networks face countless 
attacks every day from bad actors who seek to infiltrate our 
trusted systems, cripple our commerce, and expose Americans' 
personal information.
    Every day, these bad actors are using more advanced 
tactics, techniques, and procedures, and higher-quality 
information. It is only through constant and vigilant 
innovation that their attacks can be prevented, identified, and 
mitigated.
    While DHS has made headway in this space and has 
strengthened many initiatives in its role as the civilian 
interface and coordinator across 16 critical infrastructure 
sectors for cybersecurity, very clearly more work needs to be 
done. It is not enough to simply have programs in place. 
Instead, we must be constantly measuring, benchmarking, and 
setting goals associated with their outcomes.
    Additionally, DHS needs to become fully operational so that 
it can effectively carry out the cybersecurity authorities that 
Congress deliberately gave the Department just over a year ago.
    Today is the start of a new conversation that needs to 
occur in a new world on this new battlefield, and the start of 
a new administration provides a clean slate, a perfect 
opportunity to regroup and reassess before moving forward, an 
opportunity to ensure that our efforts and resources are 
aligned with the threat landscape that we face right now.
    Several weeks ago in a homeland security hearing in this 
room, I was pleased to have the opportunity to discuss with 
Secretary Kelly the importance of DHS's cyber mission. What I 
told him and what I know the rest of this subcommittee joins me 
in reinforcing is that we stand ready to pedal as fast as his 
agency and the entire Trump administration demands because the 
stakes are too high to do anything less right now.
    In the cyber domain, we are constantly learning new 
lessons. It is only by incorporating the knowledge into 
existing programs and processes that we can continue to move 
toward greater collaboration and better-secured networks. 
Because, while the private sector is on the front lines of our 
cyber challenges, the Federal Government, and DHS in 
particular, has an important role to play as a force multiplier 
to provide the private sector with every advantage available to 
defend itself.
    In the 115th Congress, this subcommittee will be 
legislating and conducting rigorous oversight to further 
strengthen DHS's civilian cyber mission. While the various DHS 
touch-points with the private that we will discuss today range 
in levels of sophistication and size of participant base, they 
all depend on quality information flowing at a rate that makes 
it timely and actionable.
    Marked changes in the security of our country's 
cybersecurity posture will only occur in concert with the 
advancement of the collaborations that we are going to be 
discussing today. The combination of information, capacity, and 
technical expertise needs to be leveraged in partnership at 
every turn.
    We look forward to hearing from the witnesses on these 
private-sector engagement efforts at DHS. Our goal on this 
topic is to make sure that the private sector has every 
opportunity and every reason to take full advantage of DHS's 
cybersecurity programs so we can continue to work to secure 
cyber space.
    Again, thanks to our witnesses for your willingness to be 
here today to share your expertise.
    [The statement of Chairman Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
    Cybersecurity touches every aspect of the world we live in. It's 
central to every sector of our economy. It's vitally important for the 
protection of all Americans' most sensitive information, and it's one 
of the foremost National security challenges of our time. Our 
collective ability to combat these threats--with the Government and the 
private sector working together--will be one of the defining public 
policy challenges of our generation.
    Today the House Homeland Security Subcommittee on Cybersecurity and 
Infrastructure Protection meets to hear from key stakeholders on the 
current state of private-sector engagement for DHS's cybersecurity 
mission. As Chairman of this subcommittee, I don't take the 
responsibility the lawmakers in this room have lightly. In a world of 
rapidly-evolving threats, we have been entrusted to be part of the 
solution, and I believe today's hearing will be an important piece of 
this on-going effort.
    DHS's cyber mission includes a robust portfolio of existing 
private-sector partnerships--including Information Sharing and Analysis 
Organizations, the Cyber Information Sharing and Collaboration Program, 
Sector Coordinating Councils, and the Automated Indicator Sharing 
Program. Specifically, we hope to learn how these partnerships can be 
improved and what more DHS can be doing to ensure that these programs 
and activities are meaningful, substantive, and effective.
    Today, private-sector entities--including U.S. critical 
infrastructure owners and operators--are on the front line of the 
conflict in cyber space. Our civilian networks face countless attacks 
every day from bad actors who seek to infiltrate our trusted systems, 
cripple commerce, and expose Americans' personal and sensitive 
information. Bad actors are using more advanced tactics, techniques, 
and procedures, and higher quality information. It is only through 
constant and vigilant innovation that their attacks can be prevented, 
identified, and mitigated.
    While DHS has made headway in this space and has strengthened many 
initiatives in its role as the civilian interface and coordinator 
across the 16 critical infrastructure sectors for cybersecurity, more 
work needs to be done. It is not enough to simply have programs ``in 
place.'' Instead, we must be constantly measuring, bench-marking, and 
setting goals associated with their outcomes. Additionally, DHS needs 
to become fully operational so it can most effectively carry out the 
cybersecurity authorities Congress deliberately gave the Department 
just over a year ago.
    Today is the start of a conversation that needs to occur in this 
new world with this new battlefield. And the start of a new 
administration provides a clean slate--a perfect opportunity to regroup 
and reassess before moving forward. An opportunity to ensure that our 
efforts and resources are aligned with the threat landscape we face.
    Several weeks ago in a Homeland Security hearing, I was pleased to 
have the opportunity to discuss with Secretary Kelly the importance of 
DHS's cyber mission. What I told him, and what I know the rest of this 
subcommittee joins me in reinforcing, is that we stand ready to pedal 
as fast as his agency and the Trump administration demands. Because the 
stakes are too high to do anything less.
    In the cyber domain, we are constantly learning new lessons, and it 
is only by incorporating that knowledge into existing programs and 
processes that we can continue to move toward greater collaboration and 
better-secured networks. Because while the private sector is on the 
front lines of our cyber challenges, the Federal Government, and DHS in 
particular, has an important role to play as a force multiplier to 
provide the private sector with every advantage available to defend 
itself.
    In the 115th Congress, this subcommittee will be legislating and 
conducting rigorous oversight to further strengthen DHS's civilian 
cyber mission. While the various DHS touchpoints with the private that 
we will discuss today range in levels of sophistication and size of 
participant base, they all depend on quality information flowing at a 
rate that makes it timely and actionable.
    Marked changes in the security of our country's cybersecurity 
posture will only occur in concert with the advancement of the 
collaborations that we will be discussing today. The combination of 
information, capacity, and technical expertise needs to be leveraged in 
partnership at every turn.
    We look forward to hearing from the witnesses on these private-
sector engagement efforts at DHS. Our goal on this topic is to make 
sure that the private sector has every opportunity and every reason to 
take full advantage of DHS cybersecurity programs so we can continue to 
work together to secure cyber space.
    Again, thank you to our witnesses for your willingness to share 
your expertise.

    Mr. Ratcliffe. The Chair now recognizes the Ranking 
Minority Member of the subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for his opening statement.
    Mr. Richmond. Thank you, Chairman Ratcliffe, for holding 
this hearing to examine how the Department and the private 
sector work together on cybersecurity.
    As this is the first subcommittee hearing, I would like to 
start off by welcoming the gentlelady from Florida, Mrs. Val 
Demings, to the subcommittee.
    Cybersecurity issues dominated the 2016 election, from the 
security of Secretary Clinton's server to Vladimir Putin 
ordering cyber attacks on the U.S. election systems to 
Wikileaks publishing the private emails of prominent Democratic 
figures. America got a crash course in cybersecurity.
    Before he was sworn in, President Trump said he would 
direct the Department of Defense and the Joint Chiefs to 
develop a comprehensive plan to protect America's vital 
infrastructure from cyber attacks and all other forms of 
attacks. This was on his first day in office.
    While I share the President's desire to better protect 
critical infrastructure, directing the Pentagon to take on 
cybersecurity in the private sector would represent a radical 
departure from how the Government manages cybersecurity.
    Since 2001, DHS has been the lead agency responsible for 
coordinating Federal efforts to protect critical infrastructure 
and, in that capacity, has made major strides in cyber 
information sharing among critical infrastructure owners and 
operators.
    Then, 2 years ago, with input from some of the witnesses 
assembled on this panel, legislation was signed into law 
codifying DHS's role as the lead civilian interface for 
information sharing. Since that time, DHS has ramped up its 
efforts to partner with critical infrastructure.
    We often say on this committee that the threat landscape is 
constantly evolving. When it comes to cybersecurity, the 
volume, the complexity, and scale of attacks grow exponentially 
with each passing day.
    To meet this challenge, the culture around cyber 
information sharing needs to shift, just as it needed to shift 
after 9/11 when Federal law enforcement and intelligence 
agencies moved from a need-to-know to a need-to-share culture.
    As we work to enhance the quality of information sharing, 
we must not lose sight of the obligations of all involved to 
protect the personal information of Americans or impacted 
networks.
    I am glad to see that Ms. Greene is here to talk with us 
about these obligations. I also look forward to talking with 
all the witnesses about what, from their perspectives, DHS and 
specifically NCCIC could be doing better.
    Last year, Congress enacted legislation I authored to make 
sure DHS is carrying out its diverse portfolio of cybersecurity 
responsibilities in a strategic manner. In a couple of weeks, 
DHS should be transmitting to Congress its first ever 
Department-wide cybersecurity strategy. When we see the 
strategy, I may want to engage with you all on your thoughts.
    Finally, while I recognize that the long-awaited Executive 
Order on cybersecurity has not yet been issued, it will be good 
to hear your thoughts on what we have seen so far from 
President Trump's administration on cybersecurity.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             March 9, 2017
    Cybersecurity issues dominated the 2016 election. From the security 
of Secretary Clinton's server, to Vladimir Putin ordering cyber attacks 
on U.S. election systems, to WikiLeaks publishing the private emails of 
prominent Democratic figures--America got a crash-course in 
cybersecurity.
    Before he was sworn in, President Trump said he would direct the 
Department of Defense and the Joint Chiefs to develop ``a comprehensive 
plan to protect America's vital infrastructure from cyber attacks, and 
all other form of attacks'' on his first day in office.
    While I share the President's desire to better protect critical 
infrastructure, directing the Pentagon to take on cybersecurity in the 
private sector would represent a radical departure from how the 
Government manages cybersecurity.
    Since 2001, DHS has been the lead agency responsible for 
coordinating Federal efforts to protect critical infrastructure and, in 
that capacity, has made major strides in cyber information sharing 
among critical infrastructure owners and operators.
    Then two years ago, with input from some of the witnesses assembled 
on this panel, legislation was signed into law codifying DHS's role as 
the lead civilian interface for information sharing. Since that time, 
DHS has ramped up its efforts to partner with critical infrastructure.
    We often say on this committee that the threat landscape is 
constantly evolving. When it comes to cybersecurity, the volume, 
complexity, and scale of attacks grow exponentially with each passing 
day. To meet this challenge, the culture around cyber information 
sharing needs to shift--just as it needed to shift after 9/11, when 
Federal law enforcement and intelligence agencies moved from a ``need 
to know'' to ``need to share'' culture.
    As we work to enhance the quality of information sharing, we must 
not lose sight of the obligations of all involved to protect the 
personal information of Americans on impacted networks. I am glad that 
Ms. Green is here to talk with us about these obligations. I also look 
forward to talking with all the witnesses about what, from their 
perspectives, DHS (and specifically the NCCIC) could be doing better.
    Last year, Congress enacted legislation I authored to make sure DHS 
is carrying out its diverse portfolio of cybersecurity responsibilities 
in a strategic manner. In a couple of weeks, DHS should be transmitting 
to Congress it's first-ever Department-wide cybersecurity strategy. 
When we see the strategy, I may want to engage with you on your 
thoughts.
    Finally, while I recognize that the long-awaited Executive Order on 
cybersecurity has not yet been issued, it would be good to hear your 
thoughts on what we've seen so far from President Trump on 
cybersecurity.

    Mr. Ratcliffe. I thank the gentleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statements of Ranking Member Thompson and Honorable 
Jackson Lee follow:]
             Statement of Ranking Member Bennie G. Thompson
                             March 9, 2017
    Cybersecurity is at the forefront of American politics in a way 
that, in my 24 years in Congress, I have never seen. On this committee, 
we regularly gather to hear from cybersecurity leaders on the most 
pressing security vulnerabilities to our Nation and the novel ways our 
enemies seek to exploit them. This past fall, details began to emerge 
about an entirely new attack vector--a hacking campaign designed to 
impact the Presidential election.
    Even before the election, the Secretary of Homeland Security and 
the Director of National Intelligence warned that Russian President 
Vladimir Putin directed hackers to penetrate the email accounts of 
high-ranking Democratic party officials to acquire information to be 
used to embarrass and undermine the candidacy of Secretary Clinton.
    The full scale of this state-sponsored hacking campaign is still 
not fully known but what we do know is that in addition to hacking 
private email accounts of prominent Democrats, the Russian hackers 
tried infiltrate vital networks and equipment maintained by state 
election authorities.
    The Russian cyber campaign sought to strike at the heart of our 
democracy. As such, legitimate questions about contacts between 
President Trump's inner circle and associates of the Putin regime need 
to be brought to light. That is why I support an independent 9/11-style 
commission to investigate the Russian cyber campaign.
    It has been disheartening to see President Trump display a somewhat 
dismissive attitude about this very significant cyber attack, even as 
DHS and its Federal partners work to raise the level of cyber awareness 
and hygiene across the country.
    I continue to be troubled by how long it took President Trump to 
accept the facts presented by the intelligence committee about the 
Russians orchestrating the hacking campaign. What seems to be lost on 
this man who has repeatedly expressed support for our Government using 
cyber offensive capabilities is that there can be no retribution 
without attribution.
    I am pleased that we have with us today representatives from 
private sector that know a thing or two about the nature of the 
evolving cyber threat and the importance of attribution.
    I would like to also take a moment to welcome Robyn Greene who this 
committee has come to count on for counsel when it comes the privacy 
challenges associated with cyber information sharing. I look forward to 
hearing from the panel on how DHS helps private entities secure their 
networks against intrusion.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                             March 9, 2017
    Chairman Ratcliffe and Ranking Member Richmond, thank you for 
convening this opportunity for the Homeland Security Committee 
Subcommittee on Cybersecurity & Infrastructure Protection on the topic 
of ``The Current State of DHS Private Sector Engagement for 
Cybersecurity.''
    Today's hearing will give Members an opportunity to hear from 
individuals outside the Government about how the Department of Homeland 
Security (DHS) works with private entities to improve their network 
security and contribute to the overall health of the cyber ecosystem.
    I thank today's witnesses :
  <bullet> Daniel Nutkis, CEO, HITRUST Alliance
  <bullet> Scott Montgomery, V.P. and Chief Technical Strategist, Intel 
        Security Group, Intel Corporation
  <bullet> Jeffrey Greene, Senior Director, Global Government Affairs & 
        Policy, Symantec
  <bullet> Ryan Gillis, V.P. of Cybersecurity Strategy & Global Policy, 
        Palo Alto Networks
  <bullet> Robyn Greene, Policy Counsel & Government Affairs Lead, New 
        America--Open Technology Institute (Democratic Witness).
    In the first few weeks of this Congress I introduced a number of 
measures on the topic of cybersecurity to address gaps in our Nation's 
cyber defensive posture:
  <bullet> SCOUTS Act--H.R. 940;
  <bullet> CAPITALS Act--H.R. 54;
  <bullet> SAFETI Act--H.R. 950;
  <bullet> Terrorism Prevention and Critical Infrastructure--H.R. 945; 
        and
  <bullet> Cybersecurity and Federal Workforce Enhancement Act--H.R. 
        935.
    H.R. 940, the ``Securing Communications of Utilities from Terrorist 
Threats'' or the ``SCOUTS Act,'' directs the Secretary of Homeland 
Security, in coordination with the sector-specific agencies, to work 
with critical infrastructure owners and operators and State, local, 
Tribal, and territorial entities to seek voluntary participation on 
ways that DHS can best defend against and recover from terrorist 
attacks that could have a debilitating impact on National security, 
economic stability, public health and safety, or any combination 
thereof.
    H.R. 940, is relevant to today's hearing because it addresses the 
need for a two-way communication process that enables private-sector 
participants in information-sharing arrangements with DHS to 
communicate their views on the effectiveness of the information 
provided; the method of information sharing; and their particular needs 
as time passes.
    Specifically the bill establishes voluntary listening opportunities 
for sector-specific entities to communicate their challenges regarding 
cybersecurity, including what needs they may have for critical 
infrastructure protection; and how DHS is helping or not helping to 
meet those needs.
    The Society of Maintenance and Reliability Professionals have 
endorsed H.R. 940, and input on the legislation included the Edison 
Electric Institute, an electric utility association.
    H.R. 54, the Department of Homeland Security's Cybersecurity Asset 
Protection of Infrastructure under Terrorist Attack Logistical 
Structure or CAPITALS Act, which directs the Department of Homeland 
Security (DHS) to produce a report to Congress regarding the 
feasibility of establishing a DHS Civilian Cyber Defense National 
Resource.
    H.R. 950, requires a report and assessment regarding Department of 
Homeland Security's response to terrorist threats to Federal elections. 
The Comptroller General of the United States is directed to conduct an 
assessment of the effectiveness of Department of Homeland Security 
actions to protect election systems from cyber attacks and to make 
recommendations for improvements to the actions taken by DHS if 
determined appropriate.
    H.R. 935, The ``Cybersecurity and Federal Workforce Enhancement 
Act'' identifies and trains people already in the work force who can 
obtain the skills to address our Nation's deficit in the number of 
workers and positions available for those with needed skills.
    H.R. 940, the ``Securing Communications of Utilities from Terrorist 
Threats'' or the ``SCOUTS Act,'' is the relevant to today's hearing 
because this bill focuses on the communications sent by DHS to sector-
specific entities and the ability of these entities to communicate to 
the agencies their perspective on the usefulness of the information; 
the form of communication that would be most helpful; and requires a 
report to Congress by DHS on the views of critical infrastructure 
owners and operators on the information-sharing process related to 
cybersecurity.
    Later today I will be introducing the Prevent Zero Day Events Act, 
which will help DHS in working with sector-specific entities to better 
understand the detection of undiscovered or unreported vulnerabilities 
in software and firmware that if exploited could pose a serious threat 
to our Nation's power grid; telecommunications systems; financial 
system; health care delivery; water supply or disrupt the ability of 
Federal agencies to function.
    I look forward to your testimony and the testimony of the second 
panel for today's hearing.
    Thank you.

    Mr. Ratcliffe. We are pleased today to have a very 
distinguished panel of witnesses before us on this vitally 
important topic. Mr. Daniel Nutkis is the chief executive 
officer of the HITRUST Alliance.
    Dan, good to have you back before our committee.
    Mr. Scott Montgomery is the vice president and chief 
technical strategist at Intel Security Group.
    We are glad to have you, Mr. Montgomery.
    Mr. Jeff Greene is the senior director of global government 
affairs and policy at Symantec.
    Jeff, good to see you again. Thanks for being here.
    Mr. Ryan Gillis is the vice president of cybersecurity 
strategy and global policy at Palo Alto Networks.
    Mr. Gillis. welcome and we look forward to your testimony 
today.
    Last but not least, Ms. Robyn Greene is the policy counsel 
and government affairs lead of the Open Technology Institute at 
New America.
    Welcome back, Ms. Greene.
    I would now like to ask the witnesses all to stand and 
raise your right hand so that I can swear you in to testify.
    [Witnesses sworn.]
    Mr. Ratcliffe. Please let the record reflect that the 
witnesses all answered in the affirmative. You may be seated.
    The witnesses' full written statements will appear in the 
record. The Chair now recognizes Mr. Nutkis for 5 minutes for 
an opening statement.

 STATEMENT OF DANIEL NUTKIS, CHIEF EXECUTIVE OFFICER, HITRUST 
                            ALLIANCE

    Mr. Nutkis. Good morning, Chairman Ratcliffe, Ranking 
Member Richmond, and distinguished Members of the subcommittee.
    I am pleased to appear today to discuss the health 
industry's experiences in engaging with the Department of 
Homeland Security relating to cyber information sharing and 
other cyber initiatives, and a role we believe provides the 
greatest benefit to industry.
    For a little context for the subcommittee, for the last 10 
years we have developed and updated a privacy and security 
framework and risk management practices for the health care 
industry, which were the most widely adopted. Five years ago, 
we established the HITRUST CTX which is the health care 
industry's most active and robust information sharing and 
analysis organization, or ISAO.
    While I prepared my written statement for the record, in my 
testimony today I will highlight how HITRUST helps elevate the 
industry's cyber awareness, improves cyber preparedness, and 
strengthens the risk management posture of the health care 
industry.
    At today's hearing, I would like to highlight three 
programs we have pioneered with industry that showcase the 
positive efforts under way in collaboration with DHS, and then 
speak to our concerns over Government's interference and 
disregard for key industry cybersecurity efforts.
    The first is the enhanced indicator of compromise program, 
the second is the sector guidance for implementing the NIST 
cybersecurity framework, and the third is the automated 
indicator sharing with DHS. I will touch on each one of these 
briefly.
    A review in 2015 highlighted a number of gaps and 
deficiencies in our cyber information sharing approaches and 
led to the development of an enhanced criteria to improve the 
collection and sharing of IOCs and maximize its benefits. The 
net results is that the HITRUST CTX, which is part of our ISAO, 
continues to improve on the number of unique IOCs it shares 
across the health care industry, going from 186 unique IOCs in 
September 2015 to over 5,100 in September 2016. Additionally, 
there were substantial improvements in timeliness, accuracy, 
and usability.
    I reference this program to illustrate that the private 
sector is willing to do its part in facilitating the collection 
and dissemination of IOCs and other cyber threat information. I 
see DHS as having a vital role in facilitating the collection 
and dissemination of other information-sharing organizations in 
a streamlined, secure, and efficient manner.
    Last year, the Health and Public Health Sector Coordinating 
Council and the Government Coordinating Council with input from 
HITRUST and other sector members, including the DHS critical 
infrastructure cyber community, developed the health sector 
implementation guide for the NIST cybersecurity framework.
    DHS was an integral partner and commenter during the 
development of the sector guide. It should be noted that the 
HPHSCC, which was formed under the DHS Critical Infrastructure 
Sector Partnership Program, is an example of industry 
innovation, leadership, and collaboration across the entire 
industry on a number of topics relevant to critical 
infrastructure, including cyber.
    The HITRUST CTX is fully integrated with AIS and supports 
bidirectional cyber threat indicator exchange to better aid 
organizations in reducing their cyber risk. In fact, HITRUST 
was the first non-Government entity connected to and sharing 
cyber threat indicators with DHS AIS program. HITRUST believes 
DHS acting as the hub for cyber information sharing benefits 
the entire industry. Our engagement with DHS has been both 
collaborative and productive.
    Despite all the progress the public/private sector has made 
in recent years, there are Government efforts underway to 
undermine private-sector information-sharing programs and ISAOs 
like that of HITRUST.
    Even though CISA and the Executive Order made clear that 
ISAOs would be established and enable private companies to 
decide which ISAO to engage when sharing with DHS, there are 
efforts to require health care organizations to only share 
information directly with the Department of Health and Human 
Services or their designated ISAO, an agency not even 
identified in CISA's affording safe harbor liability 
protections.
    This is certainly troublesome and we find these efforts 
alarming and are contrary to the original intent of CISA. We 
recognize that there is a large role for Government to play in 
supporting information sharing. The private sector should be 
considered an equal party and the Government partners should 
take a universal and consistent approach when engaging with 
industry.
    We recognize that each industry is unique with regards to 
CTI sharing. In health care, they include health information, 
organizational size, technical maturity, control systems, 
medical devices, but that doesn't warrant interjecting another 
intermediary and certainly not one that regulates, audits, and 
has responsibility for imposing fines and other financial 
penalties.
    The market should drive innovation and Government should 
promote the role of industry without changing the rules.
    Thank you again for the opportunity to share these 
insights. With that, Mr. Chairman, I am pleased to answer the 
committee's questions.
    [The prepared statement of Mr. Nutkis follows:]
                  Prepared Statement of Daniel Nutkis
                             March 9, 2017
    Chairman Ratcliffe, Ranking Member Richmond, and distinguished 
Members of the subcommittee, I am pleased to appear today to discuss 
the health industry's experiences in engaging with the Department of 
Homeland Security relating to cyber information sharing and other cyber 
initiatives and the role we believe provides the greatest benefit to 
industry. I am Daniel Nutkis, CEO and founder of the Health Information 
Trust Alliance, or HITRUST. HITRUST was founded in 2007, after industry 
recognized the need to formally and collaboratively address information 
privacy and security for health care stakeholders representing all 
segments of the industry and organizational sizes. HITRUST endeavored--
and continues to endeavor--to elevate the level of information 
protection in the health care industry and those it collaborates with, 
ensuring greater collaboration between industry and Government, raising 
the competency level of information security professionals, while 
maintaining trust with consumers and patients regarding their health 
information, and promoting cyber resilience of industry organizations.
    In my testimony today, I will highlight how HITRUST helps elevate 
the industry's cyber awareness, improve cyber preparedness and 
strengthen the risk management posture of the health care industry. In 
particular, I will explain how programs like cyber information sharing, 
cyber threat catalogues, and guidance on implementing the NIST 
Cybersecurity Framework\1\ are integral to this process, as is the role 
for the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ https://www.us-cert.gov/ccubedvp.
---------------------------------------------------------------------------
    In 2012, HITRUST established the HITRUST Cyber Threat XChange or 
CTX, the health industry's Information Sharing and Analysis 
Organization, or ISAO. The HITRUST CTX has consistently and effectively 
enabled cyber information sharing across the entire industry and with 
Government, while continuously evaluating and enhancing its services to 
ensure better collection, analysis, and consumption of actionable cyber 
threat information.
    At today's hearing, I would like to highlight three programs we 
have pioneered with industry that showcase the positive efforts under 
way in collaboration with DHS and then speak to our concerns over 
Government's interference, underperformance or disregard as to the 
industry's cybersecurity efforts. Concerns, I anticipate this committee 
and the new administration will share and appropriately address.
    The first of the programs is the Enhanced Indicator of Compromise 
(IOC) Program; second, is Sector Guidance for Implementing the NIST 
Cybersecurity Framework; and third, is Automated Indicator Sharing with 
DHS. I will touch on each one of these briefly.
             enhanced indicator of compromise (ioc) program
    Since it began an IOC-sharing program over 6 years ago, HITRUST has 
been a leader in information sharing and continuously evaluates the 
effectiveness of its cyber information-sharing program against stated 
goals. A review in 2015 highlighted a number of gaps and deficiencies 
in our cyber information-sharing approaches, and led to the development 
of an Enhanced IOC criteria to improve the collection and sharing of 
IOCs and maximize its benefits. These criteria defined specific 
requirements in terms of completeness, timeliness, and accuracy of IOCs 
contributed. We then established a pilot to evaluate the effectiveness 
of this approach, which demonstrated significant improvements, 
highlighted in the findings below:
    1. During the pilot period, over 80% of the IOCs collected were 
        unique and not seen or known by any other open-source, 
        commercial, DHS CISCP, or user-contributed feeds available to 
        the HITRUST CTX.
    2. The pilot group of eight organizations using Enhanced IOC 
        sharing reported 45% more IOCs than a comparable group of over 
        800 existing CTX participants using current sharing practices.
    3. 100% of organizations reported IOCs to the HITRUST CTX compared 
        to only a small percentage of organizations--5%--that 
        contributed using current sharing practices during the same 
        period.
    4. IOCs were reported to the HITRUST CTX on average 13.1 days 
        before being seen or identified by any other open-source, 
        commercial, DHS CISCP, or user-contributed feeds to the HITRUST 
        CTX. Some indicators were seen in the pilot program up to 123 
        days before being reported by other feeds.
    5. IOCs were submitted in a matter of minutes to the HITRUST CTX 
        compared to an average of 7 weeks after detection using current 
        sharing practices.
    6. 95% of the IOCs contributed to the HITRUST CTX had metadata 
        (e.g., malicious IPs, URLs or domains) that made them 
        actionable for use by others, which is defined as being useful 
        in allowing preventative or defensive action to be taken 
        without a significant risk of a false positive. Using current 
        sharing practices, only 50% of the IOCs contributed to the 
        HITRUST CTX were considered actionable.
    The net result is that the HITRUST CTX continues to improve on the 
number of unique IOCs it shares across health care organizations each 
month--going from 186 unique IOCs in September 2015 to 5,158 in 
September 2016.
    In addition, the enhanced IOC pilot improved situational awareness 
and predictive threat modeling with the ability to correlate IOCs and 
Indicators of Attack (IOAs) between organizations, identify attack 
patterns, and alert participants about IOCs and IOAs. These results are 
positive with regards to mitigating cyber risk, but don't speak to the 
investment required.
    To better understand the return on investment, HITRUST is 
undertaking a study to quantify the value of information sharing as a 
tool in mitigating cyber risk, to aid organizations in prioritizing and 
justifying their participation. We are undertaking an ROI study to 
evaluate information sharing and the incremental benefits of leveraging 
the Enhanced IOC criteria. We look forward to updating the committee on 
the results of this study in the near future.
    Another important finding is that threat information sharing does 
not need to be limited to the largest organizations and that the 
scalable sharing of IOCs can be achieved throughout health care 
organizations of varying size, intelligence appetite, and the maturity 
of an organization's security program. This was evaluated by 
integrating the HITRUST CTX with the CyberAid program.\2\
---------------------------------------------------------------------------
    \2\ HITRUST CyberAid is an example of enabling information sharing 
with smaller organizations--https://hitrustalliance.net/documents/
cyberaid/CyberAidInfographicPresentation.pdf.
---------------------------------------------------------------------------
    The results of the Enhanced IOC Collection Pilot indicate that 
health care organizations can dramatically improve the timeliness, 
completeness, usability, and volume of IOCs contributed to the HITRUST 
CTX by implementing the enhanced IOC criteria. In response to these 
findings, HITRUST is expanding the Enhanced IOC program and announced 
enhancements to the CTX platform to aid organizations in reducing their 
cyber risk.
    I reference this program to illustrate that the private sector is 
willing to do its part in facilitating the collection and dissemination 
of IOCs and other cyber threat information (CTI), and sees DHS as 
having a vital role in facilitating the collection and dissemination 
from other information-sharing organizations in a streamlined and 
efficient manner.
   sector guidance for implementing the nist cybersecurity framework
    Last year, the Health and Public Health Sector Coordinating Council 
(SCC) and Government Coordinating Council (GCC), along with input from 
HITRUST, and other sector members including the DHS Critical 
Infrastructure Cyber Community (C3) developed the Health Sector 
implementation guide for the NIST Cybersecurity Framework, specifically 
referred to as ``Healthcare Sector Cybersecurity Framework 
Implementation Guide.''
    The Sector Guide supports implementation of a sound cybersecurity 
program that addresses the five core function areas of the NIST 
framework to ensure alignment with National standards, help 
organizations assess and improve their level of cyber resiliency, and 
provide suggestions on how to link cybersecurity with other information 
security and privacy risk management activities in the Health Care 
Sector. The Health Care Sector leverages the HITRUST risk management 
framework, including the HITRUST CSF and CSF Assurance Program to 
effectively provide the sector's implementation of the NIST 
Cybersecurity Framework.
    DHS was an integral partner and commenter during the development of 
the Sector Guide. The HPH SCC, which was formed under the DHS Critical 
Infrastructure Sector Partnership Program, is an example of industry 
innovation, leadership, and collaboration across the entire industry on 
a number of topics relevant to the protection of critical 
infrastructure including cyber.
                   automated indicator sharing (ais)
    The HITRUST CTX is fully integrated with AIS and supports bi-
directional cyber threat indicator exchange to better aid organizations 
in reducing their cyber risk. In fact, HITRUST was the first non-
Government entity connected to and sharing cyber threat indicators with 
the DHS AIS Program.
    AIS has the potential to facilitate the sharing of crucial cyber 
threat information from across organizations, corporations, and Federal 
agencies in real time. Given the recent rise in cyber threats targeting 
the health care industry, HITRUST believes bi-directional integration 
into the AIS program will ensure relevant and timely CTI from HITRUST 
and Government is available to all industries--ultimately bolstering 
the overall cyber posture of the Nation's critical infrastructure.
    Of note, HITRUST's role as an ISAO with strong industry engagement 
enabled us to quickly and efficiently address any concerns regarding 
the liability of sharing with Government. It was also our continued 
evaluation and enhancements to our infrastructure with our technology 
partners that enabled us to integrate with AIS and meet the future 
needs of information sharing. Both the Cybersecurity Act of 2015 (CISA) 
and Executive Order (EO) 13691 intended ISAOs to take up this role in 
an effort to help move the private sector in the right direction and 
enable them to robustly engage with Government. AIS integration 
demonstrates that HITRUST, with its DHS partnership, continues to 
evolve, improve, and lead by innovating and ensuring cyber threat 
information sharing is providing the most value to the broadest group 
of constituents while reducing overall cyber risk.
    As a non-Governmental organization, sharing with AIS was not 
without initial challenges, we did encounter some technical and 
operational issues. They have since been addressed, but we would 
encourage greater engagement by DHS with AIS participants to ensure 
alignment with on-going and future requirements.
    HITRUST is of the opinion that DHS--acting as the hub for cyber 
information sharing--benefits the entire industry, and our engagement 
with the DHS AIS has been both cooperative and very productive.
    However, despite all the progress the public and private sectors 
have made in recent years, as I referenced earlier, there are 
Government efforts underway to undermine private-sector information-
sharing programs and ISAOs like that of HITRUST. Even though CISA and 
the EO make clear that ISAOs would be established and enable private 
companies to decide which ISAO to engage when sharing with DHS, there 
are efforts under way that will deviate from this effort by requiring 
health care organizations to only share information directly with the 
Department of Health and Human Services--an agency not even identified 
in CISA as affording safe harbor liability protections.
    This is certainly troublesome, as we can all agree that CISA placed 
DHS at the center of information sharing with the private and civilian 
sector. HITRUST supported this effort enthusiastically and continues to 
do so. In fact, as we have outlined in our testimony, we have invested 
heavily in elevating our information-sharing capabilities to help 
industry achieve the goal of working collaboratively with the 
Government.
    Since HITRUST has led the industry in the collection of IOCs 
through the development of enhanced standards and collection practices, 
and was the first health care organization to begin sharing bi-
directionally with DHS's AIS program, we find these efforts unnerving 
as they are certainly contrary to the original intent of CISA and 
Government's commitment to partner with industry through the ISAO 
program.
    HITRUST has always approached its role as an ISAO with the 
entrepreneurial spirit of innovation and leadership. While we recognize 
that there is a large role for Government to play in supporting 
information sharing and ensuring liability protection, the private 
sector should be considered an equal partner, and our Government 
partners should take a universal and consistent approach when engaging 
with industry.
    We appreciate and recognize that each industry has unique dynamics 
and challenges with regards to CTI sharing, in health care they include 
organizational size, technical maturity, medical devices, and other 
control systems, but that doesn't warrant interjecting another 
intermediary and certainly not one that regulates and has 
responsibility for fines and other financial penalties.
    HITRUST was an early supporter of CISA and continues to support the 
role of Government to foster transparency by establishing guidance, 
clarifying roles and responsibilities, and encouraging industries and 
segments to determine how to engage more extensively based on their 
value and performance. The market should drive innovation and 
Government should promote the role of industry without changing the 
rules. We are seeing the opposite occur, and this was never the intent 
of CISA or the Executive Order. CISA established a role for the private 
sector around cyber information sharing, a role for ISAOs and 
associated liability protections offered through DHS. Unfortunately 
after supporting, committing, and engaging along that path, we find the 
Department of Health and Human Services establishing guidelines and 
approaches that are inconsistent and without appropriate consideration 
and recognition of industry activities in support of CISA and the 
Executive Order.
    HITRUST, through its many programs, remains committed to ensuring 
the health care industry can properly address these challenges. Cyber 
information sharing is, and will continue to be, a key component in 
HITRUST's approach to cybersecurity and cyber risk management, and we 
are excited about pioneering these approaches. Information sharing is 
only one tool that impacts risk management for an organization. HITRUST 
continues to develop innovations such as the Health Care Sector 
Cybersecurity Framework Implementation Guide, and enhance its security 
and privacy framework and assurance programs. We value the partnership 
of DHS in these efforts and look forward to their continued support.
    Thank you again for the opportunity to join you today and share 
these insights. I look forward to your questions.

    Mr. Ratcliffe. Thank you, Mr. Nutkis.
    Mr. Montgomery, you are recognized for 5 minutes.

    STATEMENT OF SCOTT MONTGOMERY, VICE PRESIDENT AND CHIEF 
 TECHNICAL STRATEGIST, INTEL SECURITY GROUP, INTEL CORPORATION

    Mr. Montgomery. Good afternoon, Chairman Ratcliffe, Ranking 
Member Richmond, and Members of the subcommittee.
    Thank you for the opportunity to testify today.
    Intel is global leader in computing innovation, designing 
and building the essential foundational technologies that 
support the world's computing devices.
    Governments, businesses, and consumers face a cybersecurity 
threat landscape that is constantly evolving with each new 
technology that is brought to market at a faster pace than ever 
before.
    The challenges we face are too significant for one company, 
even as large as Intel Corporation, or entity to address on its 
own. Real change on cybersecurity requires leadership from 
Washington and a true public/private partnership with industry.
    Our own contribution at the new McAfee, currently known as 
Intel Security, is based on an open communication fabric that 
will enable all of us in cybersecurity, both public and 
private, to work together in ways never before thought 
possible.
    Cyber defense technologies' effectiveness, it peaks really 
shortly after it is released and degrades very, very quickly 
after its initial release. Actors take little notice, but once 
the technology is deployed at scale, they adopt evasion 
techniques and countermeasures, causing the effectiveness to 
significantly degrade quickly.
    This creates situations where defenders are creating dozens 
of disparate tools to solve for micro conditions rather than 
macro conditions.
    Technology efficiencies are already declining by the time 
the lengthy purchase and integration cycles are complete and 
trained labor is insufficient to deal with the complexity of 
supporting all these technologies. It is a strong collaboration 
that plays a key role in how we go forward.
    Mobile threats, migration to the cloud, and in particular, 
the explosion of the number of internet-enabled devices, 
commonly known as IOT, the Internet of Things, are going to 
test and exacerbate the limits of our ability to work in real 
time rather than assist them.
    With respect to the partnership model, Intel and Intel 
Security have been active in public/private partnerships 
managed by DHS and other agencies for more than 10 years. We 
have leadership roles in the President's National Security 
Telecommunications Advisory Committee, also known as NSTAC, the 
Information Technology Information Sector Coordinating Council, 
Information Technology Information Sharing and Analysis Center, 
National Cybersecurity Alliance, and the National Cybersecurity 
Center of Excellence.
    With respect to a few policy recommendations to improve 
public/private partnerships, the first one is a move toward 
more real-time sharing.
    As we talked about a little bit earlier, the drive and the 
number of devices, the drive and the number of internet-enabled 
technologies is going to scale quickly past our ability to 
encompass them in real time as workers. We need these 
mechanisms to be automated.
    With the passage of the Cybersecurity Information Sharing 
Act, DHS was directed to deploy the Automated Indicator Sharing 
Program. The program allows both the private and public sectors 
to share indicators of compromise, but these indicators of 
compromise are like breadcrumbs. It is only when you aggregate 
them in the context that you see what the meal is. The sharing 
of individual indicators of compromise without context leaves 
practitioners asking more questions than having them answered.
    Second, the NIST cybersecurity framework process should be 
used as the model--the model--for public/private partnerships. 
The framework for improving critical infrastructure security, 
known as the NIST cybersecurity framework, is widely 
acknowledged as a highly successful model of public/private 
partnership.
    Here is our analysis of why. The need was real, the process 
was open, NIST listened more than they talked. They were 
prepared. They engaged stakeholders of a variety of different 
sizes, of a variety of different financial investments, in a 
variety of different sectors, both public and private.
    The framework was voluntary, not regulatory. Very, very 
important for private organizations to particulate.
    Then last, we would like to seek innovative ways to further 
grow the information-sharing ecosystem. When we share, for 
example, with the Cyber Threat Alliance, including Check Point, 
Cisco, Fortinet, Palo Alto, and Symantec, my erstwhile comrades 
on the panel, the point of it was to share faster than we could 
learn ourselves. It is for the whole to be greater than the sum 
of the individualized parts.
    Examples of successes include cracking the code on 
CryptoWall version 3, one of the most lucrative ransomware 
families in the world, totaling more than $325 million 
ransomed.
    Our disruption of the CryptoWall forced criminals to 
develop a CryptoWall 4, which we uncovered quickly and it 
resulted in a much less successful attack, a prime example of 
where the whole was greater than the sum of the individual 
vendor parts.
    Given that the rapid change continues, public and private-
sector organizations cannot go it alone. We look for the 
encouragement of DHS and their participation in helping us 
drive to greater wholes and less individual parts.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Montgomery follows:]
                 Prepared Statement of Scott Montgomery
                             March 9, 2017
    Good afternoon, Chairman Ratcliffe, Ranking Member Richmond, and 
Members of the subcommittee. Thank you for the opportunity to testify 
today. I am Scott Montgomery, vice president and chief technical 
strategist, Intel Security Group, part of Intel Corporation.
    I am pleased to address the subcommittee on the value and 
effectiveness of current private-sector engagement with the Department 
of Homeland Security (DHS) given its importance in helping DHS achieve 
its mission of enhancing the security, resilience, and reliability of 
the Nation's cyber and communications infrastructure. My testimony will 
address Intel Security's commitment to cybersecurity, our assessment of 
the global threat environment, the state of various DHS public-private 
partnerships and private-sector partnership innovation. Finally, I will 
make a number of public policy suggestions to help the new 
administration shore up the capabilities and effectiveness of DHS 
public-private partnerships.
    First, I would like to provide some background on my experience and 
Intel's commitment to cybersecurity. I work for the Intel Security 
Group Chief Technology Officer (CTO) and manage the world-wide team of 
experts that carry CTO titles. Together we drive the company's 
technical innovation; evangelize our expertise, thought leadership, and 
offerings to public and individual audiences; and work to increase the 
public trust by cooperating with law enforcement on cyber criminal 
investigations and disruption. With more than 20 years in content and 
network security, I bring a practitioner's perspective to the art and 
science of cybersecurity. I have designed, built, tested, and certified 
information security and privacy solutions for such companies as 
McAfee, Secure Computing, and a wide variety of public-sector 
organizations.
              intel security's commitment to cybersecurity
    Intel is a global leader in computing innovation, designing and 
building the essential foundational technologies that support the 
world's computing devices. Combining Intel's decades-long computing 
design and manufacturing experience with Intel Security's market-
leading cybersecurity solutions, Intel Security brings a unique 
understanding of the cybersecurity challenges threatening our Nation's 
digital infrastructure and global e-commerce. Governments, businesses, 
and consumers face a cybersecurity threat landscape that is constantly 
evolving with each new technology that is brought to market at a faster 
pace than ever before. The sharp rise of internet-enabled devices 
(known as ``Internet of Things'' or ``IoT'') in Government, industry, 
and the home exacerbates this already difficult challenge. The 
challenges we face are too significant for one company or entity to 
address on its own. Real change on cybersecurity requires leadership 
from Washington, DC, and a true public-private partnership with 
industry.
    Collaboration will be the driving force behind what soon will be 
the new McAfee (currently known as Intel Security)--planned to be a 
stand-alone company this year. It's also why we recently announced a 
whole new ecosystem of integrated platforms, automated workflows, and 
orchestrated systems based on an open communications fabric that will 
enable all of us in cybersecurity to work together in ways never before 
thought possible.
    To be successful, it is important to understand the market-like 
forces that drive the effectiveness of cybersecurity defense. Most 
information technologies continuously improve over time. Paradoxically, 
cyber defense technologies do not follow this pattern. Their 
effectiveness peaks shortly after release and then degrades. When a new 
defensive capability is first released, bad actors take little notice, 
but once deployed at scale, they adopt evasion tactics and counter-
measures, causing the effectiveness to significantly degrade.
    Where does that leave us? We see the current paradigm of constant 
integration of point products--individual software applications--as 
ineffective and unsustainable. Not only are technology efficiencies 
already declining by the time the lengthy purchase and integration 
cycles are complete, but organizations are unable to deal with the 
complexity of supporting upwards of 30 to 40 independent tools and 
technologies. That's a losing game, but it's the one security 
practitioners find themselves playing.
    We need a different approach where technology--enabled with strong 
collaboration--can be deployed rapidly to security platforms so they 
can communicate with each other over open communication protocols. Such 
technology can be guided by the strategic intellect that only humans 
can provide. Thus, the only way to have a winning cybersecurity 
strategy is to bring technology, the cybersecurity industry, and the 
efforts between Government and the private sector together. This is 
what real collaboration is all about.
    As we collaborate with our public partners, it's important to 
highlight how the threat landscape has changed over the years. It's a 
top-tier issue for Government leaders because of the critical role IT 
systems play in our National security, economy, and daily lives.
                  the interconnected threat landscape
Increasing Sophistication of Attackers Threatens Organizations of Every 
        Size
    The threat landscape is ever-changing, and it's getting only more 
complex with the sharp rise in internet-enabled devices (IoT) and 
industry's shift to new computing paradigms such as cloud computing. 
What we call the ``attack surface'' continues to grow. This means that 
organizations--and more importantly, individuals--are now more 
vulnerable in more places. Adversaries are increasingly capable of 
attacking strategic assets and critical infrastructure. Traditional 
platforms such as phones, tablets, laptops, and servers continue to be 
high-value targets, but we must expand our thinking to include all 
devices that are ``smart'' and connected. Modern computing runs our 
factories, flies our planes, drives our cars, and runs our homes. 
Almost every aspect of what our country runs on is potentially 
vulnerable to a cyber attack.
    The attacker community has matured enough to support a vibrant 
criminal underground economy. On-line web stores on the ``Dark Web'' 
now sell hacking tools to any would-be attacker, and on-line markets 
make it easy and efficient to sell stolen credit card and other 
personal information. Attackers are also busy developing new techniques 
that are substantially more difficult to detect and stop, setting their 
sights beyond the operating system or applications and instead focusing 
on the underlying virtual machines, firmware, and hardware. The growing 
sophistication of these tools and methods of attack has unsurprisingly 
placed a tremendous amount of pressure on today's security processes, 
tools, and people.
Innovative Technologies Bridge Resource Gaps for Public and Private-
        Sector Organizations, but also Magnify Threats
    It should come as no surprise that cyber criminals closely follow 
the latest technology trends because that's where the targets are the 
most promising. Technological innovations can help organizations 
deliver better overall security and operations but can simultaneously 
expose new avenues for attack, such as:
    Mobile Threats.--All organizations are relying more on mobile 
devices to improve communication and business processes, and this trend 
will undoubtedly continue. At the same time, malware written 
specifically to attack mobile devices is proliferating, creating new 
challenges as organizations attempt to secure mobile as well as 
traditional computing platforms.
    Migration to the Cloud.--Organizations can reduce costs, improve 
offerings, eliminate complexity, and reduce reliance on on-site 
technical staff by outsourcing their IT and communications systems to 
the cloud. At the same time, however, they must be careful not to 
sacrifice security to achieve these new efficiencies.
    IoT and the Explosion in Number of Devices.--The exponential 
increase of Internet-enabled and networked devices known as the 
Internet of Things (IoT) is expanding both risks and rewards. 
Organizations are using networked metering devices, sensors, 
appliances, and point-of-sale systems to deliver better customer 
service and streamline business processes, but must also be aware that 
many IoT devices were not designed with security in mind and could 
introduce unnecessary risk to vital IT networks and systems.
    Bring Your Own Device (BYOD) Environments.--Given the mobile nature 
of today's workforce, as well as the increasing use of BYOD programs, 
employees at companies of all sizes commonly access organizational 
resources from external networks such as hotspots and home networks. 
The result is often that company-owned network equipment will be simply 
unable to inspect the growing amount of traffic and devices connected 
to internal IT networks.
    Performance Issues Preempt Security.--Customers are increasingly 
choosing to forego bulkier security features like firewalls in favor of 
maximizing network performance levels, creating a tug-of-war between 
security and performance priorities.
    Adversaries Enjoy Significant Advantages.--Our research and 
analysis reveals that cyber adversaries benefit from and exploit 
several key advantages, including:
  <bullet> The ability to enhance the tools and capabilities used in an 
        attack quickly through a community of innovators and service 
        providers. This has an outsized impact on small organizations, 
        who may not have the resources to deploy the latest adaptive 
        technologies, or are not deploying risk management-based 
        solutions at all.
  <bullet> A working knowledge of how organizations implement defenses, 
        including knowledge of specific product deployment models, 
        industry architectures and even specific vulnerabilities. While 
        an attacker only has to be right once, organizations must be 
        impenetrable 100 percent of the time--a statistic that is 
        unrealistic even for the most well-resourced security vendors 
        or large corporations.
          intel security's view of public-private partnerships
Our Commitment to the Partnership Model
    Given the current cybersecurity threat environment, organizations 
across the spectrum cannot manage their protective defenses alone. 
Security is a shared goal carrying a shared responsibility. As a 
result, the strategic partnerships that have grown between public and 
private-sector entities over the last two decades have never been more 
important.
    At a National level, critical industry sectors supporting the 
safety, security, and economic growth of the United States were among 
the first to self-organize in partnership with Government agencies to 
assess and mitigate threats to U.S. critical infrastructure. These 
public-private partnerships are fueled by a joint commitment to defend 
critical infrastructures against increasingly sophisticated cyber 
attacks, and they thrive on sharing threat indicators, best practices, 
and incident response in a mutual, non-regulatory environment.
    Intel and Intel Security have been active in public-private 
partnerships managed by DHS and other agencies for more than 10 years. 
We have leadership roles in the President's National Security 
Telecommunications Advisory Committee (NSTAC), Information Technology 
Information Sector Coordinating Council, Information Technology 
Information Sharing and Analysis Center, National Cyber Security 
Alliance, and National Cybersecurity Center of Excellence (NCCoE). 
Through these partnerships, Intel Security works to provide hardware, 
software, and training to advance the rapid adoption of secure 
technologies around the country. In addition, we remain actively 
engaged in the development of new cybersecurity guidelines to help 
public and private-sector organizations evaluate their security 
postures and conduct risk assessments, regardless of size or 
sophistication.
    As these partnerships grow and mature, our company will continue to 
invest, engage, and contribute. The challenge is never-ending, but we 
have no doubt the public-private partnership model will continue to 
protect and serve our National interests well into the future. However, 
public-private partnerships, as any partnership, benefit from regular 
reviews, gap analyses, and a commitment to continual improvement.
Policy Recommendations to Improve Public-Private Partnerships
            1. Move to Real-Time Threat Information Sharing
    The administration needs to solidify its information-sharing 
strategy. Sharing threat information has been a necessity since I 
started in cybersecurity, yet we still are not focused on sharing 
threat information that will provide real benefits in a meaningful way. 
With the passage of the Cybersecurity Information Sharing Act (CISA), 
DHS was directed to deploy the Automated Indicator Sharing (AIS) 
program. This program allows both the private and public sectors to 
share indicators of compromise (IOC) and mitigation with each other. 
CISA also does an admirable job of requiring companies and Government 
agencies to strip out personal identifiable information (PII) and put 
in place thoughtful processes and policies to protect citizen privacy.
    While the overall program has been a strong step in the right 
direction, it still provides far too little real value. IOCs are just 
the breadcrumbs that network security staff look for to uncover clues 
as to what may be occurring inside their organizations. Typical IOCs 
are registry keys, MD5 hashes of potential malware, IP addresses, virus 
signatures, unusual DNS requests, URLs, etc. While these can be useful, 
they are really not enough to provide the defensive information needed 
to protect an organization. Today, AIS does not provide a means for 
enriching the information it shares. It simply shares minimal IOC 
information.
    To defend our institutions properly, defenders need to understand 
cybersecurity threats and their components as a whole. Indicators, 
incidents, tactics, techniques, and procedures used, threat actors, 
associated campaigns, what is being targeted, malicious tools being 
used, software vulnerabilities being exploited, courses of action to 
mitigate the threat, are all components of a cyber threat that need to 
be understood. Instead of trying to share simple breadcrumbs, we need 
to be sharing with a focus on providing a platform for enriching 
specific threat information so we can see and understand more about the 
threat.
    Often one company may discover an IOC, another may be able to 
associate it with a specific vulnerability, and still another may be 
able to provide a correlation between the known threat items and a past 
or similar attack that could lead to a potential remediation, thus 
mitigating the threat. Today we have no way to share enriched threat 
data effectively. We need information sharing with a focus on enhancing 
our abilities to protect our organizations. The administration should 
double down on working with the private sector to further evolve the 
way cyber threat information is represented, enriched, and distributed 
in a timely fashion. Cyber criminals are excellent at information 
sharing; the Government and private sectors must be as well.
            2. Encourage Full Utilization of and Update Government 
                    Procurement Rules to Enable DHS to Compete with 
                    Hackers
    There are significant gaps at DHS that preclude it from competing 
with hackers, cyber criminals, and other bad actors who innovate and 
share information quickly, often using state-of-the-art technology. 
Thus, it is critical that DHS and other Federal agencies have access to 
the same tools. This can only be achieved by encouraging full use of 
current procurement rules, and by looking for opportunities to update 
those rules where necessary. Currently, there are five ways Federal 
agencies can acquire products and services rapidly:
  <bullet> Under the Federal Acquisition Streamlining Act of 1994 
        (FASA), Congress mandated, to the maximum extent practicable, 
        the use of simplified acquisition procedures (SAPs) for 
        products and services not exceeding the simplified acquisition 
        threshold.
  <bullet> The Competition in Contracting Act of 1984 (CICA) allows 
        Federal agencies to accelerate the acquisition process where 
        there is an urgent need, or where requiring full and open 
        competition could compromise National security.
  <bullet> The U.S. General Services Administration (GSA) maintains a 
        supply schedule for information technology (Schedule 70), where 
        pre-vetted vendors with pre-negotiated terms offer 
        cybersecurity products.
  <bullet> Congress authorized the Continuous Diagnostics and 
        Mitigation (CDM) program at DHS, which allows Federal agencies 
        to expand their CDM capabilities through the acquisition of 
        commercial off-the-shelf tools, with robust terms for technical 
        modernization as threats change.
  <bullet> Congress has granted 11 agencies (including DHS) the ability 
        to enter into ``other transaction agreements,'' which generally 
        do not follow a standard format or include terms and conditions 
        normally found in contracts or grants, in order to meet project 
        requirements and mission needs.
    In addition to encouraging Federal agencies to fully use these 
procedures, procurement policy and acquisition procedures must evolve 
more rapidly to match the pace of information technology development 
and adoption by hackers, criminals, and other bad actors. Currently, 
little guidance exists in the Federal Acquisition Regulations (FAR) 
regarding the procurement of cybersecurity technology; rather, the FAR 
leaves cybersecurity implementation to each individual Federal agency. 
Agency officials and contractors must consult a myriad of different 
agency regulations to ascertain if and how other agencies have 
implemented their acquisition regulations regarding cybersecurity. This 
diversity in agency cybersecurity regulations undermines security 
requirements and policies governing Federal procurements. Harmonizing 
cybersecurity acquisition requirements would allow agencies to: (i) 
Target security to highest-priority data and threats; (ii) obtain 
greater value through reduced compliance obligations and increased 
contractor focus on high-value cybersecurity investments; and (iii) 
enhance agency cybersecurity through the adoption of best practices, 
tempered through public review and comment.
            3. Create Additional Incentives to Participate in 
                    Information-Sharing Partnerships
    A critical provision of CISA is that it gives liability protections 
to private companies that share cyber threat information (CTI) and 
defense measures (DM) on a voluntary basis with DHS. Recent guidance 
from DHS on CISA clarifies that private entities also receive liability 
protection under section 106(b)(1) for sharing CTI and DM information 
with other private entities. Policy makers have done an admirable job 
of using the incentive of liability protections, and relaxing antitrust 
rules, to help incent broad-based information sharing between the 
private sector and the Government, and among private-sector entities. 
However, too few companies are actively sharing threat information with 
DHS and among themselves to fully realize the aim of CISA--a high-
functioning eco-system of information sharing that enables the public 
and private sectors to compete with global networks of sophisticated 
hackers.
    We need to recognize the disincentive that threat intelligence's 
``free rider'' problem has imposed on public and private-sector 
information sharing. Every organization benefits from consuming threat 
intelligence but gains no direct value from providing it unless the 
right organizational structure and incentives are put in place to 
eliminate the free rider problem.
    While DHS has made progress, it still needs to improve the quality 
and the quantity of the threat data it shares with the private sector 
to address this issue of the free rider. DHS should thus declassify 
larger categories of threat data and actively share them with the 
private sector. DHS should issue many more security clearances to 
qualified company representatives to enable access to the most 
sensitive, and potentially most valuable, pieces or classes of threat 
data.
    Finally, the new administration should pass into law The Cyber 
Information Sharing Tax Credit Act--sponsored by Senators Moran and 
Gillibrand--that would incentivize businesses of all sizes to join 
sector-specific information-sharing organizations, known as Information 
Sharing and Analysis Centers (ISACs), by providing refundable tax 
credits for all costs associated with joining ISACs. The effort should 
not just focus on ISACs but should also include Information Sharing and 
Analysis Organizations (ISAO) as well. ISAOs are not limited to 
individual critical infrastructure sectors as ISACs are, and they allow 
diverse organizations to share cyber-related threat information.
            4. Use the NIST Cybersecurity Framework Process as a Model 
                    for Public-Private Partnerships
    The Framework for Improving Critical Infrastructure Cybersecurity, 
known as the NIST Cybersecurity Framework, is widely acknowledged as a 
highly successful model of public-private partnership. The Office of 
Management and Budget is already working to encourage Federal agencies 
to adopt the Framework, the new administration's draft Executive Order 
mandates Government agencies to deploy the Framework, and the private 
sector is rapidly adopting it. Here's our analysis of why:
  <bullet> The need was real;
  <bullet> The process was open;
  <bullet> NIST listened first;
  <bullet> They were prepared;
  <bullet> They engaged all stakeholders;
  <bullet> The framework was voluntary--not regulatory.
    I'd like to expand on each of these aspects, not simply to 
compliment NIST but to offer the process as a model for future public-
private partnerships.
The need was real
    PPPs created around a topic or issue that is real to both the 
public and the private sectors has a much better chance of getting the 
exposure and participation needed to achieve the goal of the 
partnership. In the case of the Cybersecurity Framework, it was obvious 
to both groups that the need existed. While NIST had a hard time frame 
to be successful in--1 year--they had a long history in risk management 
and understood the need well. For too long regulatory compliance had 
forced industry to spend valuable security dollars to prove something 
to the regulators instead of using those resources to help protect 
enterprises. The cost of compliance was impacting our ability to secure 
ourselves.
Openness of the process
    From the very beginning, NIST made it clear this was going to be a 
very open process. In the initial meeting, NIST staff described what 
would be occurring, from the RFI-submitted comments being made public 
on a NIST project website, to the anticipated workshop process and 
general time line for various milestones. Along the way, NIST staff 
were quick to ensure that industry participants understood what was 
happening so there would be no surprises. This created a growing sense 
of trust as the effort evolved and made the process more effective 
during the development of the Framework.
Listening
    One of the more interesting and effective parts of the development 
was the way NIST staff listened to the workshop participants. They used 
a moderated dialog approach that allowed all attendees to voice their 
opinions to a set of topics the NIST staff wanted to learn about. There 
were very active discussions that were highly informative from members 
of various sectors and industries. Dr. Gallagher, NIST's Director at 
the time, stated quite clearly this was not NIST's Framework; this was 
the community's Framework. Having the public side of a public-private 
partnership listen instead of dictate allowed private-sector 
participants to voice their opinions in a much more open and direct 
way. This too built trust as the effort went along.
Being prepared
    Each of the workshops seemed very well organized, and the topics, 
panels, questions and outcomes were well thought-out before each 
workshop began. This gave participants reassurance their time was being 
well spent. Open forums with no direction or planning do not give those 
involved much confidence the effort will succeed. Being prepared also 
meant participants needed to do their homework as well. While not 
always the case, as the workshops advanced, they did so.
Engaging all
    One of the smartest things NIST did as part of the Framework 
development process was to understand they needed to get outside the 
Beltway for the effort to be successful. They held the workshops in 
different locations around the country so the local owner/operators of 
the critical infrastructure could have their voices heard. This ensured 
there was a diverse group at each of the workshops and all were able to 
participate. The processes used during the workshops encouraged all in 
the room to contribute and they did. A highly interactive, 
collaborative environment is one where real dialog can occur and 
produce positive results.
Voluntary, non-regulatory nature
    The fact that NIST is a non-regulatory body also helped their 
credibility and the private sector's attitude toward participating and 
contributing. This was a topic area that had a lot of people concerned 
initially, but as the effort progressed, more and more private-sector 
participants relaxed and believed in the voluntary intent of the 
effort. NIST also made it clear in each workshop that they were 
requiring a non-attribution from any and all regulators in the room. 
Each agreed to the rules, making it much more comfortable for real open 
and honest dialog to occur.
    While others have tried to copy the NIST success, often they have 
left out one or more of the characteristics that made the Cybersecurity 
Framework effort a success. In reality, both the public and the 
private-sector participants must buy in. To do so requires trust in the 
process, the effort and the vision for the outcome to be successful
            5. Seek Innovative Ways to Further Grow the Information-
                    Sharing Eco-System
    Company-to-company information sharing is growing in certain parts 
of the economy. An example is the Cyber Threat Alliance (CTA). Intel 
Security, along with Check Point, Cisco, Fortinet, Palo Alto Networks 
and Symantec, worked together to start and build the CTA. This is a 
group of cybersecurity practitioners from organizations that have 
chosen to work together in good faith to share threat information for 
the purpose of improving defenses against advanced cyber adversaries 
across member organizations and their customers. The key to the success 
of this effort is that each organization must supply threat information 
to all the members in order to receive threat information. This allows 
each of the member organizations to incorporate the others' threat 
information into their products' protection mechanisms. This is an 
example of valuable and actionable shared threat information having a 
direct and positive impact on improving their customers' environments. 
The member organizations have decided to participate in the Alliance 
for the betterment of the ecosystem they serve.
    The CTA is also showing that with the right organizational 
construction--with the right incentives to collaborate--real progress 
in private-sector information sharing can be made. Examples of 
successes include cracking the code on Crypto Wall version 3, one of 
the most lucrative ransomware families in the world, totaling more than 
US$325 million ransomed. CTA's disruption of Crypto Wall 3 forced 
cybercriminals to develop Crypto Wall version 4, which the CTA also 
uncovered and resulted in a much less successful attack. This is a 
prime example where creating an operationally holistic view of the 
threat and how to address it has had an extremely positive impact on 
our ability to protect ourselves.
    To further incentivize companies to share threat information among 
themselves, policymakers should amend The Cyber Information Sharing Tax 
Credit Act. Such an incentive would help speed the growth of existing 
private sector-to-private sector information-sharing coalitions and 
help start news ones, particularly in some sectors of the economy that 
have been slow to realize the benefits of sharing threat information 
with partners and competitors.
                               conclusion
    Given the rapidly-changing threat environment, public and private-
sector organizations cannot go it alone. The challenge is never-ending, 
but I have no doubt that the public-private partnership model will 
continue to protect and serve our National interests well into the 
future. Public-private partnerships benefit from regular reviews, gap 
analysis, and a commitment to continual improvement. The subcommittee 
should be commended for taking such a thoughtful approach to reviewing 
the successes and challenges of DHS-managed public-private 
partnerships.
    As stated earlier, DHS deserves much praise. It manages a thriving 
number of public-private partnerships that serve the National interest. 
At the same time, real-time information sharing needs to be implemented 
on a grand scale, IT procurement rules should be updated, DHS 
partnerships need to be benchmarked against other successful ones on a 
regular basis and additional incentives should put in place to help 
grow the information-sharing eco-system. Intel Security--soon to become 
McAfee--is committed to continue to invest, engage, and contribute to 
support the long-term success of the partnership model. Our collective 
security depends on making the promise of ``together is power'' a 
reality.

    Mr. Ratcliffe. Thank you, Mr. Montgomery.
    Mr. Greene, you are recognized for 5 minutes.

STATEMENT OF JEFFREY GREENE, SENIOR DIRECTOR, GLOBAL GOVERNMENT 
                  AFFAIRS AND POLICY, SYMANTEC

    Mr. Jeffrey Greene. Thank you. Chairman Ratcliffe, Ranking 
Member Richmond, Members of the committee, thank you for the 
opportunity to testify today.
    As Mr. Montgomery mentioned, the threat landscape is 
constantly evolving. In the current situation, there is no 
company or no government that can go it alone. We are therefore 
pleased to see your continued focus on how DHS can work with 
the private sector in new and innovative ways.
    I want to start by talking briefly about the current cyber 
threat environment. You will see a lot of headlines about cyber 
attacks focused on massive data breaches or cyber espionage, 
but it is important not to lose sight of the other types of 
attacks that can have major consequences.
    The incidents we see today range from increasingly 
sophisticated forms of ransomware, in particular ransomware 
being targeted at the enterprise as opposed to the individual, 
to massive distributed denial-of-service attacks, DDoS attacks, 
that were launched from connected or internet-of-things, IOT, 
devices.
    We at Symantec have a long-standing relationship with DHS. 
From our perspective, the Department has made significant 
progress engaging with the private sector over the past few 
years.
    The Cyber Information Sharing and Collaboration Program, or 
CISCP, allows participants to share information about 
incidents, cyber threats, and known vulnerabilities.
    One example I would point to is last October we shared 
research from a group that we had discovered that was trying to 
steal money from banks by exploiting the SWIFT messaging 
system. This is the same attack that was used to steal $81 
million from the Bangladesh central bank.
    CISCP managers took the information that we provided, 
developed an indicator bulletin, and pushed that out to all 
CISCP participants.
    CISCP also convenes practitioners at quarterly advanced 
technical threat exchanges. For the most part, we have found 
the exchanges useful. Last year, we did a presentation at one 
of them focused on new and emerging ransomware. Included in 
this presentation was in-depth analysis and specific indicators 
of compromise that were then available to all participants to 
use to try to upgrade their systems if necessary.
    But also beyond the technical information that is shared, 
these are opportunities for Government and industry to sit down 
face-to-face, develop trusted relationships, both between 
Government and the private sector and also within the private 
sector itself.
    Many of DHS's reports and bulletins include substantive 
analysis and actionable information, but at times some do fall 
short. In some cases, reports have included indicators of 
compromise that were not fully vetted or, as Mr. Montgomery 
mentioned, didn't have the context around them. Sometimes some 
private-sector companies have used these without proper 
research on their end, and there has been in a couple of 
instances a high degree of false positives based on them.
    To DHS's credit, though, when that has happened they have 
been responsive to industry concerns and at times have issued 
revised reports.
    As DHS moves to machine-speed sharing through the Automated 
Indicator Sharing Program, the need for context and vigorous 
vetting is just going to grow. This is going to put something 
of a burden on DHS and its partner agencies because, on the one 
hand, they are being told to share more and to share faster, 
but on the other hand they are being told to be very careful 
about what you share and vet it before you do so. So this is a 
balance that is not easy to strike and it is going to require 
constant tuning.
    We also engage with DHS informally. An example, last week 
we had 10 of DHS's cyber analysts out at our operations center 
in Herndon to discuss a few specific threats. Face-to-face 
meetings like this can alleviate another concern that you may 
have heard that too often the information flow is one way just 
from the private sector to the Government. In-person 
discussions can lead to a more complete and bilateral exchange 
of ideas.
    In addition to DHS, we work with the FBI and other agencies 
to assist efforts to fight cyber crime and take down botnets. 
There is more information in our written testimony, but I do 
want to highlight one case. This is our work on unearthing an 
international criminal gang that was called Bayrob.
    Bayrob evolved over a decade. We spent a year tracking them 
and, in part based on the information we provided to the FBI, 
they built a case that led to the arrest and extradition from 
Romania of three of Bayrob's key actors. So I think we need to 
consider broader than just DHS and how DHS works with other 
agencies as well.
    Finally, the partnership among private-sector companies is 
alive and well. As Mr. Montgomery mentioned and Mr. Gillis may 
discuss, we are part of what is called the Cyber Threat 
Alliance that shows how even competitors can work together to 
improve the overall safety and security of the internet and 
that of our customers.
    As Members of this committee know better than most, we 
still face significant challenges in our efforts to improve 
cybersecurity and to fight cyber crime. Cybersecurity is first 
and foremost a team sport, and at Symantec we are committed to 
improving the internet security and will continue to work with 
industry and Government collaboratively on ways to do so.
    Thanks again for the opportunity to be here. I am happy to 
take any questions.
    [The prepared statement of Mr. Greene follows:]
                  Prepared Statement of Jeffrey Greene
                             March 9, 2017
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
committee, my name is Jeff Greene and I am the senior director, global 
government affairs and policy at Symantec. I am responsible for 
Symantec's global public policy agenda and Government engagement 
strategy, and represent the company in key public policy initiatives 
and partnerships. I also serve as a member of the National Institute of 
Standards and Technology's (NIST) Information Security and Privacy 
Advisory Board (ISPAB), and recently supported the President's 
Commission on Enhancing National Cybersecurity. Prior to joining 
Symantec, I served as senior counsel with the U.S. Senate Homeland 
Security and Governmental Affairs Committee, where I focused on 
cybersecurity and homeland defense issues.
    Symantec Corporation is the world's leading cybersecurity company. 
We help organizations, governments, and people secure their most 
important data wherever it resides. Organizations across the world look 
to Symantec for strategic, integrated solutions to defend against 
sophisticated attacks across endpoints, cloud, and infrastructure. 
Likewise, a global community of more than 50 million people and 
families rely on our Norton and LifeLock product suites to protect 
their digital lives at home and across their devices. Symantec operates 
one of the world's largest civilian cyber intelligence networks, 
allowing us to see and protect against the most advanced threats. We 
maintain nine Security Response Centers and six Security Operations 
Centers around the globe and every day we scan 30 percent of the 
world's enterprise email traffic and process more than 1.8 billion web 
requests. All of these resources combined allow us to capture world-
wide security data that give our analysts a unique view of the cyber 
threat landscape.
    No government or company can go it alone in this environment, and 
we are happy to see the subcommittee focusing on how the private sector 
engages with DHS and other government agencies to help defend against 
growing cyber threats. Lasting improvements in cybersecurity require 
the combined efforts of Government and industry together. In my 
testimony today, I will discuss:
  <bullet> The current and emerging threat landscape;
  <bullet> DHS and Private-Sector Engagement; and
  <bullet> How we partner with our industry counterparts to stop cyber 
        attacks.
           i. the current and emerging cyber threat landscape
    Many of the recent headlines about cyber attacks have focused on 
massive data breaches and cyber espionage across the spectrum of 
industries and governments. These headlines remind us that no 
organization or government entity is impervious when targeted by a 
motivated and skilled attacker. Yet while the focus on data breaches 
and the personal information exposed is certainly warranted, we also 
must not lose sight of the other types of cyber attacks that are 
equally concerning and that can have damaging consequences. There is a 
wide set of tools available to the cyber attacker, and the incidents we 
see today include increasingly sophisticated forms of ransomware, 
massive distributed denial of service (DDoS) attacks by ``Internet of 
Things'' (IoT) devices, sophisticated (and potentially destructive) 
intrusions into critical infrastructure systems, and the weaponization 
of personal information. The economic impact to an organization can be 
immediate, through the theft of money or the payment of ransom, or more 
long-term and structural, such as through the theft of intellectual 
property. It can ruin a company or individual's reputation or finances, 
and it can impact citizens' trust in the internet and their Government.
    The attackers run the gamut and include highly-organized criminal 
enterprises, nation-states, disgruntled employees, individual cyber 
criminals, so-called ``hacktivists,'' and state-sponsored groups. The 
motivations vary--criminals generally are looking for some type of 
financial gain, hacktivists are seeking to promote or advance some 
cause, and state actors can be engaged in espionage (traditional 
spycraft or economic) or infiltrating critical infrastructure systems. 
These lines, however, are not set in stone, as criminals and even state 
actors might pose as hacktivists, and criminals often offer their 
skills to the highest bidder.
    Attack methods vary, and the only constant is that the techniques 
are always evolving and improving. Spear phishing, or customized, 
targeted emails containing malware or malicious links, is the most 
common form of attack. Many of these attacks are extremely well-
crafted; in the case of one major attack, the spear-phishing email was 
so convincing that even though the victim's system automatically routed 
it to junk mail, he retrieved it and opened it--and exposed his company 
to a major breach. Social media is an increasingly valuable tool to 
criminals as people tend to trust links and postings that appear to 
come from a friend's social media feed and rarely stop to wonder if 
that feed may have been compromised or spoofed. We have also seen the 
rapid growth of targeted web-based attacks, known as a ``watering 
hole'' attack. Like the lion in the wild who stalks a watering hole for 
unsuspecting prey, cyber criminals lie in wait on legitimate websites 
that they compromise and use to try to infect visitors. Most of these 
attacks rely on social engineering--simply put, trying to trick people 
into doing something that they would never do if fully cognizant of 
their actions. For this reason, we often say that the most successful 
attacks are as much psychological as they are technological.
    One particularly concerning trend is the recent use of IoT devices 
in DDoS attacks. By taking advantage of poor security and design 
practices, criminals were able to compromise hundreds of thousands, if 
not millions, of devices and aggregate them as a single army of zombie 
devices--the world's first major IoT botnet, known as Mirai. In October 
2016, cyber criminals used the Mirai botnet to launch a massive DDoS 
Attack on DNS provider Dyn, which disrupted some of the internet's 
biggest websites, including Spotify, Twitter, PayPal, Reddit, and 
others. Mirai's ``bots'' were primarily compromised webcams and digital 
video recorders, but also included routers and other internet-connected 
devices. This attack was quickly followed by at least two others, each 
record-breaking in its size.
    How did these IoT-based attacks happen? Very easily, unfortunately. 
The average IoT device is scanned for vulnerabilities just 2 minutes 
after it is connected, and when one is found that device is promptly 
compromised. The most common method is simple--criminals take advantage 
of pre-programmed, default usernames and passwords and simply log onto 
devices and commandeer them. With the explosion of insecure internet-
connected devices hitting the market, this type of attack will only 
continue to grow and become more effective.
                 ii. dhs and private-sector engagement
    The Department of Homeland Security has made considerable progress 
in recent years engaging with the private sector, especially in the 
area of information sharing. The Cyber Information Sharing and 
Collaboration Program (CISCP) is DHS's primary structure for private 
companies to share information about incidents, cyber threats and known 
vulnerabilities. This information is then shared among participating 
industry partners in an anonymized fashion to help secure their own 
networks. In addition, CISCP convenes cybersecurity practitioners at 
quarterly Advanced Technical Threat Exchanges (ATTE). We have been 
active in these exchanges, and late last year presented our research on 
ransomware, which included an in-depth analysis of new infection trends 
and payload execution. We provided a list of specific indicators that 
participants could use to further research and ensure their own systems 
were protected. We have also presented on how companies and governments 
can leverage threat intelligence to reduce ``Indicator of Compromise 
(IoC) noise.'' Beyond the technical information shared, the ATTEs are 
helpful in building trusted relationships and contacts between 
Government and private industry, and even within the private sector 
itself. These exchanges often lead to follow-on collaboration and, in 
some cases, joint research.
    Another notable example of effective information sharing through 
the CISCP program came in October of last year when Symantec published 
a report exposing a hacking group that was trying to steal money from 
banks by exploiting the financial-based SWIFT messaging system used to 
identify electronic transactions in the global financial system. In one 
of the highest-profile attacks of the year, attackers used this same 
method to steal $81 million from the Bangladesh Central Bank. Similar 
to the Bangladesh attack, Symantec found a previously-unknown malware 
variant (called Odinaff) being used against financial institutions. 
This particular malware can delete customer logs of SWIFT transactions, 
allowing attackers to hide their tracks. We passed along our in-depth, 
technical research to CISCP managers along with a list of indicators 
including hashes, command-and-control nodes, and domains. The CISCP 
team then used our indicators to create an Indicator Bulletin (IB) and 
pushed it out to all CISCP participants for their use.
    The quality of DHS's analysis reports can vary. Many reports 
include substantive analysis and actionable information, while some 
have fallen short. In those instances, many of the IoCs included in the 
report were unvetted, and companies that used them without proper care 
saw a high volume of false positives. In some cases the IoCs proved to 
be unrelated to the threat itself. To its credit, DHS is generally 
responsive to industry concerns and has on occasion issued updated 
reports with more information.
    The importance of carefully vetting indicators is of increased 
importance as DHS moves to Automated Indicator Sharing (AIS). The AIS 
program allows the two-way exchange of cyber threat indicators between 
the Federal Government and the private sector at machine speed. This 
means that as soon as a company or a Federal agency identifies a 
threat, that indicator is shared in real time with all of the AIS 
participants. However, with an emphasis on velocity and volume, 
appropriate context and more vigor in vetting is necessary. Added 
context allows recipients to understand how to use an IoC or how to 
calibrate their internal response. To be sure, DHS and its partner 
agencies are in a difficult spot--the private sector is demanding both 
timely and vetted information, and this balance is not easy to strike. 
Industry has conveyed these concerns to DHS, which has worked to 
improve both its analysis and the quality of the indicators.
    Another program DHS has implemented to engage with industry is the 
Critical Infrastructure Cyber Community or C\3\. The C\3\ is a 
voluntary program that helps critical infrastructure operators improve 
their cybersecurity and actively encourages the adoption of the 
Framework for Improving Critical Infrastructure Cybersecurity, commonly 
known as the NIST Cybersecurity Framework (CSF). The CSF was developed 
in collaboration with the private sector, and Symantec was part of that 
effort. We began using the CSF when it was still in draft form and was 
one of the first companies to map our internal security to it. We 
support DHS's efforts to encourage use of the CSF, both for companies 
with existing cybersecurity programs and for those who are building one 
from scratch.
    In addition to the Department's formal programs, we work with DHS 
informally. For instance, just last week, we hosted a group of ten 
cyber threat analysts at our Herndon Security Operations Center to 
discuss specific threats and to explore potential areas to coordinate 
in the future. Among other topics, we discussed Shamoon, a family of 
destructive malware that we have tracked for years. Shamoon was used in 
attacks against the Saudi energy sector in 2012\1\ and recently we have 
been tracking a fresh wave of attacks hitting the Middle East.\2\ The 
opportunity to sit face-to-face and discuss threats often alleviates 
another concern among many private-sector security companies, that too-
often the information flows just one way--from industry to the 
Government. In-person exchanges often lead to a more complete and 
bilateral interchange of ideas.
---------------------------------------------------------------------------
    \1\ The Shamoon Attacks, Symantec Security Response, 8/16/12;  
https://www.symantec.com/connect/blogs/shamoon-attacks.
    \2\ Shamoon: Multi-staged destructive attacks limited to specific 
targets, Symantec Security Response, 2/27/17; https://www.symantec.com/
connect/blogs/shamoon-multi-staged-destructive-attacks-limited-
specific-targets.
---------------------------------------------------------------------------
Other Government Partnerships
    Partnerships can lead to concrete results. One recent example came 
in December 2016, when Symantec concluded a decade-long research 
campaign that helped unearth an international cyber criminal gang 
dubbed ``Bayrob.'' The group is responsible for stealing up to $35 
million from victims through auto auction scams, credit card fraud and 
computer intrusions. Through our research, we discovered multiple 
versions of Bayrob malware, collected voluminous intelligence data, and 
tracked Bayrob as it morphed from on-line fraud to a botnet consisting 
of over 300,000 computers used primarily for cryptocurrency mining. 
Over time, Symantec's research team gained deep technical insight into 
Bayrob's operations and its malicious activities, including its 
recruitment of money mules. These investigations and countermeasures 
were crucial in assisting the Federal Bureau of Investigation (FBI) and 
authorities in Romania in building their case to arrest three of 
Bayrob's key actors and extradite them to the United States.
    Indeed, in recent years we have seen a string of successful arrests 
and prosecutions of some of the most notorious cyber criminals in the 
world. In July 2015, a New York judge sentenced Alexander Yucel, the 
creator of the ``Black Shades'' Trojan to 5 years in prison and the 
forfeiture of $200,000. Yucel was swept up by the FBI and Europol last 
year along with dozens of other individuals in the United States and 
abroad. Symantec worked closely with the FBI in this coordinated take-
down effort, sharing information that allowed the agency to track down 
those suspected of involvement. In June 2015, Ercan ``Segate'' 
Findikoglu, who prosecutors say orchestrated one of the biggest cyber 
bank heists in American history, was extradited to the United States to 
stand trial for stealing more than $55 million by hacking bank 
computers and withdrawing millions in cash from ATMs.
    Additionally, Government and private-sector cooperation has led to 
take-down operations against prominent financial fraud botnets. In June 
2014, the FBI, the United Kingdom (UK) National Crime Agency, and a 
number of international law enforcement agencies mounted a major 
operation against the financial fraud botnet Gameover Zeus and the 
ransomware network Cryptolocker. Gameover Zeus was the largest 
financial fraud botnet in operation in 2014 and is often described as 
one of the most technically sophisticated variants of the ubiquitous 
Zeus malware. Symantec provided technical insights into the operation 
and impact of both Gameover Zeus and Cryptolocker, and worked with a 
broad industry coalition and the FBI during this case. As a result, 
authorities were able to seize a large portion of the infrastructure 
used by the cyber criminals behind both threats.
 iii. private-sector partnerships to enhance cybersecurity--the cyber 
                            threat alliance
    While DHS continues to engage industry, the private sector is not 
just waiting on the Government to solve the problem. Industry 
partnerships have proven to be highly effective in fighting cyber 
crime. The Cyber Threat Alliance (CTA) is an excellent example of the 
private sector banding together to improve the overall safety and 
security of the internet. In 2014, Symantec, Fortinet, Intel Security, 
and Palo Alto Networks formed the CTA to work together to share threat 
information. Since that time, Cisco and Checkpoint have joined the CTA 
as founding members. The goal of the CTA is to better distribute 
detailed information about advanced attacks and thereby raise the 
situational awareness of CTA members and improve overall protection for 
our customers.
    Prior industry-sharing efforts were often limited to the exchange 
of malware samples, and the CTA sought to change that. Over the past 3 
years the CTA has consistently shared more actionable threat 
intelligence such as information on ``zero day'' vulnerabilities, 
command-and-control server information, mobile threats, and indicators 
of compromise related to advanced threats. By raising the industry's 
collective intelligence through these new data exchanges, CTA members 
have delivered greater security for individual customers and 
organizations. In short, the CTA is not about one vendor trying to gain 
advantage--we are all contributing and sharing with the community.
    Because of the success of the CTA, the founding members decided to 
take it to the next level and earlier this year formally incorporated 
it as a non-profit organization. Working together, CTA members have 
developed a new platform designed to automate intelligence sharing in 
near-real time. Through this effort we hope to solve some of the 
problems created by isolated and manual approaches to cyber threat 
intelligence. The new CTA has three purposes:
    1. To share threat information in order to improve defenses against 
        advanced cyber adversaries across member organizations and 
        their customers;
    2. To advance the cybersecurity of critical information technology 
        infrastructures; and
    3. To increase the security, availability, integrity, and 
        efficiency of information systems.
    CTA is also committed to engaging in discussions around policy 
initiatives that will improve cybersecurity for individuals and 
governments. As CTA moves forward with its mission, it intends to 
explore how to best partner with U.S. and international Government 
organizations in furtherance of its mission.
                               conclusion
    As the Members of this subcommittee know better than most, we still 
face significant challenges in our efforts to improve cybersecurity and 
fight cyber crime. Cybersecurity is a team sport and effective public-
private partnerships with DHS and other Government agencies are 
essential. DHS and industry have made notable progress over the last 
several years--trust has improved--but there is still room for growth. 
Attackers are always evolving, becoming more sophisticated, and both 
Government and industry recognize the imperative for cooperation to 
fight cyber crime. At Symantec, we are committed to improving internet 
security across the globe, and will continue to work collaboratively 
with industry and Government partners like DHS on ways to do so. Thank 
you again for the opportunity to testify, and I will be happy to answer 
any questions you may have.

    Mr. Ratcliffe. Thank you, Mr. Greene.
    Mr. Gillis, you are recognized for 5 minutes.

 STATEMENT OF RYAN M. GILLIS, VICE PRESIDENT OF CYBERSECURITY 
         STRATEGY AND GLOBAL POLICY, PALO ALTO NETWORKS

    Mr. Gillis. Chairman Ratcliffe, Ranking Member Richmond, 
Members of the committee, it is an honor to be here today to 
discuss DHS's interface with the private sector.
    It is tough to go forth after this group of individuals. I 
would like to start by thanking the committee for your 
leadership in cybersecurity. The legislation that you have 
helped lead over the last several years has not only helped 
foster responsible cyber threat information sharing, it has 
also strengthened the statutory responsibilities and statutory 
authorities that DHS has to execute its mission, both within 
the Federal Government and to interface with the private 
sector. So that has been a critical challenge that DHS has 
faced in standing up its cyber capabilities.
    My name is Ryan Gillis. I am pleased to represent Palo Alto 
Networks. We are newer than some of our other industry 
colleagues up here, but within the 10 years since we have 
shipped our first product we have become one of the largest 
cybersecurity companies in the world.
    Also happy to offer some historical perspective as I spent 
over a decade within the National Security Council at the White 
House and Department of Homeland Security. So this public/
private experience that I have gone through I think represents 
the broader operational reality which is that, as you said, 
Chairman, cybersecurity is a fundamentally distributed 
responsibility. There are capabilities in the private sector 
and authorities within the U.S. Government and governments 
around the world that can complement each other. DHS is central 
to that.
    DHS's role in not only protecting civilian networks and 
interfacing with the private sector, helping to secure critical 
infrastructure, is essential. That is a policy decision that 
has been made by consecutive administrations and in a 
bipartisan way through Congress to ensure that there is a 
civilian interface for that role and mission and to build-up 
the capability within DHS, whether it is through informal 
sharing examples I will go through, as well as programs such as 
CISP and AIS.
    Let me give you a quick perspective that we have on the 
cyber threat landscape, which is that right now attacks are 
overly automated. The bad guys are working together. They are 
using free tools and cheaply available tools to launch 
automated attacks. So the cost is too low right now to be 
successful.
    The business model is frequently, whether you don't have 
the capability to develop your own attacks, but you are using 
those freely available things that can bring you into the 
ecosystem, or if you are a sophisticated nation-state, you are 
generally going to use the least sophisticated attack that can 
accomplish your goal. So what we need to do is flip that cost 
curve by automating defenses and making sure that we are 
collectively working together.
    On a company level, we deploy technology that stops attacks 
at certain points within the attack life cycle. It constantly 
requires updates, as Scott talked about earlier. So just on a 
corporate level, we provide 1.1 million new preventative 
measures to our technology around the world on a weekly basis, 
pushed out in as little as 5 minutes. One company alone, as you 
have heard today, can't do that adequately, so we need to find 
partnerships throughout the ecosystem.
    On an industry level, you have heard about the Cyber Threat 
Alliance. To give a little bit more of an example of how the 
Cyber Threat Alliance worked on this CryptoWall example that 
Scott talked about, $300 million had been extorted in 
ransomware through this CryptoWall campaign. The vendor 
community, through the Cyber Threat Alliance, came together and 
shared what we knew about the infrastructure, defended all of 
our collective clients against those attacks. Prior to 
publishing that report, we called up Department of Homeland 
Security to ensure that we were collaborating on that.
    DHS had FBI on the phone that night. They made sure that 
U.S. Government networks were similarly protected against those 
types of attack. They did notifications to internet service 
providers and to victims to help clean up. Most of the attacks 
were coming from unknowing victims that didn't know that their 
systems were being repurposed for attack.
    Then in an actual, quantifiable example of information 
given back from the Government, we got an additional 170 
command-and-control nodes, parts of the infrastructure that we 
as vendors had not identified as part of the context of that 
attack, and we were able to further protect all of our 
collective customers.
    So it is one example of how we can share, as Scott said, 
more context and become more effective overall. What we need to 
move to is in programs like CISP and AIS, getting closer to 
machine speed with those types of examples.
    So there is opportunity to expand on the nascent 
capabilities that DHS has rolled out through AIS and CISP and 
make us more effective overall.
    I think the other thing that you are going to see as well 
is that I believe the U.S. Government is never going to be 
quick at declassifying some of its most valuable information. 
What the U.S. Government may not realize, however, is that we 
in the vendor community may see trial balloons of that most 
sophisticated technology in a few places and in unclassified 
ways.
    If we can share that with the U.S. Government, we can 
obviate that whole what they call the tear line process, where 
the U.S. Government has to declassify that information, and the 
U.S. Government can point to the financial sector or the energy 
sector, whoever they think may be targeted by that particularly 
pernicious campaign, and say you need to focus on this, we have 
seen it out in the wild, and we think bad guys are going to go 
after it.
    So this collective public/private, DHS will be at the 
center of that. Ultimately, we think things like the Cyber 
Threat Alliance are crucial to taking that next step.
    [The prepared statement of Mr. Gillis follows:]
                  Prepared Statement of Ryan M. Gillis
                             March 9, 2017
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
committee: Thank you for the opportunity to appear before you today to 
discuss how the Department of Homeland Security engages with the 
private sector. My name is Ryan Gillis, and I serve as the vice 
president of cybersecurity strategy and global policy at Palo Alto 
Networks.
    I would like to begin today by recognizing the tremendous 
leadership this committee has shown on the issue of cybersecurity. I 
have seen first-hand this committee's central role in passing a range 
of cybersecurity legislation that promotes responsible cyber 
information sharing and strengthens the Department of Homeland 
Security's (DHS) statutory authority to execute its mission. The 
committee is directly responsible for helping shape legal clarity to 
expand cyber information sharing, provide appropriately targeted 
liability protections for companies, and establish necessary privacy 
protections in the Cybersecurity Act of 2015. The end result reflects 
this committee's sound understanding of how critical public-private 
trust and cooperation is to effective information sharing, and I'm 
honored to support this committee's continued oversight 
responsibilities. So, let me first say thank you for your leadership 
and for the opportunity to speak with you today.
    For those not familiar with Palo Alto Networks, we have become one 
of the world's largest cybersecurity companies just 10 years after our 
first product shipped, actively preventing successful cyber attacks for 
more than 37,000 corporate and Government enterprise customers in more 
than 150 countries world-wide. Our collaboration with DHS ranges from 
strategic policy development to operational initiatives, starting with 
a commitment from the top of our organization. Our CEO and chairman, 
Mark McLaughlin, just completed consecutive 2-year terms as chairman 
and vice chairman of the President's National Security 
Telecommunications Advisory Committee (NSTAC). Founded during the 
Reagan Administration and administered by DHS, NSTAC brings industry 
chief executives together to provide counsel on National security 
policy and technical issues for the president and other U.S. Government 
leadership.
    Since joining Palo Alto Networks in January of 2015, my principal 
role has been to work with governments, companies, and organizations 
around the world to develop and implement strategies, policies, and 
operational partnerships that prevent successful cyber attacks. 
Candidly, this approach to cybersecurity builds naturally upon the 
years I spent at the DHS and on the National Security Council at the 
White House, and it reflects the operational reality that cybersecurity 
is fundamentally a shared and distributed challenge that can only be 
effectively addressed through collaboration, which leverages the unique 
capabilities and authorities of companies, individuals, and 
governments.
    To that end, we maintain a regular cadence with appropriate 
government and law enforcement stakeholders around the world. The U.S. 
Department of Homeland Security is the cornerstone of these government 
engagements because of its mission to collectively prevent, protect 
against, mitigate, respond to, investigate, and recover from cyber 
incidents. Our robust and multi-faceted partnership with DHS includes 
participation in formalized programs, as well as more informal 
collaboration mechanisms built on trust and personal relationships. We 
engage with DHS as an individual company and as part of broader 
collectives of private-sector entities.
    My testimony today will address the full spectrum of this DHS 
relationship, framing why public-private sector collaboration is so 
critical to improving our cybersecurity as a Nation--and what 
collective actions we believe private industry and Government must take 
to effectively leverage information sharing as a tool to achieve the 
desired outcome of increased cybersecurity. Finally, I'll outline 
specific examples of our collaboration with DHS--including information 
sharing, policy development, and cybersecurity exercises. In doing so, 
I'll highlight several tangible success stories of public-private 
partnerships; opportunities for potential improvements; and, not only 
what Congress has done to incentivize these partnerships, but also what 
can be done to further enable progress in these areas.
   why public-private sector cybersecurity collaboration is important
    Before providing an assessment of the current state of DHS and 
private-sector cybersecurity collaboration, it is critical that we 
clearly define the objectives we are seeking to achieve through this 
partnership. As arguably the most developed mechanism of public-private 
sector cooperation, cyber information sharing provides a valuable use 
case for this discussion.
    As the concept of information sharing has received wide-spread 
attention in recent years, the term has adopted an increasingly broad 
and varied definition. Because of this, it is critical to clearly 
define how Palo Alto Networks approaches information sharing, and how 
it fits into our broader mission of raising costs for our adversaries 
and actively preventing cyber attacks. This approach recognizes that 
cyber threat information sharing, while critical, is not a panacea. 
Information sharing is one necessary tool within a much larger strategy 
that leverages people, process, and technology to tangibly reverse the 
attackers' current advantage in cyber space.
    The Palo Alto Networks perspective on cybersecurity is built on a 
relatively simple premise: We believe that cybersecurity is a 
correctable math problem that, at present, overwhelmingly favors the 
attackers. As the cost of computing continues to decline, our 
adversaries have been able to conduct increasingly automated, 
successful attacks at minimal cost. In fact, many free and open-source 
tools are available on-line that enable repeatedly successful attacks 
against poorly-defended networks. In the face of this automated 
onslaught, the network defender is generally relying on legacy security 
technologies, often cobbled together as multiple layers of ``point'' 
products that solve discreet problems but do not interoperate in a way 
that can holistically reduce priority risks across an organization's 
entire network infrastructure. This increased technological complexity 
creates a dependence on people--one of the least scalable resources in 
any organization--to manually defend against automated, machine-
generated attacks. Network defenders are simply losing the economics of 
the cybersecurity challenge.
    To flip this equation and gain back leverage against our 
adversaries, we need to collectively embrace integrated approaches that 
simplify and automate network defense to actively prevent cyber 
attacks. This is a critical point: If we focus on preventing attacks in 
the correct locations--informed by sophisticated and integrated 
detection capabilities--we can deter malicious activity by making it 
more expensive in terms of resources, time, and personal impact for our 
adversaries to launch a successful attack. True integration across the 
cybersecurity ecosystem--leveraging initiatives like automated 
information sharing and technology orchestration--can be the catalyst 
in reversing this current unsustainable dynamic that exists in cyber 
space.
    Our approach to automated integration begins within our own 
technology platform. We build technology that prevents attacks at the 
key tactical and strategic places where cyber attackers need to take 
action to be successful, and we update our global customer base with 
the latest protections in as little as 5 minutes. As a matter of scope, 
we generate more than 1 million new preventive measures each week as we 
identify new, or ``zero-day,'' cyber threats. This is not to imply that 
we--nor any one company or Government--can alone see and prevent all 
the evolving automated threats facing network defenders. Consequently, 
we partner with other companies and appropriate Government agencies 
whose competencies complement ours to help gain the leverage required 
to disrupt attackers and their tools.
    At its core, our company's network defense and information-sharing 
philosophy closely mirrors the ultimate vision for information sharing 
championed by this committee. Our approach is focused on three primary 
objectives: (1) Protect against all known cyber threats; (2) turn 
unknown threats into known threats as quickly as possible; and (3) 
automatically leverage this new threat knowledge to create preventive 
countermeasures that are shared broadly within the ecosystem to prevent 
other entities from falling victim to similar attacks. This last 
component is critical. As this committee knows well, information 
sharing is too often a time-intensive process that requires a human to 
read, interpret, and manually create prevention controls based on 
technical cyber threat indicators provided in a non-machine-readable 
format like a PDF or email. This manual process simply can't scale to 
the speed and sophistication of the modern cyber threat environment.
    Sophisticated cybersecurity companies can uniquely contribute to 
this challenge because we collectively have the physical infrastructure 
and processing ability to automatically deploy preventive measures 
based on new threat information to a broad customer base across 
multiple sectors. For these reasons, Palo Alto Networks and other 
sophisticated cybersecurity companies can bring a degree of 
actionability to information sharing that is critical for achieving our 
ultimate goals of raising adversary costs and tangibly improving 
cybersecurity across the ecosystem.
    Our approach to automated integration doesn't end with our own 
platform or even our own company. In 2014, Palo Alto Networks was a 
founding member of the Cyber Threat Alliance (CTA). The CTA was 
incorporated in January 2017 as an independent, non-profit organization 
focused on cybersecurity information sharing. It is the first 
information-sharing organization specifically among cybersecurity 
vendors. Michael Daniel, the former special assistant to the President 
and White House cybersecurity coordinator, was just appointed as the 
CTA's first president. The CTA now includes six of the largest global 
cybersecurity companies as founding members--Check Point, Cisco, 
Fortinet, McAfee, Palo Alto Networks and Symantec--underscoring the 
philosophy that we can be force multipliers in support of a coordinated 
threat-sharing effort against cyber adversaries.
    To fulfill its core mission, the CTA has built an automated 
information-sharing platform with the goal of enabling and 
incentivizing the sharing of high-quality, actionable threat 
information. The CTA and its platform embody a major step forward in 
transforming shared threat information into effective preventive 
measures that can automatically be deployed by CTA members to their 
respective customers. This isn't purely conceptual; the CTA platform is 
actively working to protect its members and their customers in near-
real-time.
    For example, recently, a single shared sample from one CTA member 
allowed another member to build protections before that organization's 
customers were targeted--preventing successful attacks against 29 
subsequent organizations. In another instance, data shared through the 
CTA from one member allowed another member to identify a targeted 
attack against its customer and release additional indicators to defend 
that organization. The CTA and its platform have shown that a well-
designed and well-built information-sharing program can foster the 
sharing of high-quality threat information among competitors, with 
members finding that 40 to 50 percent of shared data is new and 
directly actionable.
    The CTA model directly addresses many of the aspects that have 
limited the effectiveness of other information-sharing relationships, 
both formal and informal. First, the CTA addresses the problem of 
information-sharing ``free riders'' that join information-sharing 
groups and simply receive information without sharing. Universal 
contributions are achieved by establishing mandatory sharing minimums 
for CTA members: Initially on a quantitative basis (1,000 unique cyber 
indicators/per day) and now evolving into a scoring system that 
measures the qualitative value of shared data. Second, the CTA is 
focused on sharing indicators related to an adversary's playbook--a 
more limited and predictable series of steps an adversary must take to 
complete a successful cyber attack. This is a key departure from many 
information-sharing organizations, which focus instead on sharing 
malware samples that can be polymorphic and exist in an exponentially 
larger quantity than the number of unique adversary playbooks. Third, 
because the CTA members' collective customer base spans all industry 
sectors, the impact of sharing can protect a large percentage of the 
global ecosystem. This type of broad-based sharing of widely-used 
threat techniques can help neutralize unsophisticated actors and force 
sophisticated adversaries, such as nation-states, to develop new (and 
therefore costlier) techniques. This narrowing of the threat landscape 
can make attribution easier and enable governments to more effectively 
target high-priority and advanced persistent adversaries and threats.
    Government has a complementary and equally critical role to play in 
fostering information sharing across the ecosystem by leveraging its 
unique authorities and capabilities. DHS, for example, has the ability 
to amplify and distribute cyber threat information to a wide cross-
section of industry and critical infrastructure operators.
    Historically, there have been many efforts by the U.S. Government 
to more quickly declassify cyber threat information for distribution to 
the broader community. However, given the rapid pace in which cyber 
threats mutate and spread, the largely manual declassification process 
is rarely fast enough to simultaneously outpace the threat and avoid 
disclosures of intelligence sources and methods. Infused with a much 
wider set of Unclassified information from the private sector, 
Government could be able to more quickly add valuable insight and 
perspective without declassifying information. Leveraging the unique 
visibility they possess from Classified information, governments can 
instead help direct private-sector attention and resources to publicly 
available information on priority threats, such as nation-state 
activity that may target a particular sector, like energy or finance, 
in a way that doesn't reveal Classified information.
    palo alto networks engagements with dhs on cybersecurity issues
    The Palo Alto Networks collaboration with DHS takes many forms--
both formal and informal--and is related to a broad range of policy and 
operational activities. Operationally, our formal and informal 
collaboration with DHS has ranged from programmatic relationships to 
targeted sharing of threat intelligence reports generated by Unit 42, 
the Palo Alto Networks threat intelligence team. These efforts 
highlight threat information sharing conducted as an individual company 
and as a founding member of the Cyber Threat Alliance.
    Cyber Threat Sharing Examples.--Prior to our joining the two DHS 
formal sharing programs, the Cyber Information Sharing and 
Collaboration Program (CISCP) and the Automated Indicator Sharing (AIS) 
program, we established informal processes to share threats, 
vulnerabilities, and malicious cyber threat campaign information with 
DHS based on personal relationships and our knowledge of their mission 
and capabilities. When appropriate, we share advanced copies of 
significant threat reports with DHS cyber policy leadership and 
operational teams at the National Cybersecurity and Communications 
Integration Center (NCCIC). I'd like to highlight just a few specific 
examples of these information-sharing success stories that embody the 
type of public-private cooperation this committee has sought to 
encourage.
  <bullet> In December 2016, Palo Alto Networks threat intelligence 
        team, Unit 42, discovered new samples of Disttrack--an 
        evolution of the same malware that was used in the August 2012 
        ``Shamoon'' cyber attack that destroyed over 30,000 hard drives 
        at a Saudi Arabian energy company. The original Shamoon attack 
        is widely considered one of the most significant and 
        destructive cyber attacks in history. Prior to our report's 
        public release, we coordinated with DHS to enable them to take 
        preventive action. Based on several reports by Palo Alto 
        Networks and other researchers, DHS: (1) Issued two Information 
        Bulletins to the CISCP community of network defense 
        stakeholders, (2) updated their Indicators of Compromise (IOC) 
        databases, and (3) created EINSTEIN signatures related to the 
        threat to protect other Federal Government civilian agencies.
  <bullet> In early 2016, the Palo Alto Networks threat intelligence 
        team released a report entitled Scarlet Mimic, identifying a 
        long-running cyber campaign targeting minority activists in 
        China, as well as Russian and Indian government organizations 
        responsible for tracking activist and terrorist activities. 
        Palo Alto Networks reached out directly to DHS to share 
        indicators related to Scarlet Mimic, allowing them to deploy 
        preventive countermeasures across their community of network 
        defense partners. Specifically, DHS indicated its intention to: 
        Update their Indicators of Compromise databases, vet IOCs 
        against the intelligence community's Classified databases to 
        determine threat group attribution, create EINSTEIN signatures 
        to protect other Federal civilian agencies, and generate 
        STIX<SUP>TM</SUP> files for automated distribution to their 
        private-sector CISCP partners.
  <bullet> In other instances, we coordinate our outreach to DHS as 
        part of remediation efforts with public disclosure of new 
        vulnerabilities that our threat intelligence team discovers in 
        publicly-available technology across the ecosystem. For 
        example, in early 2015, our threat intelligence team identified 
        a new vulnerability in Android<SUP>TM</SUP> operating systems. 
        We rapidly shared the information with Google, so they could 
        take steps to remediate the vulnerability, and then contacted 
        DHS as we published the report. DHS used the provided 
        information to generate a US-CERT alert and push the 
        notification to their public website and their broad community 
        of network defender partners.
  <bullet> As part of the Cyber Threat Alliance, Palo Alto Networks 
        coordinated with DHS as well as other U.S. and international 
        government stakeholders to share threat information about 
        CryptoWall v3--a ransomware campaign that had extorted over 
        $300 million from victims in under 1 year. Based on CTA's 
        shared cyber threat indicators, DHS and the FBI were able to 
        notify victims whose websites were unknowingly compromised; 
        contact internet service providers to disrupt compromised 
        infrastructure; and send alerts to their network defense 
        partners, including the international CERT community, to 
        protect against CryptoWall v3 tactics. Subsequently, the U.S. 
        Government shared back 170 unique CryptoWall indicators with 
        the CTA, beyond the roughly 850 indicators the CTA report 
        initially identified. This CryptoWall example is distinct as a 
        tangible illustration with quantifiable metrics of two-way 
        sharing of cyber threat information between the Government and 
        private sector.
    While each of these represents an individual success story and an 
illustrative use case, we need to focus our collective effort on 
ensuring these success stories are the rule rather than the exception. 
We can accomplish this by continuing to build trust among partners, 
refining the processes, enhancing the existing sharing infrastructure, 
and remaining committed to automating threat sharing in a way that can 
effectively scale to the pace of the cyber threats.
    DHS Cyberthreat Sharing Programs.--Regarding formal information-
sharing partnerships, Palo Alto Networks is a member of DHS's two 
primary cybersecurity information-sharing programs: The Cyber 
Information Sharing and Collaboration Program (CISCP) and the Automated 
Indicator Sharing (AIS) program.
  <bullet> CISCP is a program established to promote robust 
        information-sharing and analytic collaboration between DHS and 
        vetted private-sector partners, especially the critical 
        infrastructure community.
  <bullet> Implemented in accordance with the Cybersecurity Act of 
        2015, AIS is a DHS-developed capability to enable the automated 
        exchange of anonymized cyber-threat indicators among a wider 
        range of private-sector entities and the U.S. Federal 
        Government.
    AIS is intended to provide threat indicators at ``machine speed'' 
aligns directly with our efforts to increasingly automate threat 
sharing, as outlined above. We applaud the concept of AIS and view it 
as both complementary and reinforcing to the type of automated 
information sharing that is already responsibly occurring at Palo Alto 
Networks and within entities like the Cyber Threat Alliance. DHS should 
be commended for their continued progress in maturing these 
information-sharing program capabilities, but there are certainly 
tangible opportunities for improvement.
    As discussed with DHS, we believe that the administrative process 
for joining these programs could certainly be easier and more 
efficient. Because programs like AIS are dramatically enhanced by the 
number of contributing members, DHS would benefit from investing in 
resources that streamline on-boarding processes and generally make 
these private sector-interfacing programs more customer service-
focused. Specifically, DHS should develop a clear step-by-step guide 
for on-boarding, publish those requirements broadly, and promote a 
singular ``help desk''-type contact for all questions related to the 
programs. To their credit, DHS senior officials recognize these 
shortcomings, and plan to take concrete steps to implement personnel 
and process reforms that should ultimately make the AIS program more 
customer service-centric.
    Operationally, both AIS and CISCP have initial baseline 
capabilities and value, but they also could benefit from incorporating 
best practices from industry information-sharing efforts, such as the 
Cyber Threat Alliance's platform. According to DHS, AIS has delivered 
over 218,000 unique indicators since March 2016. Additionally, CISCP 
published 283 Indicator Bulletins in 2016, including nearly 1,300 
indicators of compromise, with a recognition they need to refine their 
ability to provide useful, Unclassified context. However, DHS could 
further engage industry to leverage vendor-neutral technology and 
techniques that more rapidly share larger volumes of actionable cyber-
threat information with context about how individual malware is used as 
part of broader campaigns.
    Information-Sharing Analysis Organizations (ISAO).--Regarding 
cyber-threat information-sharing policy development, Palo Alto Networks 
had a leadership role in DHS's effort to establish and identify 
standards and best practices for Information-Sharing Analysis 
Organizations (ISAO), following a 2014 Presidential Executive Order 
establishing ISAOs. Specifically, our chief security officer, Rick 
Howard, led the effort on information privacy and security in one of 
six working groups that wrote and published the official ISAO standards 
in September 2016.
    National Security Telecommunications Advisory Committee (NSTAC).--
Previously, I referenced our broader policy engagements with DHS, such 
as our CEO Mark McLaughlin's current membership and former leadership 
roles in the President's National Security Telecommunications Advisory 
Committee (NSTAC). Administered by DHS, the NSTAC has recently grown to 
become an increasingly relevant policy forum for collaboration between 
private industry and the U.S. Government. Senior cybersecurity 
officials representing the White House and the Department of Homeland 
Security have repeatedly acknowledged the direct impact of NSTAC 
studies on the formulation of U.S. policy. The NSTAC has also played an 
important role in fostering relationships between Government and the 
private-sector technology community. For example, in mid-2016, the 
NSTAC hosted the first-ever meeting in its 34-year history in Silicon 
Valley, with significant U.S. Government participation, including the 
Secretaries of Commerce, Defense, and Homeland Security, as well as 
Admiral Rogers, Director of NSA and Commander of U.S. Cyber Command.
    Information Technology Sector Coordinating Council (IT-SCC).--Palo 
Alto Networks is an Executive Committee member of the IT-Sector 
Coordinating Council, the principal entity for coordination between the 
Department of Homeland Security and IT sector companies and 
associations on a range of critical infrastructure protection and 
cybersecurity issues. The IT-SCC provides another official mechanism 
for Palo Alto Networks to collaborate with IT sector companies and DHS 
senior cyber officials on a range of sector-relevant policy, and 
cybersecurity issues.
    Cyber Storm V.--Palo Alto Networks was also actively engaged in the 
planning and execution of Cyber Storm V in early 2016. The biannual 
National cyber exercise is led by DHS and brings together over 1,100 
U.S. Government and private-sector participants to test the cyber 
incident coordination processes that helped test and inform operational 
procedures and subsequent National policies. We commend DHS for their 
leadership and execution of these complex exercises, and would like to 
increasingly add realistic technical components to future iterations. 
Planning for Cyber Storm VI in 2018 has recently commenced, and we look 
forward to again working closely with DHS on this critical initiative.
 legislative successes and congressional oversight of dhs information-
                          sharing initiatives
    As discussed in my introduction, this committee has played a 
central role in passing a range of cybersecurity legislation that 
promotes responsible cyber-threat information-sharing and strengthens 
DHS's statutory authority to execute its mission.
    The information-sharing portion of the Cyber Act (Title I) 
understandably garners most of the attention, and today's hearing 
demonstrates the need for oversight to ensure that Congress and DHS 
continue to identify areas of both progress necessary further 
improvements in its implementation.
    In general, efforts to promote more direct engagement between DHS 
and the private-sector technology community to address homeland 
security mission requirements should be encouraged. This can take the 
form of new legislation, such as Chairman Ratcliffe's recently 
introduced bill on leveraging emerging technologies, to oversight of 
existing laws, such as Title II of the Cybersecurity Information 
Sharing Act of 2015.
    Thank you very much for the opportunity to testify before you 
today. I look forward to any questions you may have and your continued 
partnership on this critical issue.

ATTACHMENT 1.--Lucrative Ransomware Attacks: Analysis of the Cryptowall 
                          Version 3 Threat \1\
---------------------------------------------------------------------------

    \1\ https://www.cyberthreatalliance.org/pdf/cryptowall-report.pdf.
---------------------------------------------------------------------------

      ATTACHMENT 2.--Shamoon 2: Return of the Disttrack Wiper \2\
---------------------------------------------------------------------------

    \2\ https://researchcenter.paloaltonetworks.com/2016/11/unit42-
shamoon-2-return-disttrack-wiper/.
---------------------------------------------------------------------------

  ATTACHMENT 3.--Scarlet Mimic: Years-Long Espionage Campaign Targets 
                         Minority Activists \3\
---------------------------------------------------------------------------

    \3\ https://researchcenter.paloaltonetworks.com/2016/01/scarlet-
mimic-years-long-espionage-targets-minority-activists/.
---------------------------------------------------------------------------

 ATTACHMENT 4.--Android Installer Hijacking Vulnerability Could Expose 
                      Android Users to Malware \4\
---------------------------------------------------------------------------

    \4\ https://researchcenter.paloaltonetworks.com/2015/03/android-
installer-hijacking-vulnerability-could-expose-android-users-to-
malware/.

    Mr. Ratcliffe. Thank you, Mr. Gillis.
    Ms. Greene, you are recognized for 5 minutes.

   STATEMENT OF ROBYN GREENE, POLICY COUNSEL AND GOVERNMENT 
      AFFAIRS LEAD, OPEN TECHNOLOGY INSTITUTE, NEW AMERICA

    Ms. Robyn Greene. Thank you, Chairman Ratcliffe, Ranking 
Member Richmond, and Members of the committee for the 
opportunity to testify today.
    As a policy council and government affairs lead at New 
America's Open Technology Institute, I specialize in issues 
related to privacy, cybersecurity, and surveillance.
    My statement today will cover three subjects: First, 
outstanding privacy concerns in the Cybersecurity Information 
Sharing Act, CISA; second, how DHS's balanced approach to 
implementing CISA has improved cybersecurity and protected 
privacy; and third, that a more holistic approach to 
cybersecurity, beyond information sharing, is essential.
    CISA provides important improvements for many previous 
iterations of information-sharing legislation. Many of those 
improvements are the result of this committee's hard work and 
leadership to protect privacy while improving cybersecurity.
    But despite this committee's laudable efforts, certain 
privacy concerns remain unaddressed, like imprecise definitions 
for the terms like ``cybersecurity threat'' and ``cyber threat 
indicator,'' and a weak requirement for the removal of personal 
information.
    These shortfalls raise concerns that CISA may threaten 
privacy and undermine security by resulting in the sharing of 
unnecessary information, like information related to false 
alarms or communications content and other irrelevant personal 
information.
    Also troubling are CISA's over-broad use authorizations for 
law enforcement to use information it obtains from companies 
shred for a cybersecurity purpose, for investigations and 
prosecutions that are entirely unrelated to cybersecurity.
    This undermines Fourth Amendment protections because it 
allows law enforcement to use information that it would obtain 
ordinarily pursuant to a warrant or a court order.
    Finally, CISA includes a provision that allows the 
President to undermine DHS's role as the lead portal for 
information sharing by establishing a second portal, possibly 
at a law enforcement or intelligence oversight agency, like the 
FBI or the Office of the Director of National Intelligence. 
This would harm civil liberties and threaten user trust, which 
is essential for companies to feel comfortable participating in 
the information-sharing program.
    With all of that said, DHS has done a good job of 
promulgating guidelines and procedures under CISA that protect 
privacy and strengthen cybersecurity. DHS has provided clear 
interpretations and applications of vague definitions and 
requirements.
    Additionally, DHS leveraged STIX in its automated 
indicator-sharing system to establish standardized fields of 
information sharing and it retained human review of personal 
information that is shared.
    With these steps, DHS has minimized the risk of unnecessary 
sharing and dissemination of Americans' personal information. 
The committee should continue to support DHS in this important 
work.
    Since information sharing is not a panacea, more must still 
be done to improve cybersecurity. The Government must take a 
multi-pronged, holistic, and outcomes-based approach. DHS must 
increase the amount of information it shares with the private 
sector, including getting more threat indicators declassified.
    To protect ourselves from another OPM-style data breach, 
Congress must ensure that the Federal Government has the 
resources needed to modernize its IT infrastructure, to 
maintain up-to-date and secure devices and systems, and to hire 
a robust work force of security and technology policy experts.
    Recent reporting suggests that the Government is struggling 
to fill open cybersecurity positions and that this shortage may 
be threatening collaboration with industry.
    The Federal Government can also help to improve overall 
security by finding ways to incentivize the private sector and 
individuals to update software with patches for vulnerabilities 
and by formalizing its approach to vulnerabilities management.
    Wikileaks' disclosure of CIA hacking tools earlier this 
week highlight that it is possible for vulnerabilities to be 
publicly released and for individuals, industry, and the 
Government alike to be left exposed to malicious actors when 
this happens. This drives home how important it is for Congress 
to codify a process for the Government to disclose zero-day 
vulnerabilities as soon as possible so that they can be 
patched.
    The Government should also help to shrink the size of the 
zero-day market by minimizing its participation in it.
    Last, the Government should use its bully pulpit to 
champion the wide-spread use of security tools, like two-factor 
authentication and encryption, and it should incentivize 
companies to offer those tools by default, along with automatic 
software updates, as part of an effort to encourage privacy and 
security by design.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Ms. Greene follows:]
                   Prepared Statement of Robyn Greene
                             March 9, 2017
    Thank you for the opportunity to testify today on ``The Current 
State of DHS Private-Sector Engagement for Cybersecurity.'' I represent 
New America's Open Technology Institute (OTI), where I am a policy 
counsel and Government affairs lead on privacy, surveillance, and 
cybersecurity issues.
    New America is a nonpartisan, nonprofit, civic enterprise dedicated 
to the renewal of American politics, prosperity, and purpose in the 
digital age through big ideas, technological innovation, next 
generation politics, and creative engagement with broad audiences. OTI 
is a program at New America that works at the intersection of 
technology and policy to ensure that every community has equitable 
access to digital technology and its benefits. We promote universal 
access to communications technologies that are both open and secure, 
using a multidisciplinary approach that brings together advocates, 
researchers, organizers, and innovators. Our current focus areas 
include surveillance, privacy and security, net neutrality, broadband 
access, and consumer privacy.
    In December 2015, Congress passed the Cybersecurity Information 
Sharing Act (CISA).\1\ The law provides private-sector entities with 
liability protection for sharing information about cybersecurity 
threats with one another and with the Government. Throughout the debate 
over information-sharing legislation, OTI voiced significant concerns 
about the scope of sharing permitted and the insufficient privacy 
protections for internet users both before and after information is 
shared. We also urged Congress to take a more holistic approach to 
cybersecurity policy, rather than focus solely on information 
sharing.\2\
---------------------------------------------------------------------------
    \1\ Cybersecurity Information Sharing Act, 6 U.S.C. 1501 et. seq., 
Public Law No: 114-113, H.R. 2029 Division N, Title I, 114th Cong. 
(2015), https://www.Congress.gov/114/plaws/publ113/PLAW-114publ113.pdf.
    \2\ Robyn Greene, Congress Must Focus on More Than Information 
Sharing, The Hill, Jan. 30, 2015, http://thehill.com/blogs/congress-
blog/technology/231190-congress-must-focus-on-more-than-information-
sharing.
---------------------------------------------------------------------------
    My testimony will cover three topics: (1) OTI's outstanding privacy 
concerns related to how much information can be shared, with whom, and 
how it can be used under CISA; (2) the ways in which the Department of 
Homeland Security (DHS) has worked in its implementation of the law to 
protect privacy and simultaneously enhance cybersecurity, and (3) 
additional steps that the Government could take to strengthen public-
private partnerships related to cybersecurity, and to incentivize or 
encourage the private sector to adopt best practices, to meaningfully 
protect privacy and improve overall security.
 outstanding concerns regarding the cybersecurity information sharing 
                               act (cisa)
    Information-sharing legislation was extremely controversial for the 
entire time that Congress debated it, even up to the point that CISA 
became law. The most significant point of contention was always how to 
adequately protect privacy and civil liberties. CISA's predecessor, the 
Cyber Intelligence Sharing Protection Act (CISPA), contained no 
meaningful privacy protections when it was first introduced.\3\ After 
years of advocacy by privacy and security experts, and several 
iterations of legislation, the final version of CISA included important 
improvements and protections. Nevertheless, certain privacy concerns 
were left unaddressed or inadequately addressed. Those shortfalls 
include imprecise definitions, a too-weak requirement to remove 
personal information before sharing cyber threat indicators, overbroad 
allowances for law enforcement to use shared data for purposes 
unrelated to cybersecurity, and the possibility that the President will 
undermine DHS's role as the lead information-sharing portal by 
establishing a second authorized portal.\4\
---------------------------------------------------------------------------
    \3\ Cyber Intelligence Sharing and Protection Act, H.R. 3523, 112th 
Cong. (2011), https://www.Congress.gov/112/bills/hr3523/BILLS-
112hr3523ih.pdf; see also Letter from the ACLU to Hon. Mike Rogers & 
Hon. C.A. ``Dutch'' Ruppersberger, Dec. 1, 2011, https://www.aclu.org/
other/aclu-opposition-hr-3523-cyber-intelligence-sharing-and-
protection-act-2011.
    \4\ Robyn Greene, The Knock-Down, Drag-Out Fight Over Cybersecurity 
Legislation, Slate, Jan. 15, 2016, http://www.slate.com/articles/
technology/future_tense/2016/01/how_the_pri- 
vacy_community_made_cyber_security_legislation_better.html.
---------------------------------------------------------------------------
    CISA's overbroad definitions threaten privacy because they can 
result in over-sharing of personal or otherwise unnecessary 
information. This is the case for the definition of ``cybersecurity 
threat,'' which triggers the authorization to share. The law defines a 
cybersecurity threat as anything that ``may result in an unauthorized 
effort to adversely impact'' a device or system.\5\ It covers any 
potential threat and does not require that a company make a 
determination that the purported cyber threat is likely to cause harm 
before sharing their users' information.
---------------------------------------------------------------------------
    \5\ Supra note 1 at  1501(5).
---------------------------------------------------------------------------
    This low threshold could spur sharing of unnecessary information, 
like that concerning false alarms, which would threaten privacy if the 
sharer transmits personal information as part of the cyber threat 
indicators shared. It could also undermine security. Unnecessary 
sharing of personal information can expose internet users to new 
threats should their information be successfully targeted and 
exfiltrated by malicious actors after being shared under CISA. 
Additionally, it can undermine security by creating ``white noise'' 
that distracts from imminent threats.\6\
---------------------------------------------------------------------------
    \6\ See Letter from security experts to Sen. Dianne Feinstein, et 
al concerning information-sharing bills (Apr. 16, 2015), https://
cyberlaw.stanford.edu/files/blogs/technologists- 
_info_sharing_bills_letter_w_exhibit.pdf.
---------------------------------------------------------------------------
    Over-sharing could also result from the insufficiently narrow 
definition for ``cyber threat indicator'' and the inadequate 
requirement to remove personal information before sharing. Cyber threat 
indicators include ``information that is necessary to describe or 
identify . . . the actual or potential harm caused by an incident . . . 
[or any] attribute of a cybersecurity threat'' so long as disclosure of 
the underlying attribute is not otherwise legally prohibited.\7\
---------------------------------------------------------------------------
    \7\ Supra note 1 at  1501(6).
---------------------------------------------------------------------------
    A broad interpretation of this definition could include personal 
information or content of on-line communications that is not needed to 
detect or protect against a threat. This is because information that 
could be deemed necessary to describe a threat or potential harms 
caused by an incident could still be unnecessary to identify or protect 
against the threat. For example, while it might be reasonable to share 
an IP address that is associated with malicious activity, the breadth 
of this definition might also permit a company to share any information 
they might have associated with that IP address that identifies a 
particular account holder or location because they claim it is 
necessary to describe the IP address. In the case of botnets, this 
identifying information might not necessarily belong to the malicious 
actor; it could belong to a botnet victim.
    Similarly, under the law, companies can share any personal 
information so long as it is ``directly related to a cybersecurity 
threat.''\8\ This could be interpreted in a manner that undermines 
privacy by allowing a company to share victim information or other 
personal information unnecessary to identify or protect against a 
threat. For example, a broad interpretation of this requirement could 
allow for a company to share the personal information of the victim of 
a cyber incident, like information about the recipient of a phishing 
email, since that information could be deemed to be ``directly 
related'' to the threat, even though it may not be necessary to 
identify or protect against the threat.\9\
---------------------------------------------------------------------------
    \8\ Supra note 1 at  1503(d)(2).
    \9\ As I discuss in the next section of this statement, DHS has 
done a good job of protecting privacy in its promulgation of guidance 
to companies on information sharing. It addresses this specific 
concern, making clear that companies should not share this kind of 
victim information. However, that guidance, and thus DHS's strict 
interpretation of the requirement to remove personal information, is 
subject to change. To better protect privacy, Congress should amend the 
law to address this concern. See Dep't of Homeland Security & Dep't of 
Justice, Guidance to Assist Non-Federal Entities to Share Cyber Threat 
Indicators and Defensive Measure with Federal Entities under the 
Cybersecurity Information Sharing Act of 2015 5 (2016), https://www.us-
cert.gov/sites/default/files/ais_files/Non-
Federal_Entity_Sharing_Guidance_(Sec%20- 105(a)).pdf [hereinafter 
``Company Guidance''].
---------------------------------------------------------------------------
    In addition to insufficiently narrow definitions and weak front-end 
privacy protections, CISA overbroadly authorizes law enforcement to use 
the shared information for non-cybersecurity investigations. Under the 
statute, any information that is shared with the Government for a 
cybersecurity purpose may be used by law enforcement in investigations 
and prosecutions entirely unrelated to cybersecurity or computer 
crimes. Authorized uses include investigations and prosecutions into 
Trade Secrets Act and Espionage Act violations, undefined ``serious 
economic harms,'' and certain violent crimes irrespective of whether 
the threat is imminent.\10\ This undermines Fourth Amendment 
protections because it allows law enforcement to use information in 
investigations and prosecutions that it would ordinarily only be able 
to obtain pursuant to a warrant issued by a judge based on a finding of 
probable cause. Information sharing is subject to no judicial 
oversight, and thus no judge ever makes a finding of probable cause 
before law enforcement uses the information it receives under CISA, 
even where investigations are unrelated to cybersecurity.
---------------------------------------------------------------------------
    \10\ Supra note 1 at  1504(d)(5)(A).
---------------------------------------------------------------------------
    Finally, CISA includes a provision that could call into question 
DHS's important and proper role as the lead civilian portal for 
private-sector information-sharing with the Government. Under CISA, if 
a company wants to receive liability protection for sharing cyber 
threat indicators with the Federal Government, it must share that 
information through an authorized portal.\11\ Currently, DHS is the 
only authorized information-sharing portal. However, CISA authorizes 
the president to establish a secondary portal at any Federal entity 
except for the Department of Defense and the National Security 
Agency.\12\
---------------------------------------------------------------------------
    \11\ Supra note 1, at  1505(b).
    \12\ Id. at  1504(c)(2)(B).
---------------------------------------------------------------------------
    If the President were to exercise this authority at a law 
enforcement or intelligence oversight agency like the Federal Bureau of 
Investigation or the Office of the Director of National Intelligence, 
it would significantly threaten privacy and undermine Americans' trust 
in the Federal Government's information-sharing program. Additionally, 
it would introduce operational weakness by further decentralizing 
information sharing and undermining DHS's role and authority as the 
Federal Government lead on domestic cybersecurity and private-sector 
engagement, which Congress just formally established in 2014.\13\
---------------------------------------------------------------------------
    \13\ Robyn Greene, Dangerous for Cybersecurity and Privacy: Cotton 
Amendment No. 2581, New America's Open Technology Institute (Aug. 25, 
2015), https://www.newamerica.org/oti/blog/dangerous-for-cybersecurity-
and-privacy-cotton-amendment-no-2581/ [analyzing a proposed amendment 
to CISA that would have authorized the FBI as an additional covered 
information-sharing portal]; and National Cybersecurity Protection Act 
of 2014, 6 USC 148 note, et seq., Public Law No: 113-282.
---------------------------------------------------------------------------
    OTI believes that these outstanding flaws in CISA pose a clear 
threat to both privacy and effective cybersecurity practice, and hopes 
that Congress will consider amending it to address those concerns. 
However, despite those flaws, on the whole, DHS has done a good job of 
promulgating guidelines and procedures under CISA that protect privacy 
and strengthen cybersecurity. Congress should support DHS in this 
important work.
 dhs implementation of cisa has been effective and privacy-protective, 
         but more should be done to improve information sharing
    DHS has taken a reasonable and measured approach to implementing 
CISA that balances privacy and security. This is clear from how DHS set 
up its Automated Indicator Sharing system (AIS), and how its 
promulgation of procedures and guidelines clarified ill-defined terms 
and standards in the statute.
    When DHS rolled out AIS, it leveraged Structured Threat Information 
eXchange (STIX) to establish standardized fields of information that 
can be shared and Trusted Automated eXchange of Indicator Information 
(TAXII) as the secure, automated method for sharing information.\14\ 
This was an important step, because by setting out specific, 
standardized fields of information that can be shared, STIX limits the 
potential for sharing unnecessary personal information.
---------------------------------------------------------------------------
    \14\ Company Guidance, supra note 9 at 22.
---------------------------------------------------------------------------
    It is still possible for unnecessary personal information to be 
shared under CISA, because there are STIX fields that could include it 
or that allow a submitter to copy and paste communications content, and 
because a submitter could choose to send an email in lieu of submitting 
information via AIS. DHS mitigates this privacy risk by ensuring that 
any personal information included in one of those three types of 
submissions is subject to human review to determine if it is necessary 
to describe or identify the threat. The personal information is then 
either removed if it does not meet the standard or further disseminated 
if it does. DHS also discourages the use of e-mail to submit cyber 
threat indicators.\15\
---------------------------------------------------------------------------
    \15\ Dep't of Homeland Security & Dep't of Justice, Final 
Procedures Related to the Receipt of Cyber Threat Indicators and 
Defensive Measures by the Federal Government 8, 10 (2016), https://
www.us-cert.gov/sites/default/files/ais_files/
Operational_Procedures_(105(a)).pdf [hereinafter ``Final 
Proocedures''].
---------------------------------------------------------------------------
    Additionally, DHS guidance on how to determine if personal 
information must be removed is effective at protecting privacy, 
considering the requirements of the statute. DHS establishes a clear 
application of the test for removal of such information in its guidance 
to Federal entities. It lays out the critical three-part test: (1) Do 
you know it is ``personal information of a specific individual or 
information that identifies a specific individual''? (2) If yes, is it 
directly related to the threat? (3) If yes, then the entity may share 
it, and if no, then it must be removed prior to dissemination.\16\
---------------------------------------------------------------------------
    \16\ Dep't of Homeland Security & Dep't of Justice, Privacy and 
Civil Liberties Final Guidelines: Cybersecurity Information Sharing Act 
of 2015 12 (2016), https://www.us-cert.gov/sites/default/files/
ais_files/Privacy_and_Civil_Liberties_Guidelines_(Sec%20105(b)).pdf 
[hereinafter ``Privacy Guidelines''].
---------------------------------------------------------------------------
    Importantly, DHS also narrowly interprets the standard for removal 
of personal information in company guidance and in privacy guidelines 
for Federal entities. It does so by offering a clear explanation of 
what is ``directly related'' to a cybersecurity threat. DHS provides 
that ``Information is not directly related to a cybersecurity threat if 
it is not necessary to detect, prevent, or mitigate the cybersecurity 
threat.''\17\ It also offers examples to illustrate what kinds of 
personal information can and cannot be shared. Both documents highlight 
that personal information related to victims of cyber attacks, such as 
information that identifies the recipient of a phishing email, is not 
directly related to a cybersecurity threat, and must be removed before 
sharing or dissemination.\18\
---------------------------------------------------------------------------
    \17\ Company Guidance supra note 9, at 5.
    \18\ Id. See also Privacy Guidelines supra note 16, at 12.
---------------------------------------------------------------------------
    The standard for removal of personal information before sharing or 
dissemination of cyber threat indicators was one of the most 
contentious aspect of the debate. Opponents of a strict removal 
requirement were concerned that a higher standard would slow down 
sharing and raise questions about when liability protections under the 
law are triggered. These concerns have been largely put to rest. In the 
vast majority of cases, speed of information sharing is not a 
determining factor in preventing an attack. The most recent Verizon 
data breach report concluded that 93 percent of successful attacks took 
minutes to breach a device or network, but organizations took weeks to 
discover them, leaving ample time for the attacker to have identified 
and stolen the sought-after data in most cases.\19\
---------------------------------------------------------------------------
    \19\ Verizon, 2016 Data Breach Investigations Report: Executive 
Summary 2 (2016), http://www.verizonenterprise.com/resources/reports/
rp_dbir_092016-executive-summary_xg_en.pdf. Full report available at 
http://www.verizonenterprise.com/verizon-insights-lab/dbir/2016/.
---------------------------------------------------------------------------
    DHS's application of this standard for removal is also aligned with 
Congress' goal in passing CISA: to enhance security while 
simultaneously protecting privacy. Personal information is constantly 
targeted by hackers, as we have seen in countless data breaches, 
whether they be at Government agencies like the Office of Personnel 
Management (OPM), health care providers like Anthem, retailers like 
Target and Home Depot, financial institutions like J.P. Morgan, or 
technology companies like Yahoo.\20\ The more personal information is 
shared with more entities, the larger the target for malicious hackers 
and nation-states seeking to breach our defenses.\21\ Thus, by reducing 
the amount of personal information shared under CISA, DHS is serving a 
critical security function, as well as protecting privacy.
---------------------------------------------------------------------------
    \20\ See Brian Naylor, One Year After OPM Data Breach, What Has The 
Government Learned?, NPR, Jun. 6, 2016, http://www.npr.org/sections/
alltechconsidered/2016/06/06/480968999/one-year-after-opm-data-breach-
what-has-the-government-learned; Steve Ragan, Anthem: How Does a Breach 
Like This Happen? CSO, Feb. 9, 2015, http://www.csoonline.com/article/
2881532/business-continuity/anthem-how-does-a-breach-like-this-
happen.html; Michael Kassner, Anatomy of the Target Data Breach: Missed 
Opportunities and Lessons Learned, ZD Net, Feb. 2, 2015, http://
www.zdnet.com/article/anatomy-of-the-target-data-breach-missed-
opportunities-and-lessons-learned/; Julie Creswell & Nicole Perlroth, 
Ex-Employees Say Home Depot Left Data Vulnerable, NY Times, Sept. 19, 
2014, https://www.nytimes.com/2014/09/20/business/ex-employees-say-
home-depot-left-data-vulnerable.html?partner=rss&emc=rss&_r=2; Matthew 
Goldstein, Nicole Perlroth & Michael Corkery, Neglected Server Provided 
Entry for JPMorgan Hackers, NY Times, Dec. 22, 2014, https://
dealbook.nytimes.com/2014/12/22/entry-point-of-jpmorgan-data-breach-is-
identified/?_r=1; and Asha McLean, Yahoo Says 32m User Accounts Were 
Accessed via Cookie Forging Attack, ZD Net, Mar. 2, 2017, http://
www.zdnet.com/article/yahoo-says-32m-user-accounts-accessed-via-cookie-
forging-attack/.
    \21\ Robyn Greene, Is CISA Gift-wrapped for Hackers and Nation-
State Actors? The Hill, Aug. 3, 2015, http://thehill.com/blogs/pundits-
blog/technology/250070-is-cisa-gift-wrapped-for-hackers-and-nation-
state-actors.
---------------------------------------------------------------------------
    Privacy is not only essential to data security but also to trust. 
To the extent that information sharing is an important element of a 
holistic cybersecurity strategy, having adequate standards in the law 
and its application are essential to expanding its reach and impact. 
Companies will be uncomfortable sharing information if they worry their 
users will see it as harmful to their privacy. Indeed, 2 months before 
CISA's final passage, many leading technology companies and trade 
associations specifically cited its insufficient privacy protections as 
their grounds for opposition to the bill.\22\
---------------------------------------------------------------------------
    \22\ Robyn Greene, Tech Industry Leaders Oppose CISA as Dangerous 
to Privacy and Security, The Hill, Oct. 21, 2015, http://thehill.com/
blogs/pundits-blog/technology/257601-tech-industry-leaders-oppose-cisa-
as-dangerous-to-privacy-and.
---------------------------------------------------------------------------
    Though DHS has done a good job implementing CISA in a manner that 
protects privacy and enhances security, Congress should address the 
outstanding concerns outlined above by codifying these sensible 
implementations in the law itself. This would provide the public and 
the private sector with the assurance that the protections as applied 
by the various guidelines and procedures will not be altered or 
reinterpreted in a manner harmful to privacy by this or any future 
administration.
    Finally, more must still be done to increase information sharing by 
the Government with the private sector. Throughout the debate on 
information sharing security experts were clear that CISA would likely 
have only a modest impact on security, if it had any impact at all, 
because it focuses on increasing information sharing from the private 
sector to the Government or to other private-sector entities. These 
experts argued that in order to enhance cybersecurity by increasing 
information sharing, the Government needs to improve its system for 
sharing actionable information with the private sector. Specifically, 
experts called on the Government to declassify more information and 
share it with a broader set of stakeholders, to speed up its 
declassification process, and to expand the pool of stakeholders that 
are cleared to receive Classified indicators.\23\ Congress should look 
to how it can help DHS address these concerns.
---------------------------------------------------------------------------
    \23\ Sara Sorcher, Security Pros: Cyberthreat Info-sharing Won't Be 
as Effective as Congress Thinks, Christian Sci. Monitor, Jun. 12, 2015, 
http://www.csmonitor.com/World/Passcode/2015/0612/Security-pros-
Cyberthreat-info-sharing-won-t-be-as-effective-as-Congress-thinks.
---------------------------------------------------------------------------
    While improving information sharing can be an important element to 
cybersecurity, it is just one of many steps that must be taken overall. 
Ultimately, the only effective approach to cybersecurity will be a 
holistic approach.
      additional steps to strengthen private sector-public sector 
       partnerships to improve cybersecurity and protect privacy
    OTI has long argued that while information sharing can have value, 
it is only a part of the more holistic approach to cybersecurity that 
Congress, the Federal Government, and the private sector must take. 
That approach necessitates more resources for the Federal Government, 
as well as more public education about cybersecurity threats and how to 
defend against them. The Federal Government also needs to take a 
``whole-of-Government'' approach to cybersecurity issues. This is 
especially needed in two areas: The establishment of policies on 
vulnerabilities management, and identifying ways to encourage users and 
private companies to adopt security best practices, like increasing the 
use of multi-factor authentication and encryption.
    Ensuring that all agencies have sufficient resources to buy newer, 
more secure hardware and software systems, and to recruit and retain a 
robust staff of skilled security and technology policy experts, has 
been a long-standing problem. This was one of the problems that led to 
the OPM breach that resulted in the exfiltration of over 20 million 
records. Ann Barron-DiCamillo, DHS lead on the team that investigated 
the breach, stressed that ``[OPM] had older systems, that needed to be 
modernized . . . They had neglected networks from the perspective of 
putting in the cybersecurity sensors and technologies that they need to 
find adversaries in the network.''\24\
---------------------------------------------------------------------------
    \24\ One Year After the Government Data Breach, supra note 20.
---------------------------------------------------------------------------
    Less than a year after the OPM breach became public, the previous 
administration announced the establishment of the President's 
Commission on Enhancing National Cybersecurity.\25\ The commission 
concluded its work with the issuance of the Cybersecurity National 
Action Plan (CNAP). Many of the Commission's recommendations focused on 
adequately resourcing the Federal Government. They recommended 
increasing the cybersecurity budget to $19 billion in fiscal year 2017, 
including investing $3.1 billion in information technology 
modernization to ensure that Federal devices and networks would be 
compatible with modern security tools; and allocating an additional $62 
million to training and hiring new cybersecurity personnel.\26\
---------------------------------------------------------------------------
    \25\ Michael Daniel, Ed Felten, & Tony Scott, Announcing the 
President's Commission on Enhancing National Cybersecurity, The White 
House, Apr. 13, 2016, https://obamawhitehouse.archives.gov/blog/2016/
04/13/announcing-presidents-commission-enhancing-national-
cybersecurity.
    \26\ Press Release, Office of the Press Secretary, White House, 
Fact Sheet: Cybersecurity National Action Plan (Feb. 9, 2016), https://
obamawhitehouse.archives.gov/the-press-office/2016/02/09/fact-sheet-
cybersecurity-national-action-plan.
---------------------------------------------------------------------------
    These recommendations to significantly increase Federal spending 
related to cybersecurity are well taken, considering the scale of 
attacks on Federal Government networks in recent years and the 
difficulty the Federal Government has hiring and retaining 
cybersecurity experts.\27\ As Congress drafts the budget for fiscal 
year 2017, it should allocate whatever resources will be necessary to 
hire a skilled workforce, and to modernize Federal Government networks 
and harden them against attacks.
---------------------------------------------------------------------------
    \27\ Dustin Volz & Warren Strobel, NSA Risks Talent Exodus Amid 
Morale Slump, Trump Fears, Reuters, Feb. 28, 2017, http://
www.reuters.com/article/us-usa-cyber-nsa-idUSKBN1672ML.
---------------------------------------------------------------------------
    In addition to proper resourcing, the Federal Government, including 
DHS, should continue its efforts to educate industry and the public 
about how to better protect themselves on-line. Increased education on 
how to identify social engineering attacks is particularly needed. 
Internet users' susceptibility to these kinds of threats has proven to 
be a somewhat intractable problem over the years. The most recent 
Verizon data breach report found that 30 percent of recipients of 
phishing emails opened them (a 23 percent increase from the prior 
year), and 12 percent of those people downloaded the malicious 
attachment or clicked on the malicious link.\28\ Nonetheless, raising 
awareness of these threats via campaigns like ``Stop. Think. Connect.'' 
may be the first step to reducing the threats' effectiveness.\29\
---------------------------------------------------------------------------
    \28\ Supra note 19, at 3.
    \29\ Stop. Think. Connect., Dep't of Homeland Security, https://
www.dhs.gov/stopthinkconnect (last visited Mar. 5, 2017).
---------------------------------------------------------------------------
    While resourcing and education are important, DHS must also be part 
of a whole-of-Government approach to cybersecurity and engagement with 
the private sector. Two areas that could most positively impact our 
Nation's cybersecurity are vulnerability management and wide-spread 
adoption of security best practices.
    One key aspect of vulnerability management is incentivizing the 
private sector and individuals to protect themselves against known 
vulnerabilities by regularly updating their software so that known 
vulnerabilities are patched. Yet for 8 years, Congress focused almost 
entirely on how to increase information sharing about those 
vulnerabilities, without doing anything to help ensure that they are 
patched. Indeed, CISA explicitly states that a company is not required 
to act on the threat information it receives.\30\
---------------------------------------------------------------------------
    \30\ Supra note 1 at  1505(c)(1)(B).
---------------------------------------------------------------------------
    Unsurprisingly, the private sector often only takes action to 
update their systems after a massive breach, but maintaining updated 
software would protect against the vast majority of threats. 
Approximately 85 percent of successful exploits used the same 10 
vulnerabilities, all of which have patches available.\31\ In order for 
CISA to have its intended impact, the Government and the private sector 
must turn information sharing into action by encouraging more and more 
regular patching of known vulnerabilities.
---------------------------------------------------------------------------
    \31\ Supra note 19 at 10.
---------------------------------------------------------------------------
    Another critical aspect to vulnerabilities management concerns how 
the Federal Government and Congress approach laws and policies 
impacting vulnerability research and disclosure, and Government 
participation in the market for previously undiscovered 
vulnerabilities, called ``zero-days.'' Last year, OTI published a 
research paper called ``Bugs in the System'' that serves as a primer on 
the vulnerabilities ecosystem. We concluded that the leading factors 
hindering effective vulnerabilities management were a lack of clarity 
about how best to disclose newly-discovered vulnerabilities in order to 
see them patched; the chilling effect that out-of-date technology laws 
have on security researchers; and the existence of and U.S. Government 
participation in the zero-day market.\32\
---------------------------------------------------------------------------
    \32\ Andi Wilson, Ross Schulman, Kevin Bankston & Trey Herr, Bugs 
in the System, New America's Open Tech. Institute (July 2016), https://
na-production.s3.amazonaws.com/documents/Bugs-in-the-System-Final.pdf.
---------------------------------------------------------------------------
    We made five recommendations as to how Congress and the Federal 
Government could most effectively address these issues:
    1. The U.S. Government should minimize its participation in the 
        zero-day market: The zero-day market incentivizes selling 
        vulnerability information to the highest bidder rather than 
        disclosing it to the vendor so it can be fixed, and it caters 
        to the intelligence and law enforcement arms of democratic 
        governments and repressive regimes alike, as well as spies and 
        criminals. The U.S. Government can significantly shrink this 
        market simply by abstaining from it and instead relying on and 
        growing resources and technical expertise at agencies like the 
        NSA;\33\
---------------------------------------------------------------------------
    \33\ Id. at 21.
---------------------------------------------------------------------------
    2. The U.S. Government should establish strong, clear procedures 
        for Government disclosure of the vulnerabilities it buys or 
        discovers: When the Government discovers or purchases 
        vulnerabilities that put American internet users and companies 
        at risk, it should ensure that they are disclosed and patched 
        as soon as possible. While there is a process, called the 
        Vulnerabilities Equities Process (VEP), to decide when the 
        Government should disclose vulnerabilities, little is known 
        about how that process works, how often it is used, and how 
        effective it is at ensuring vulnerabilities are disclosed. 
        Congress should investigate this issue, and then codify a 
        process that agencies would be required to follow, and that 
        heavily favors disclosure;\34\
---------------------------------------------------------------------------
    \34\ Id. at 21-22.
---------------------------------------------------------------------------
    3. Congress should establish clear rules of the road for Government 
        hacking in order to protect cybersecurity in addition to civil 
        liberties: Government hacking is as privacy-invasive as 
        wiretapping, and it introduces a set of unique risks to 
        security and to civil liberties, such as Government malware 
        spreading to innocent people's computers, or resulting in 
        unintended damage or the creation of new vulnerabilities. Yet, 
        Congress has not established a clear legal framework for 
        Government hacking, with rules and constraints that address 
        these unique concerns, as it did to address concerns associated 
        with wiretapping;\35\
---------------------------------------------------------------------------
    \35\ Id. at 23.
---------------------------------------------------------------------------
    4. Government and industry should support bug bounty programs as an 
        alternative to the zero-day market and investigate other 
        innovative ways to foster the disclosure and prompt patching of 
        vulnerabilities: We can improve security by creating more 
        avenues through which security experts can disclose 
        vulnerabilities and diverse incentives for disclosing them, 
        like through Vulnerability Reward Programs, often referred to 
        as bug bounty programs. These programs also provide an outlet 
        for researchers who do not want to participate in the zero-day 
        market; and\36\
---------------------------------------------------------------------------
    \36\ Id.
---------------------------------------------------------------------------
    5. Congress should reform computer crime and copyright laws, and 
        agencies should modify their application of such laws, to 
        reduce the legal chill on legitimate security research: Out-of-
        date laws like the Electronic Communications Privacy Act 
        (ECPA), the Computer Fraud and Abuse Act (CFAA), and the 
        Digital Millennium Copyright Act (DMCA), chill security 
        research. This is because under these laws, security 
        researchers are threatened with criminal and civil penalties 
        for their efforts to identify vulnerabilities and fix them.\37\
---------------------------------------------------------------------------
    \37\ Id. at 24.
---------------------------------------------------------------------------
    Finally, in addition to improving vulnerabilities management, the 
Federal Government must work with the private sector to help drive a 
cultural shift in Government and industry that embraces privacy by 
design, and that fuels wide-spread adoption of security best practices. 
OTI recently launched a project called ``Do the Right Thing'' in which 
we studied the factors that led to the wide-spread industry adoption of 
now common, though not yet ubiquitous, security tools like transit 
encryption by default and offering two-factor authentication. We found 
that Government was often influential in spurring increased adoption of 
these tools.\38\
---------------------------------------------------------------------------
    \38\ Kevin Bankston, Ross Schulman & Liz Woolery, Getting Internet 
Companies To Do The Right Thing, https://www.newamerica.org/in-depth/
getting-internet-companies-do-right-thing/ (last visited Mar. 5, 2017). 
For a summary of all of the most common factors spurring the spread of 
three privacy and security best practices, see Kevin Bankston, Ross 
Schulman & Liz Woolery, Key Lessons, https://www.newamerica.org/in-
depth/getting-internet-companies-do-right-thing/key-lessons/ (last 
visited Mar. 5, 2017).
---------------------------------------------------------------------------
    DHS and other relevant Federal agencies should champion the use of 
multi-factor authentication and of encryption to protect stored data 
and communications in transit.\39\ DHS should also work with relevant 
Federal entities and industry leaders to encourage a ``privacy by 
design'' approach to product development, including employing security 
mechanisms like automatic software updates and offering multi-factor 
authentication and encryption services by default. Thinking about 
security holistically and from the ground up will be especially 
important as more devices become connected and the internet of things 
morphs into simply ``the internet.''
---------------------------------------------------------------------------
    \39\ The question of how to address law enforcement access to 
encrypted communications has been the subject of intense controversy 
for several years. OTI strongly opposes any policy proposal that would 
amount to a mandate for exceptional access to encrypted communications, 
commonly referred to as encryption backdoors. For a detailed 
explanation of OTI's position on exceptional access for law 
enforcement, see Kevin Bankston, Written Statement to the House 
Committee on Oversight & Gov't Reform Subcommittee on Information 
Technology. Encryption Technology and Possible U.S. Policy Responses, 
Hearing, Apr. 29, 2015, http://oversight.house.gov/wp-content/uploads/
2015/04/4-29-2015-IT-Subcommittee-Hearing-on-Encryption-Bankston.pdf. 
For more materials on OTI's position on encryption, see Read this 
Before You Rail Against Encryption, New America's Open Tech. Institute 
(Nov. 19, 2015), https://www.newamerica.org/weekly/101/read-this-
before-you-rail-against-encryption/.
---------------------------------------------------------------------------
    In conclusion, while CISA improved in some areas over the course of 
the Congressional debate, the final law left certain privacy concerns 
unresolved and in need of reform. CISA also addresses only a fraction 
of what Congress and industry should be thinking about as they work to 
enhance cybersecurity. The focus must now turn to an outcomes-based 
approach. Congress must ensure that all Federal agencies, including 
DHS, have the resources necessary to hire robust teams of security and 
technology policy experts, and maintain modern and up-to-date systems 
and equipment. It will also be essential to find ways to incentivize 
the private sector and individuals to take action based on new 
information, such as patching known and newly-discovered 
vulnerabilities and clarifying the Government's approach to 
vulnerabilities management in general. Finally, the relevant Federal 
agencies should take advantage of their bully pulpit to encourage 
broader adoption of security best practices like the use of encryption 
and two-factor authentication.

    Mr. Ratcliffe. Thank you, Ms. Greene.
    Thanks all the witnesses for your testimony.
    I now recognize myself for 5 minutes to ask questions.
    In my opening remarks, I talked about the fact that we have 
got a new administration and with that provides us an 
opportunity to regroup and reassess.
    I want to ask a broad question and give you all an 
opportunity to answer this.
    To the extent that, you know the President's cybersecurity 
advisers, maybe even Secretary Kelly are listening to our 
hearing today or are subsequently briefed on it, if you had the 
opportunity to tell them to focus on one or two of the highest 
priorities or specific action items that you think that this 
administration ought to be focused on with respect to its DHS 
mission, what would that be? It could relate to private-sector 
relationships for cybersecurity or protection of our critical 
infrastructure at large.
    But if you had that message to give, what would it be?
    So let me start with you, Mr. Nutkis.
    Mr. Nutkis. Thank you, Mr. Chairman.
    So I think from an ISAO perspective, the guidance we want 
is, what are the expectations and the role? I think, as the 
other testifiers have presented, we in industry are willing to 
step up and provide a lot of the interface. So with regards to 
AIS, we do that directly. So everyone in industry connects with 
us, we connect with DHS. We deal with a lot of the 
anonymization, a lot of the accuracy issues. So for us, it is 
guidance in working with what the expectations are.
    We deal with a lot of the--we were sharing before the 
liability protections in CISA. We would like to see those 
increased and better guidance. So we would like to see clarity 
around the expectations from industry.
    Then with regards to the framework, I will echo those 
sentiments is, it is voluntary and each industry has its own 
interpretation of the guidance and the guidelines that are 
established.
    So the cybersecurity framework is a high-level framework. 
Each industry then has to customize it for their own 
requirements and then it has got to be customized specifically 
to the organization.
    I just want to make sure there is clarity that one size 
does not fit all. There has got to be the ability for 
industries and organizations to be able to implement that based 
on the specific needs in a voluntary basis.
    Mr. Ratcliffe. Thank you.
    Mr. Montgomery.
    Mr. Montgomery. Thank you. It is labor, labor, trained 
labor. As we have all talked about, the size and scale of the 
footprint, the impact upon our lives, the cyber impact upon our 
lives, it grows by leaps and bounds every minute. The notion 
that we are going to out-labor this one person at a time is 
preposterous.
    So if we break labor into two buckets, bucket No. 1 is, 
certainly there is a shortfall, not only, as Ms. Greene pointed 
out, in the public sector, but also in the private sector. We 
are having trouble hiring people, too. So an intense focus upon 
education, making cyber a desirable career and an accessible 
career across a wide, disparate labor force that wants to work 
in cyber is essential.
    But also, the need for reduced labor. We are not going to 
out-labor this problem one person at a time. So information 
sharing, automation, the ability to act at machine speed.
    Our adversaries, as Mr. Greene pointed out earlier, they 
already utilize machines in order to further their campaigns 
and make it more automated. We need to be doing the same thing, 
not only with information sharing, but how we act on behalf of 
critical infrastructure.
    Mr. Ratcliffe. Thank you.
    I will just say we have talked about the cyber work force 
as a priority of this subcommittee going forward, so I was glad 
to get your remarks.
    Mr. Greene.
    Mr. Jeffrey Greene. So focusing on DHS, I think we need a 
clear statement. I would like to see a clear statement from the 
administration that there will be a civilian lead for, you 
know, continuing DHS, a civilian lead for the civilian cyber 
effort. I think it is important to send a message both to the 
companies that have developed relationships with DHS to know 
those are going to continue and also around the globe.
    Secondarily is something that you mentioned in your opening 
statement, look at the operationalization of DHS. From our 
perspective having a long relationship, we know where the touch 
points are. We know who does cyber in DHS, who we reach out to 
for a specific issue. But if you don't know the structure and 
you are on the outside looking in, it is really hard to discern 
who does cyber, where you want to go to.
    I do think aggregating the functions in a central place and 
providing an operational context to it is important.
    Mr. Ratcliffe. Thank you, Mr. Greene.
    Mr. Gillis.
    Mr. Gillis. So I would focus very much on implementation. 
We are at a place right now where there aren't massive 
statutory barriers to executing the cybersecurity mission. We 
need to implement more effectively.
    We have had a 10-year discussion within this country about 
roles and missions of DHS, of DOD, of the intelligence 
community, of law enforcement, how all of those entities can 
work together with the private sector and internally. And not 
re-litigating that and moving forward with being more effective 
on the operational environment under that broad policy 
construct would be essential.
    So what we have seen in at least some of the publicly-
available iterations of the draft Executive Order on 
cybersecurity I think has been a progression to get back under 
that framework, where the roles and responsibilities reflect 
continuity from the Bush administration, CNCI, Comprehensive 
National Cybersecurity Initiative, through the Obama 
administration policy, through the bipartisan legislation that 
this committee has led. So not re-fighting the turf battles and 
the roles and missions and getting to a point where we can 
execute in a way that is automated and efficient is where I 
would focus.
    Mr. Ratcliffe. Terrific, thanks very much.
    Ms. Greene.
    Ms. Robyn Greene. Thank you. I think the things that I 
would convey would be in terms of the guidance that DHS 
promulgated to implement CISA. I hope that this committee and 
the administration will continue to support DHS in that 
important work and not do anything to water down the 
protections or articulations of the definitions in the 
guidance.
    As we know, privacy and security are inextricably 
intertwined. As Mr. Gillis pointed out, it is very important 
that information be actionable. I think that one of the things 
DHS did very well in promulgating this guidance is ensuring 
that companies focus on sharing actionable information. So 
supporting that effort will be critical.
    Additionally, making sure that information is a two-way 
street, ensuring that DHS starts to do a better job of getting 
information to the private sector and doesn't just rely on 
information sharing be from private sector to the Government.
    I would also agree with the need to increase resources and 
to ensure that agencies have the funding that they need to hire 
the best people and to update their systems, as I noted in my 
opening statement.
    Finally, empowering DHS to work with Federal agencies to 
shore-up their systems. One of the things that had been 
contemplated in the Executive Order is bringing the Department 
of Defense more into that work. I think that would be a 
mistake.
    Having civilian control over domestic cybersecurity was one 
of the main points of contention during the debate over CISA 
and, as Ryan just pointed out, has been settled. I think that 
we should start moving forward instead of moving back and re-
litigating past debates.
    Mr. Ratcliffe. I thank you all. I think you gave some very 
thoughtful, helpful, and constructive answers. So I appreciate 
that.
    The Chair now recognizes the Ranking Minority Member, Mr. 
Richmond, for his questions.
    Mr. Richmond. Thank you, Mr. Chairman.
    Ms. Greene, I will start actually where you were leaving 
off in terms of the guidance that DHS was able to issue. But I 
guess my question would be, are there privacy issues that DHS 
did not or could not rectify through guidance? If so, what were 
they?
    Ms. Robyn Greene. Thank you, that is a really important 
question. So there were a few areas that DHS was not able to 
address through its guidance, primarily the over-broad law 
enforcement use authorizations and the potential for the 
President to establish a second authorized portal for 
information sharing.
    I will elaborate on why the potential for a second portal 
is particularly concerning. First, having that second portal 
would decentralize the information-sharing process, which is 
anathema to the purpose of CISA. It would reduce situational 
awareness.
    Second, it would create confusion as to the DHS's role as 
the civilian lead in the Federal Government in information 
sharing with the private sector.
    It would also waste taxpayer dollars. It would result in 
bypassing the work and resources that have been put into 
standing up the NCCIC in order for them to develop the 
relationships that they have developed with the private-sector 
entities.
    Finally, if the second portal was set up in a law 
enforcement agency or an intelligence oversight agency, like at 
the FBI or the director of national intelligence, it would 
undermine user trust, which is just essential for companies to 
feel comfortable engaging in the information-sharing program.
    Mr. Richmond. Do you expect the administration to address 
any of that? Or what are you hearing?
    Ms. Robyn Greene. I haven't heard anything with regard to 
how the administration will be approaching changing DHS's 
implementation of its guidance or sort-of reopening CISA to 
amend these problems. I would certainly encourage Congress to 
start thinking about whether it would be possible to amend CISA 
to address those concerns.
    But most importantly, I hope that this committee will work 
to bolster DHS in its efforts to implement CISA in the manner 
that it is done, which is balancing privacy and security.
    Mr. Richmond. Thank you.
    I will ask this question to the panel since we have a whole 
bunch of experts here.
    We hear a lot about whether DHS's automated indicator 
sharing is or isn't working. For instance, whether the data is 
timely, whether the volume of data is manageable and the cost 
of running the program.
    So from your perspective, can you tell us what is fact and 
what is fiction in terms of the automated indicator sharing?
    Mr. Nutkis, if you want to start.
    Mr. Nutkis. Sure. So having been involved in information 
sharing now for 5 years within the industry and now with 
Government, it is an iterative process. So ourselves in 
industry had a substantial problem in trying to collect IOCs. 
We went from 4 percent of the organizations contributing to 100 
percent through the enhanced IOC program and accuracy. So we 
realize it is iterative.
    Our experiences are quite positive. We had initial 
technical issues. We realized, by the way, that there aren't a 
substantial number of organizations that are sharing. But we 
have seen more and more that are sharing and we are getting 
better and better indicators back.
    No question that it is not as effective as it could be. But 
based on where we were 5 years ago, they certainly have made a 
lot more progress in a short amount of time. So we actually 
have high hopes that if they can encourage other organizations 
to share, and that is really what it comes down to, you know, 
we see a ton of situational awareness across our sector, we 
would like to see more across the other sectors. We certainly 
would like to see more information disclosed from Government. 
But the progress we have seen is positive.
    Mr. Montgomery. I will give you both the good and the bad. 
I agree with Mr. Nutkis. What I think is good is that we are 
establishing the right kinds of muscle memory.
    Ten years ago, 15 years ago, the idea of sharing an 
information security tidbit with a third party was anathema. I 
mean, it wasn't done. In fact, it was considered 
counterproductive. So I think we are establishing very, very 
good muscle memory. The sharing of IOCs among disparate third-
party public and private organizations, that is good muscle 
memory.
    On the downside, what is actually being shared and its 
usefulness and its timeliness, yes, we do need to improve. For 
example, if you were an auto mechanic and I handed you a bolt 
and said, OK, fix it, you wouldn't really understand where the 
bolt was from on the car or what kind of manufacturer it was 
from or whether it was a car or a truck. You would just 
understand that I had a problem. I think once we say, hey, this 
bolt fell off of my 1967 Fiat, now you are starting to 
understand the context that is required.
    I believe the muscle memory and the sharing will get us 
toward those, but certainly we need some better guidelines 
about what constitutes good data coming in.
    Mr. Jeffrey Greene. I would echo what Mr. Montgomery said. 
I think probably one of the most significant wins is that we 
now have a formal process, we are not relying on just 
relationships.
    We are right now in the midst of an analysis as to whether 
it makes sense for us to really jump in on AIS. One of the 
things we are looking at is how much work it takes to really 
make sense to figure out that the nut came from a Fiat once we 
get data back.
    We are in a little different position just because of the 
volume of data that we get in through our own sensors. So there 
is, you know, a lot of information we have already obtained on 
our own, so there may be less unique data than other 
organizations.
    But we have reviewed in the past and are now revisiting 
again to see if it has evolved to a place where it is useful to 
us. So we are looking at the questions that you asked, right 
now. But the most important thing, though, is we now have a 
formal process as opposed something that is purely 
relationship-based.
    Mr. Gillis. So on the operational side, I would echo all of 
these statements, which is that AIS has the right foundation. 
It needs to be sharing more particularly on the context side. 
If you look at the Cyber Threat Alliance, the way that we are 
now sharing is not just a quantity of indicators of compromise, 
you have to actually share with context. So what phase of the 
attack is this in? Is it intelligence and reconnaissance? Is it 
command-and-control? Is it linked to a known campaign?
    With that broader context, if AIS can incorporate some of 
those technological best practices, it will be far more 
valuable in what it does.
    On the programmatic side, this seems simple, but I have 
talked to DHS about this, so as a DHS alum I wanted to stick 
with this. There are some challenges to just on-boarding. They 
are short-staffed and there is not a real customer service 
focus to outreach to the private sector and bring even willing 
participants on in a timely and effective manner.
    So they recognize that. It is something that is very much 
correctable, but it would go a long way as you go out to 
companies and try and build trust, because AIS is only going to 
be more effective with more parties involved. Making that 
process as easy as possible is an administrative thing that I 
think can add real operational value.
    Mr. Richmond. Let me thank you.
    Mr. Montgomery, you must be a golfer because you used 
``muscle memory'' as opposed to just saying habit or something. 
But just thought I would point that out. Thanks.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes the gentleman from Wisconsin, Mr. 
Gallagher. The Chair also welcomes him and Mr. Fitzpatrick and 
Mr. Garrett and Mrs. Demings to our subcommittee. We are glad 
to have you all.
    With that, the gentleman is recognized.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Mr. Montgomery and Mr. Greene, at the end of the second 
quarter of 2016, I believe Amazon and Microsoft, IBM and Google 
combined for about 55 percent of the global cloud 
infrastructure market share. What more could we be doing as a 
committee to ensure security of that vital cloud computing 
system? Is there any more attention we need to be paying to the 
actual physical security of these systems as we talk about 
securing sort of cyber space?
    Just easy questions today.
    [Laughter.]
    Mr. Montgomery. Boy, that is a big-boy-pants question.
    [Laughter.]
    Mr. Gallagher. The only kind of pants we wear on this 
committee.
    [Laughter.]
    Mr. Montgomery. All right. So let us start with hardware 
and physical security because I think it is foundational, 
whether it is cloud or whether it is brick-and-mortar.
    One of the things that we recognize across the technical 
folks on the committee is that if you don't have a good 
foundation, the pyramid gets top-heavy very, very quickly. So 
underlying chip-level, firmware-level security is essential in 
the trust model.
    Because what you are doing when you go to a--now, when we 
do go to the cloud, you are basically renting a data center 
from somebody else. So the physical controls and the physical 
security and the chip-level security have to be sacrosanct.
    Intel has long led with respect to this with a series of 
freeware tools that are available in order to test the efficacy 
and tamper-proof or tamper state of the firmware and chips that 
the commonly-used cloud providers utilize.
    I think that one of the things that is challenging about 
cloud is that, just like any other technology, it is not a 
panacea. It is a useful tool for solving a series of problems. 
But one of the things that I think Government can do is help 
establish, what problem are you trying to solve? Are you trying 
to buy CPU cycles very cheaply? The cloud is the best way for 
doing that. Are you trying to have highly regulated or 
Classified or Sensitive data housed at the same security as 
brick-and-mortar, but have someplace else or somebody else do 
it? Your mileage may vary on costs. You will get there, but 
your costs will wind up being different.
    So what can we do? Homeland's role here in terms of 
communication is essential. What do we mean by cloud? If I 
asked all of the committee Members or subcommittee Members, you 
would all have your own idea on what cloud means.
    So putting some definitions around what we mean, what the 
best uses are, what Government should be doing or potentially 
not doing, where brick-and-mortar is appropriate versus cloud 
is a great start to helping to identify not only what should we 
doing at home in our own data closet, but also which third-
party partner that you mentioned should we be going to and why. 
I think that is a great start.
    Mr. Jeffrey Greene. So I would start by cloud is a 
different domain, a different environment, but a lot of the 
same risks and threats. So let us not overthink in the sense 
that we have to come up with something brand new. I would apply 
the same thing to this internet of things which is growing. Let 
us not forget the lessons we have learned and act like we have 
to start from scratch.
    So a lot of the same traditional cyber hygiene is going to 
apply. I think you also need to distinguish between whether we 
are talking about securing the actual cloud provider or 
securing the user of the cloud.
    Then you get get down to risk-based decisions. If I am 
using the cloud to host my kid's Minecraft site, probably not a 
high-level security needed. If a power generation plant or some 
critical infrastructure is using the cloud for some capacity, 
much higher need for security there. In that case, you have to 
think about what is the obligation for both the cloud provider 
and the organization that chooses to use the cloud, which is a 
fine decision.
    Here, I think the NIST framework comes in well, both for 
the cloud provider and the user. Use the risk-based 
calculations in the framework to figure out what you are doing 
right, what you are doing wrong, where your gaps are, how you 
improve them. So I would encourage you to think about it from 
both ends.
    Mr. Gallagher. Great. Quickly, Mr. Gillis, in the 30 
seconds we have, one of your co-founders is Israeli. Every day 
I hear about a new Israeli company in this space. What are we 
doing with them now? What can we learn from the Israelis who 
seem to be a leader in this space?
    Mr. Gillis. Sure. So there are certainly some lessons 
learned from Israel. It is obviously a very different dynamic 
and not just the neighborhood that they are in, but the 
mandatory service. So there is a lot of institutional knowledge 
as well as Israel as a government has done a lot both to 
attract American company investment and to ensure that those 
that they have within country that have expertise are supported 
from a venture capital perspective as they transition to the 
private sector.
    I would also echo on the cloud side of things, too, you 
know, fundamentally, we talked earlier, you have got to protect 
your customers wherever their data resides and transits. So as 
Jeff has said, you need to move effective technology geared to 
the specific how of defending a cloud and evolve that into that 
new area.
    But the principle remains the same, which is that you need 
to be secure, whether it is in a data center, whether it is at 
a terminal, or on a mobile device.
    Mr. Gallagher. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ratcliffe. The Chair recognizes the gentlelady from 
Florida, Mrs. Demings.
    Mrs. Demings. Thank you. Thank you to our witnesses for 
being with us today.
    Ms. Greene, as we continue to assess the impact of cyber 
intrusions and begin to make adjustments to cyber policies 
based on what we know about these intrusions, what must we keep 
in mind on the privacy and the civil liberties front to make 
sure we balance security with the privacy concerns?
    Ms. Robyn Greene. Thank you. I think ensuring that we 
maintain a civilian lead within the Federal Government on 
cybersecurity is going to be absolutely essential as we move 
forward in this space.
    Additionally, always remembering that the more we are 
protecting privacy, the more we are increasing security. Well-
curated information is going to be one of the best tools that 
we have and security experts are in nearly unanimous agreement 
that that almost never includes information like communications 
content or personally identifiable information.
    So as we move forward, ensuring that whatever new 
undertakings, you know, lay ahead and whatever changes to the 
guidance that may be made for CISA, we always keep privacy and 
minimizing unnecessary information sharing at the forefront.
    Mrs. Demings. Also for Ms. Greene, in President Obama's 
cybersecurity Executive Order, there was a designated role for 
the Privacy and Civil Liberties Oversight Board. Should this 
board have a designated role in future Executive Orders and 
legislation? How important is it to have a fully functioning 
Privacy and Civil Liberties Oversight Board?
    Ms. Robyn Greene. So in previous iterations of information-
sharing legislation, there had also been a role for the Privacy 
and Civil Liberties Oversight Board contemplated. OTI supported 
the inclusion of the PCLOB as an entity to oversee the 
implementation of information-sharing programs.
    Whether it is expanded into the cybersecurity space or not, 
the Privacy and Civil Liberties Oversight Board plays an 
incredibly important role in Americans' privacy. It not only 
conducts oversight of counterterrorism activities for the 
Federal Government and their implications on privacy and civil 
liberties, it also serves as a sounding board for the 
intelligence community to ensure that they are doing things in 
the best way for privacy possible.
    Oftentimes, the PCLOB will actually raise concerns or make 
suggestions about how the intelligence community can be 
improving privacy that they simply hadn't thought of yet. So 
they do play a critical role in bolstering Americans' privacy 
and civil liberties.
    Mrs. Demings. Thank you.
    This next question is, for the sake of time, for any 
witness who feels it is more appropriate for them.
    For a long time, the information-sharing conversation has 
been stuck on gathering data, either making it easier to 
participate or offering incentives to share.
    It is time to start shifting our attention to focus on what 
we should do with the cyber threat data that we collect?
    Mr. Jeffrey Greene. Real quick, I think I am very pleased 
to hear the idea of shifting away from incentives, not that 
companies or organizations are going to turn them down. But at 
the highest policy level, I have always had a little discomfort 
with this notion that we need to give incentives for people to 
improve their cybersecurity. It is not something that we should 
have to incent people to do.
    We need to get to a world where securing your data, whether 
your personal, your corporation, your pizza shop, is the same 
as locking your door. In college I worked at a bicycle store, 
and when I left at night no one had to incent me to lock the 
door so someone wouldn't steal my bikes. I think we need to get 
to a place in cybersecurity where the mind-set is that this is 
just a reality of doing business.
    I do have some concern that a continuing discussion of 
incentives perpetuates this idea that cybersecurity is some 
extra that we need to encourage people to do as opposed to just 
the reality of the world we live in today.
    Mr. Nutkis. Just to give you a perspective from industry, 
so we use the terms ``consumption'' and ``actionability.'' I 
think the problem is, is that we work with Fortune Six 
organizations and we work with two-doc practices. So when we 
are talking about the shift, we also have to shift the 
approach.
    I think we have piloted and we have seen methods of high-
tech, low-touch where, you know, we hear from the smaller 
organizations that they just don't have the resources, they 
don't have the appetite. They are trying to screen patients for 
Zika virus or other things and that is what they are going to 
worry about. They are not worrying about information security. 
They expect that that will be an automated process that the 
vendors are going to have to figure out how to automate that 
process.
    So it is not a one-size-fits-all, but the consumption and 
actionability is clearly an issue we have to shift to.
    Mrs. Demings. Great, thank you so much.
    Mr. Ratcliffe. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Thank you to the Ranking Member as well.
    Thank you to the panel for being here today on a really 
critical issue.
    I have said many times, of all the threats we face as a 
country, I am not aware of a larger threat than that of cyber 
threats, both from a National security standpoint and an 
economic security standpoint.
    When the law enforcement folks appear before us, I am going 
to ask them about their relationship with each other. 
Generally, the FBI and DHS have concurrent jurisdiction on the 
Federal level over cybersecurity-related issues.
    But the question I want to ask this panel, given that you 
are representing the private sector, is your relationship with 
law enforcement, with both organizations, because in order to 
advance the ball in this arena it is critically important from 
both sides, not just from the private sector, but from law 
enforcement that there be a solid relationship, that there be 
information sharing, that there be established protocols as far 
as reporting incidents.
    I can tell you, coming from that profession, we relied 
heavily in all areas, but particularly in this area, on the 
private sector and sharing information with us as law 
enforcement officials, educating us.
    What I would like to know from the members of the panel is, 
how has that relationship been with both agencies when it comes 
to sharing information about threats, digital fingerprints, and 
the like? What is working? What is not working? What can be 
improved in that area?
    Mr. Gillis. Sure. Let me give you a little bit of 
historical perspective as well here, because I can tell you 
from while I was in government when the U.S. Government first 
started responding to victim notifications, sometimes one 
company would call several different agencies. As ridiculous as 
this sounds, we have seen instances where each agency would 
show up with a different nondisclosure agreement, the company 
would sign each one of those and then the agencies couldn't 
share amongst each other.
    Absurd as that is, we have come a long way in just the 
basics along those lines. I think you have seen much better 
collaboration amongst the Secret Service and FBI. I think they 
are working well together.
    To give you a personal anecdote from the private sector 
side as well, we have talked a little bit before about raising 
the cost of an attack. So first, that starts with preventing 
attacks, to weed out unsophisticated actors and also to make 
sophisticated actors up their game in a way that makes it more 
easily attributable.
    Law enforcement is going to be an important component of 
that. Right now because the noise is so prolific, it is hard to 
go after malicious actors because there are so many people in 
the space. If the technology can weed out some of the 
unsophisticated actors, it can allow law enforcement to go 
after those criminals in a way that they will be forced to come 
out in the open more. It will be easier to identify who is 
acting because they are going to have to develop, not just use 
freely available tools, but develop their own tools that will 
make it easier to identify those entities.
    We as security companies will sometimes be able to identify 
as those campaigns are coming in, this is the infrastructure 
they are using. So when that case occurs, we contact FBI, 
Secret Service, and others as appropriate to help say this is 
the playbook that is being run against us and that can help 
inform investigations.
    So they do have a very important role and it is something 
that we focus on from a private-sector side.
    Mr. Jeffrey Greene. Yes. I would echo that. I would say 
that direct to DHS, as I mentioned earlier. Just last week, we 
had 10 analysts in to talk about a specific threat that they 
are looking at, to share our research on. At any point in time, 
we are active with several active FBI investigations, providing 
information about criminal infrastructure, indicators of 
compromise.
    Not just us, but industry in general has developed a fairly 
good relationship with the large actors out there. It is 
something we can certainly provide you more details on some of 
the cases that we and others have worked on.
    Mr. Montgomery. So I would say I would agree with respect 
to collaboration. For instance, nomoreransom.org is a not only 
National law enforcement collaboration, but also cross-vendor 
where we have actually harvested and returned keys to victims 
in conjunction with law enforcement investigations.
    So I would say with respect to collaboration, there is a 
lot of progress, there is a lot of great partnership and 
cooperation.
    There is one instance where I think we can make improvement 
and it is when there is a data classification around a 
Government event. I will give you a functional example, the 
Iranian incursion into Navy SQL servers.
    Basically by classifying the event, what we are doing is 
restricting the number of people who can lend assistance and 
also allowing the adversary to operate with impunity where, if 
we can release this information sooner, we are actually 
affecting not only Government, but private-sector organizations 
that have the same, very, very common, to Ryan's point, very 
low-hanging fruit attack.
    So whereas I think the collaboration is good, when there is 
a Government instance requiring data classification, we are 
classifying too quickly sometimes and not allowing that 
information to be propagated both in public and private sector.
    Mr. Nutkis. So just for a slightly different perspective. 
So we end up working between DHS and FBI on almost, I would 
say, a weekly basis between some event that is going on in the 
industry. It is sometimes hard to understand the roles. It 
certainly, I think, recently has been much more clarified 
between the Bureau and Secret Service.
    The term that I can't stand hearing is active law 
enforcement investigation which shuts down the sharing. That is 
really, so they will reach out, they will ask for a whole bunch 
of stuff or we will share a whole bunch of stuff with them, and 
then everything stops.
    From our perspective, since we already are aware of it 
because we were sharing it across multiple organizations, in 
fact we are not sure why they can't share back as we are trying 
to work the same incident as they are.
    So again, we understand the obstacles they are under. You 
know, we found that certainly it is a great, you know, 
relationship, but their hands are tied. So we end up spinning a 
lot of cycles.
    Also, the part that has, I think, become much more 
efficient is now they reach out to us. They used to reach out 
to a hundred organizations individually. They reach out to us 
and then we will reach out as an outreach effort, which 
certainly makes it much more efficient.
    Mr. Fitzpatrick. What do you think the solution is 
regarding obviously their hands are tied as far as disclosing 
law enforcement sensitive information regarding an on-going 
investigation?
    Mr. Montgomery, regarding the classification issue, what 
are suggested improvements on how to deal with that?
    Mr. Nutkis. Well, I am not sure I have an answer 
specifically because unfortunately we are not aware of what 
they are not sharing. But it appears that they don't have to--
from our perspective, the effort that we are trying to put in 
place is cyber resilience. We are trying to defend the public 
sector from additional loss. So there has to be a happy medium 
here where they can provide us with enough information to 
defend the sector without compromising a law enforcement 
investigation.
    But right now, I don't think they are going through the 
analysis. It is a binary. It is yes, there is a law enforcement 
investigation, stop, versus what do we need to give the sector 
to protect itself? I think that varies based on the 
significance of the investigation and the significance of the 
threat.
    Mr. Montgomery. I can't agree more with Mr. Nutkis. This 
knee-jerk to classify an issue, for instance, a SQL server on 
an Unclassified network, having an issue for which there is a 
7-year-old patch, this doesn't feel like a National security 
issue, this feels like an overreaction to what has occurred on 
an Unclassified DOD network.
    That information could have been useful to a broad swath of 
practitioners, both in the private and public sector. But the 
knee-jerk classification makes that impossible. So I would 
agree, the context around the event makes it easy to decide 
what should be disseminated quickly and what should not.
    Mr. Jeffrey Greene. Mr. Gillis made a great point before, 
that a lot of times the information that law enforcement holds 
or is looking at exists and that private sector has developed 
that on their own. So we may have evidence of the compromise or 
know what needs to be done and there is a way and times to push 
that out without any connection back potentially to the fact 
that there is law enforcement if Palo Alto holds it, if McAfee, 
Intel, or Symantec. There are creative solutions that we can 
work toward.
    Mr. Fitzpatrick. I am over my time, but we really would 
like to work with you on that because that is something that is 
really important, and it is something I think we could work to 
fix.
    So I yield back, Mr. Chairman.
    Mr. Ratcliffe. Last but not least, the Chair recognizes my 
friend from Rhode Island, the Chairman of the Congressional 
Cyber Caucus, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    I want to thank our panel of witnesses here today for your 
testimony and the work that you are doing to help protect our 
Nation in cyber space.
    So I wanted to follow up and just talk a little bit more 
about the information-sharing issue and build on some of the 
questions that Mr. Richmond had asked earlier.
    I just wanted to start with Mr. Montgomery and then the 
panel members can chime in as well.
    But, Mr. Montgomery, I just have a couple of clarifications 
I would like to make from your written testimony, if you don't 
mind.
    First, you state, today, AIS does not provide a means for 
enriching the information it shares and it simply shares 
minimal IOC information. So do you mean that AIS and the STIX 
and CybOX expressions used under the program are not able to 
convey meaningful, contextual information or that as a matter 
of practice the information being shared currently lacks the 
rich, holistic content?
    You know, I want to figure out, is this a logistics and 
capabilities part of the protocols with AIS? Or is it the 
information that they are receiving isn't robust enough?
    Mr. Montgomery. Yes. Unfortunately, it is both. The ability 
to extract information from a generic individual IOC, like a 
domain name or a URL or a fingerprint of a file, unless the IOC 
is so damning and points to such a condition, typically it is 
simply one of the needles in a pile of needles.
    So two things are required. One, a greater degree of 
context around how a particular IOC was collected, under what 
context. How was it received? How was it transmitted? From 
whom, to whom? When was it received? Was it received during the 
course of the normal 9-5 business cycle? Was it sent wildly out 
of band?
    These are the kinds of pieces of information that a 
practitioner would require in order to try and sort out what to 
do next. The ability to provide those levels of context as part 
of AIS is both--it is a technical limitation that we can't do 
that today. It is also sort-of it is base-table stakes in terms 
of what a practitioner would do next.
    So if we were to make recommendations on change, it would 
be around sort-of that practitioner knowledge that comes with 
an individual IOC because then it becomes a force multiplier.
    Mr. Langevin. OK, very good. Thank you.
    So another question, again following up on Mr. Richmond's 
question, relates to the free rider problem that you describe 
with information sharing.
    So I have been impressed with CTA's work to address this 
problem, particularly as it moves away from volume-based 
measures of input to quality-based ones. So in your testimony, 
you state that DHS declassifying more information will help 
address the issue of free rider.
    While I certainly fully support quicker declassification of 
threat indicators, it mystifies me how this is going to 
incentivize the private sector to share with Government. Can 
you help clarify that for me?
    The rest of the panel, I welcome any comments that you 
might have, how we can deal with free riders in the broader 
ecosystem.
    Mr. Montgomery. Sure. So with respect to this has been the 
long-standing issue with the private-sector sharing. As Mr. 
Nutkis pointed out, we feel like we give information and we 
don't get the same yield back.
    A declassification process would allow the Government to 
determine, particularly as it relates to homeland and its 
critical infrastructure mission, what is the implication of a 
particular piece of information as it relates to the physical 
critical infrastructure before giving it back?
    But if that vetting process included even a Classified 
effort among vendors who were, as Mr. Greene pointed out, we 
sit at a lot of interesting nexuses. If we are able to 
complement that effort, collaborate in even the 
declassification effort, we all have our cleared elements. In 
order to get to that point to say, look, although the 
Government has classified a particular piece of information, it 
is in the wild or it is in the dark web. The value is only 
allowing adversaries to operate with impunity.
    This would allow people to get real yield back from the 
program on a more timely basis.
    Mr. Gillis. Sure. Let me add also on a sector-by-sector 
basis within industry. One of the real values of the Cyber 
Threat Alliance is that everybody in there is a security 
vendor, has sophisticated capabilities, and our customer base 
is across all sectors of industry.
    So by sharing information, No. 1, we wanted to ensure that 
the barrier to entry wasn't just a pay-for-play, but that you 
had to contribute significant, actionable intelligence on a 
regular basis. The benefit of that is that all of our customer 
set is better protected.
    If you looked at ISACs, so financial sector, energy sector, 
health sector, for example, the less that those ISACs have to 
do for plugging in individual indicators of compromise or 
stopping individual playbooks, if they can rely on the security 
vendors to do that, then you can have more participation within 
those industry verticals on things that are specific to their 
sector. So there is a real force multiplier across different 
sectors of industry by coupling the CTA with the role of the 
Government and the role of these different ISACs on a sector-
by-sector basis.
    Mr. Nutkis. Yes, I would agree with that. Although this has 
been an issue that we have had to deal with. I am not sure if 
people realize the only organization that doesn't benefit from 
information sharing is the one who shared.
    So as we have gone through this and we did our original 
analysis, we found that 4.1 percent of the organizations that 
were in our information-sharing center were actually 
contributing. Of that, they were contributing in a relatively 
abysmal way, 7 weeks between identification to sharing and 
things like that.
    We then went to what we called enhanced, which you had to 
share within 5 minutes and it had to have the metadata and you 
had to share complete indicators. What we did is we delayed the 
participation or the sharing of those indicators by 14 days to 
anyone else. That was the only carrot we could find which was, 
if you wanted better indicators you had to share better 
indicators. That was really the incentive.
    Actually, it worked. We were able to get a lot of 
organizations to step up to the table, by the way recognizing 
that, and I think this is also important, that there is an 
underlying element here that gets lost, which is a lot of the 
issues with sharing has to do with the maturity of the 
organization or their ability to share in the first place.
    So even though we are sharing, we also have this other 
issue, if you are not mature enough to share, are you mature 
enough to consume. I know that gets lost on a lot of this and 
this hearing is on sharing, but we need to make sure as we 
share, again, as the technology vendors look to improve the 
infrastructure and the security technology, is how do we 
consume them.
    Mr. Langevin. Thank you, Mr. Chairman.
    Is it your intention, Mr. Chairman, to do a second round or 
are we just doing a first round?
    Mr. Ratcliffe. Yes. Unfortunately, just one round today.
    Mr. Langevin. OK. So I have some additional questions I 
would like to submit for the record and hopefully our witnesses 
can respond in writing.
    Mr. Ratcliffe. Terrific.
    Mr. Langevin. Thank you.
    Mr. Ratcliffe. Thank the gentleman.
    The Chair now recognizes my colleague from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you for the courtesy of the Chair 
and the Ranking Member.
    Thank all the witnesses today.
    Let me just begin and thank you for what I have gleaned in 
this hearing. I appreciate maybe global responses if you could 
quickly give.
    A bill that I introduced, H.R. 940, Securing Communications 
of Utilities from Terrorist Threats, and an aspect of it is to 
seek voluntary participation on ways that DHS can best defend 
against and recover from terrorist acts that have an impact on 
National security. It involves working with the private sector.
    Then H.R. 935, Cybersecurity and Federal Workforce 
Enhancement, is to seek a more trained work force that will be 
working for the Federal Government.
    In the course of my questions, maybe someone would answer 
the importance of obtaining skills to address our Nation's 
deficit in the number of workers that are so crucial.
    I also look forward to introducing soon Prevent Zero-Day 
Events which would help DHS in working with sector-specific 
entities to better understand the detection of undiscovered or 
unreported vulnerabilities in software and firmware. That one 
in particular I would like to have a comment on as I ask the 
question.
    So I want to ask a specific question that deals with, in 
the wake of the Russian cyber campaign against our electoral 
system, about there has been discussion about the importance of 
attribution. Panel, could you speak to why it matters, 
particularly as interest grows in exacting retribution? That is 
the question of attribution as to, how did it happen?
    Also, we are now hearing without details of the potential 
release of a number of tactics that are being used by the CIA. 
Again, news reports speculate that this may have come from 
individuals with access who work for private contractors.
    You are from the private sector. I would be interested in 
your vetting processes regarding individuals that have access 
to governmental, confidential security data and information.
    I would also like to put on the record, Mr. Chairman, the 
request for a briefing. It may be this committee, it may be 
another subcommittee, any one, or the full committee. That I 
believe that we should receive a Classified briefing as to what 
actually was released that impacts negatively on the 
intelligence community regarding the representation that 
Wikileaks has released through information they received, some 
very viable and important data. I think that this is a key 
responsibility that we have.
    So could you begin? Who will take questions?
    Mr. Gillis. I will start with securing utilities, where you 
began there. So that is an essential area that we as a Nation 
need to be concerned about. It is an area where we collectively 
need to work, again public/private.
    Let me give you an example of one instance in which we have 
done so. So last fall, our security intelligence team 
identified new strands, new iterations of what is called the 
Shamoon attack. Shamoon attack is what was levied against Saudi 
Aramco, an oil producer within Saudi Arabia, that had destroyed 
35,000 hard drives in 2012.
    We noticed in late fall that there were new evolutions of 
some of that old infrastructure with new techniques being used. 
As we identified that, we called up Department of Homeland 
Security, ensured that they had a predecisional copy of that 
report, ensured that they were able to help protect U.S. 
Government networks against it, ensured that they were able to 
distribute that across the broader USG community, ensured that 
they were able to help develop their own critical 
infrastructure bulletin so that U.S. industry in the electric 
sector and other utilities were able to prevent against those 
types of attacks.
    So that is a place where, if you look from a National 
security and economic security perspective, utilities are 
obviously key. It is essential to look at the intersection of 
physical and cybersecurity, as this committee does here and an 
example of something that we highly value and DHS has a 
tremendous role toward.
    Ms. Jackson Lee. Mr. Nutkis and Mr. Montgomery, can you 
answer the question about the issue of, how do you vet your 
individuals that work with Government data? What do you think 
about attribution?
    Mr. Nutkis. With regards to vetting, we follow the 
Government's requirements for vetting. So DHS has a formal 
process which requires for vetting of anyone who has access to 
Classified information. That is the process that we follow.
    With regards to attribution, we, again, there is--from 
cyber resilience and defending, that is a different, you know, 
that is not as relevant for us down in the private sector.
    We want to know what the threat is, how real the threat is, 
what to do about it. It is really about either anticipating the 
threat so that we can have a defense posture.
    Although it has always been interesting and as we go to 
various briefings to understand where the threats are coming 
from and, again, it helps us protect our networks and protect 
the environment, specific attribution to the individual threat 
actor, it has always been interesting, but we have never really 
determined how best to use it and certainly use it on a wide 
scale at an industry level.
    Ms. Jackson Lee. Mr. Montgomery.
    Mr. Montgomery. With respect to people having access to 
Government data, we use the same DSS and OPM clearance 
processes as everybody else does. We do some stove-piping of 
Government data away from other systems in order to meet the 
physical and data security requirements.
    With respect to attribution, I think attribution, it is a 
step that I think people are prioritizing more heavily at the 
wrong times. Asking about attribution first in the wake of a 
breach or of a successful attack is much akin to trying to 
decide what color carpet to put in your house while it is still 
on fire.
    There is a point at which you should decide what color 
carpet to put in the house, but put the fire out first.
    There are hygiene and security elements that are far more 
important to take care of, particularly as it relates to 
utility and critical infrastructure, long before sorting out 
which foreign national, which we may or may not ever get 
jurisdiction over, is ultimately responsible.
    So while I think that attribution is an important step in 
the life cycle of an event, putting it first is what we seem to 
do as a society and as a technical society. It should be far, 
far further down the track so that the events can't occur again 
rather than figuring out who to blame.
    Ms. Jackson Lee. Does anyone else?
    Mr. Chairman, you have been very gracious. I know that the 
answers refer to the private sector and do not, in respect to 
attribution and retribution, I appreciate Mr. Montgomery, do 
not reflect on the importance of our Government finding out who 
this should be attributed to. Therefore, we have the 
opportunity to deal with what our response will be.
    Certainly, as the house is on fire, I would like to say, in 
concluding, I would like to get it before the house is on fire, 
I would like it not to happen. That is what I hope as Members 
of the Homeland Security Committee and this committee that we 
can work in that preventative mode. That would make us all 
safer and securer and make the work with our partners in the 
private sector a smoother pathway.
    I yield back, Mr. Chairman.
    I thank you, Mr. Montgomery.
    Mr. Ratcliffe. Thank the gentlelady for her remarks.
    That concludes our hearing. I had high expectations, as I 
said at the outset, and from my perspective those expectations 
have been met for this hearing.
    I think the testimony and the responses to questions that 
we have had from the witnesses have been particularly 
insightful and instructive, certainly to the committee, and 
hopefully to the new administration.
    So I thank you all for your testimony, and I thank the 
Members for their thoughtful questions today.
    The Members of the committee, at a minimum Mr. Langevin, 
perhaps others, will have additional questions for some of the 
witnesses. We will ask you to respond to those in writing.
    Pursuant to committee rule VII(D), this hearing record will 
be held open for a period of 10 days.
    Without objection, the subcommittee will stand adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Honorable James Langevin for Daniel Nutkis
    Question 1a. AIS was one of the central accomplishments of the 
Cybersecurity Act of 2015, and I believe that real-time, machine-to-
machine sharing can make a real difference in protecting our networks. 
I have, however, been concerned by the lack of participation in AIS, 
particularly because in order to function, it needs to take advantage 
of the network effects of a robust pool of participants. Why do you 
think participation numbers are so low, particularly since we heard 
from the private sector repeatedly while working on the bill that this 
sort of initiative was urgently needed?
    What specific measures could DHS take to encourage private-sector 
participation?
    Question 1b. Does your organization/company participate in AIS?
    If yes: (a) When did you join the program? (b) What were your 
initial set-up costs to do so? (c) What factors motivated your decision 
to join AIS?
    If no: (a) Have you considered joining AIS? If so, what factors 
caused you to decline to participate? (b) What would need to change 
about the program to make it worthwhile to participate?
    Answer. Response was not received at the time of publication.
    Question 2. One of my goals this Congress is to get a better handle 
on cybersecurity metrics: Namely, are the actions we are taking having 
measureable improvements on our security? Based on your experience, how 
can we better measure cybersecurity outcomes?
    Answer. Response was not received at the time of publication.
    Question 3a. On December 29, 2016, the Department of Homeland 
Security released a Joint Analysis Report (JAR) regarding Russian 
malicious cyber activity designated as GRIZZLY STEPPE. Included in the 
JAR were indicators that were released in STIX and CSV formats.
    How did your organization/company utilize the JAR?
    Question 3b. Did you find the technical indicators of malicious 
Russian cyber activity useful? Why or why not?
    Question 3c. What proportion of the technical indicators was your 
organization/company aware of before the release of the JAR?
    Question 3d. Do you believe the JAR helped improve the Nation's 
cybersecurity?
    Answer. Response was not received at the time of publication.
      Questions From Honorable James Langevin for Scott Montgomery
    Question 1a. AIS was one of the central accomplishments of the 
Cybersecurity Act of 2015, and I believe that real-time, machine-to-
machine sharing can make a real difference in protecting our networks. 
I have, however, been concerned by the lack of participation in AIS, 
particularly because in order to function, it needs to take advantage 
of the network effects of a robust pool of participants. Why do you 
think participation numbers are so low, particularly since we heard 
from the private sector repeatedly while working on the bill that this 
sort of initiative was urgently needed?
    Answer. The limited level of private-sector participation in the 
AIS system has many causes. These include:
  <bullet> Most organizations have an inherent hesitation or fear to 
        share cyber threat information. There is a concern that sharing 
        may expose internal corporate information unnecessarily. 
        General counsels have found it easier to have policies that 
        restrict sharing to all but the most trusted partners.
  <bullet> The sign-up process for AIS is a bit onerous. The process 
        could be made much easier and more streamlined to incent 
        participation.
  <bullet> Currently, AIS only shares indicators and mitigations. While 
        these pieces of information are large components of the cyber 
        threat life cycle, there is currently no way to enrich data 
        that an organization receives from AIS. In other words, if an 
        organization finds additional data sets that can be used to 
        enrich the data received from DHS, it has no way to share these 
        data sets with the AIS community.
  <bullet> The limited legal liability protection established in the 
        legislation and implemented in regulation has been and 
        continues to be confusing.
    Question 1b. What specific measures could OHS take to encourage 
private-sector participation?
    Answer.
  <bullet> Provide general counsels with more information that shows 
        the value of participating in AIS.
  <bullet> Clarify liability protection.
  <bullet> Improve the sign-up process to make it is easier to 
        understand and implement.
  <bullet> Provide an organization's IT/security staff with materials 
        they can use ``to sell'' the effort to their management and 
        general counsel.
    Question 1c. Does your organization/company participate in AIS?
    Answer. McAfee recently spun-out as a separate, stand-alone 
company. As such, we are currently developing new internal processes 
and procedures. Currently, we do not participate in the AIS program.
    Question 1d. Have you considered joining AIS? If so, what factors 
caused you to decline to participate?
    Answer. McAfee is still deciding whether to join AIS.
    Question 1e. What would need to change about the program to make it 
worthwhile to participate?
    Answer. The program would be much more valuable if there was a 
means to enrich the data provided. It is our understanding that AIS 
does not provide a unique set of indicators to the private sector. This 
means that multiple indicators could come from different submitters 
that, practically speaking, are the same. This puts the burden of data 
clean-up on every participating organization. It would be better for 
all if AIS did this data clean-up as part of their redistribution 
process.
    Question 2. One of my goals this Congress is to get a better handle 
on cybersecurity metrics: Namely, are the actions we are taking having 
measurable improvements on our security. Based on your experience, how 
can we better measure cybersecurity outcomes?
    Answer. It is very difficult to accurately measure progress in the 
cybersecurity domain. Scope and scale are the main challenges.
    There are organizational risk management tools that can be used to 
track and depict organizational cyber program improvements, such as the 
NIST Cybersecurity Framework, but they are not appropriate when 
comparing one organization to another.
    Because cybersecurity impacts so many parts of our digital world 
today, appropriate metrics need to be developed for each of the 
specific areas being examined. For instance, with an organizational 
baseline, it is not hard to measure how fast patches are deployed each 
month within a given organization. Macro-level measurements, on the 
other hand, are much more complex and difficult to develop. For 
example, how would you measure the impact of delaying procurement of 
new cybersecurity capabilities? The cybersecurity landscape is very 
much an arms race between the defenders and the malicious actors. If 
the process to acquire new capabilities takes two or more years, what 
effect does that have on an organization's defensive capabilities?
    Given the many difficulties associated with metrics, it would be 
useful for NIST to create a metrics research effort. Such an activity 
should not be tied to the NIST Cybersecurity Framework, but should be a 
stand-alone effort that considers the scope and scale of the various 
needs for measurement. Organizational internal measurements, sector-
specific comparison metrics, and consumer-, industry-, and National-
level improvement tracking could all be areas of study. A research 
effort of this magnitude and complexity would require NIST to work in 
close collaboration with industry to produce a successful outcome.
    Question 3a. On December 29, 2016, the Department of Homeland 
Security released a Joint Analysis Report (JAR) regarding Russian 
malicious cyber activity designated as GRIZZLY STEPPE. Included in the 
JAR were indicators that were released in STIX and CSV formats.
    How did your organization/company utilize the JAR?
    Question 3b. Did you find the technical indicators of malicious 
Russian cyber activity useful? Why or why not?
    Question 3c. What proportion of the technical indicators was your 
organization/company aware of before the release of the JAR?
    Question 3d. Do you believe the JAR helped improve the Nation's 
cybersecurity?
    Answer. This event occurred prior to McAfee spinning-out from Intel 
and becoming an independent company. Since McAfee and Intel are two 
separate stand-alone companies, it would not be appropriate for McAfee 
to discuss Intel's use of the JAR. Intel's threat intelligence team 
should respond to this question.
    Question 4a. Your company is involved in the Cyber Threat Alliance. 
What indicators does your company choose to share with CTA? By what 
process are they selected?
    Answer. The slide below depicts the information shared between CTA 
members, which Members agreed to.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question 4b. How does your company decide which indicators to share 
with the Government? To your knowledge, how does CTA decide which 
indicators (if any) to share with the Government?
    What criteria/process is used to select indicators/threat 
intelligence to share with the Government?
    What is the reason for not sharing more threat indicators with the 
Government?
    Answer. The CTA does not currently allow direct Government 
membership. The Cyber Threat Alliance is a coalition of cybersecurity 
companies and is focused on expanding its private-sector membership. It 
should be noted, though, that the CTA has a history of sharing 
intelligence during events of National significance such as CryptoWall 
3 and WannaCry with the appropriate Federal agencies. We expect to 
continue working with agencies on research/takedowns in those 
situations
    Question 4c. What technical protocols does CTA use to share threat 
indicators?
    Answer. The CTA members share information via STIX/TAXII.
    Question 5. What suggestions do you have for DHS to enhance the 
Nation's cybersecurity workforce, in both the public and private 
sectors?
    What actions can be taken by the Department acting alone, and what 
requires public/private collaboration?
    Answer. DHS is an active participant in NSF's CyberCorps 
Scholarship for Service (SFS) program. DHS should support the expansion 
of this program.
    The CyberCorps SFS program is designed to increase and strengthen 
the cadre of Federal information assurance specialists that protect 
Government systems and networks. Here's how it works: The National 
Science Foundation (NSF) provides grants to about 70 institutions 
across the country to offer scholarships to 10-12 full-time students. 
Students get free tuition for up to 2 years in addition to stipends--
$22,500 for undergraduates and $34,000 for graduate students. They also 
get allowances for health insurance, textbooks, and professional 
development. Some universities also partner with DHS on these programs. 
Students generally have to be juniors or seniors and must qualify for 
the program by attaining a specific GPA, usually at least a 3.0 or 
higher. Upon completing their coursework and a required internship, 
students earn a degree, then go to work as security experts in a 
Government agency for at least the amount of time that they have been 
supported by the program. After that they can apply for jobs in the 
public or private sector.
    With additional funding, the CyberCorps SFS program certainly could 
be expanded to more institutions and more students within each of those 
schools. To date, the Federal Government has made a solid commitment to 
supporting the SFS program, having spent $45 million in 2015, $50 
million in 2016, and the most recent administration's budget requests 
$70 million. As a baseline, an investment of $40 million pays for 
roughly 1,560+ students to complete the scholarship program. Given the 
size and scale of the cyber skills deficit, policy makers should 
significantly increase the size of the program, possibly something in 
the range of $180 million. At this level of funding, the program could 
support roughly 6,400 scholarships. Such a level of investment would 
make a real dent in the Federal cyber skills deficit, estimated to be 
in the range of 10,000 per year. At the same time, this level of 
investment could help create a new generation of Federal cyber 
professionals that can serve as positive role models for a countless 
number of middle and high school students across the country to 
consider the benefits of a cyber career and Federal service. Indeed, 
this positive feedback loop of the SFS program might well be its 
biggest long-term contribution.
    What should the private sector do to make an impact on the cyber 
skills deficit? The private sector must also be prepared to up-level 
its partnerships with the Government and others in industry to ensure a 
steady supply of worthwhile internships, co-ops, and training 
opportunities. In a recent report from McAfee and the Center for 
Strategic and International Studies (CSIS), a lack of quality training 
opportunities was cited as a significant reason why cyber practitioners 
seek alternative employment. For this reason, it is not only imperative 
that public-sector entities compensate their cyber professionals well, 
but also provide ample opportunities for employees to learn new skills 
and train on new technologies. With more robust public-private 
partnerships in this area, private companies in different industries 
can reach individuals at every stage in their career and engage them 
with new opportunities to learn about a wide variety of digital 
environments and next-generation technologies.
       Questions From Honorable James Langevin for Jeffrey Greene
    Question 1a. AIS was one of the central accomplishments of the 
Cybersecurity Act of 2015, and I believe that real-time, machine-to-
machine sharing can make a real difference in protecting our networks. 
I have, however, been concerned by the lack of participation in AIS, 
particularly because in order to function, it needs to take advantage 
of the network effects of a robust pool of participants. Why do you 
think participation numbers are so low, particularly since we heard 
from the private sector repeatedly while working on the bill that this 
sort of initiative was urgently needed?
    What specific measures could DHS take to encourage private-sector 
participation?
    Question 1b. Does your organization/company participate in AIS?
    If yes: (a) When did you join the program? (b) What were your 
initial set-up costs to do so? (c) What factors motivated your decision 
to join AIS?
    If no: (a) Have you considered joining AIS? If so, what factors 
caused you to decline to participate? (b) What would need to change 
about the program to make it worthwhile to participate?
    Answer. The roll-out of DHS's Automated Indicator Sharing (AIS) 
program was an important step in developing real-time information 
sharing. And while the program is still new, it shows great promise. 
Symantec is currently testing AIS to determine how the automated feed 
can contribute to our overall protection system and in the coming 
months will be conduct a pilot program to ingest some of the indicators 
and review them for accuracy and value.
    The current participation rate in AIS no doubt reflects in part 
that it is still relatively new--it has only been functioning for less 
than 1 year. Some companies, especially smaller ones, are still 
establishing internal policies for sharing. Additionally, investing in 
the STIX/TAXI protocols could be a resource barrier for some smaller 
companies that might otherwise want to join. In larger companies, 
policy development can be a lengthy process as it typically includes 
input from operational, corporate, legal, and privacy functions. Last, 
while the fidelity of the indicators is improving, the quality in the 
early days was inconsistent and some would have caused false positives 
had they been fully deployed within a company or across a security 
vendor's customer base.
    As a security vendor, Symantec is in a different position from many 
potential program partner. We are concerned with much more than our own 
systems; rather, we have to assess the impact on millions of customers 
around the world who rely on our near-real-time security updates. Each 
indicator of compromise needs to be carefully vetted to ensure we are 
pushing out quality indicators with a minimum of false positives. This 
vetting requires context, which at times has been insufficient. We 
recognize that DHS is in a difficult spot--industry is asking for both 
timely and rigorously-vetted information and this balance can be 
difficult to strike. DHS has made strides in the year AIS has been 
operational, and we hope that will continue.
    Question 2. One of my goals this Congress is to get a better handle 
on cybersecurity metrics: Namely, are the actions we are taking having 
measureable improvements on our security? Based on your experience, how 
can we better measure cybersecurity outcomes?
    Answer. Cybersecurity metrics is certainly a hotly-debated topic. 
At core, measuring success is often proving the negative--pointing to 
attacks that did not occur or did not succeed. Moreover, how do you 
show what might have happened if you do not have appropriate tools and 
procedures in place? One approach is to focus on cyber hygiene basics 
that provide a foundation for an effective cyber defense posture. These 
are relatively easy to measure and include activities such as:
  <bullet> Hardware and Software Asset Management.--Identifying all 
        hardware and software assets; it is often said that ``you can't 
        protect what you can't see.''
  <bullet> Configuration Management.--Properly configuring assets to 
        eliminate known threat vectors.
  <bullet> Vulnerability Management.--Scanning assets for known 
        vulnerabilities and applying the appropriate patches.
  <bullet> Identity Credential and Access Management.--Checking user 
        privileges to ensure they are limited to only the rights they 
        need and limiting any excessive privileges found.
  <bullet> Multi-Factor Authentication (MFA).--Implementing MFA and 
        enforcing its use.
    Consistent progress on these basic--but critical--foundational 
activities will lead to a reduction of some of the most commonly 
exploited cyber threat vectors.
    Question 3a. On December 29, 2016, the Department of Homeland 
Security released a Joint Analysis Report (JAR) regarding Russian 
malicious cyber activity designated as GRIZZLY STEPPE. Included in the 
JAR were indicators that were released in STIX and CSV formats.
    How did your organization/company utilize the JAR?
    Question 3b. Did you find the technical indicators of malicious 
Russian cyber activity useful? Why or why not?
    Question 3c. What proportion of the technical indicators was your 
organization/company aware of before the release of the JAR?
    Question 3d. Do you believe the JAR helped improve the Nation's 
cybersecurity?
    Answer. We received the December 29, 2016 Joint Analysis Report 
(JAR) regarding Russian malicious cyber activity designated GRIZZLY 
STEPPE and reviewed the indicators to ensure that our customers were 
properly protected. While most DHS reports include substantive analysis 
and some actionable information, on this occasion we believe the report 
fell short. Unfortunately, the indicators led to a high volume of false 
positives and in some cases the indicators proved to be unrelated to 
the threat itself. Finally, we were already aware of all indicators 
provided and those that we were not aware of were unrelated to the 
threat. However, to its credit, DHS issued an updated report that was 
higher in quality in terms of analysis and accuracy of indicators.
    Question 4a. Your company is involved in the Cyber Threat Alliance.
    What indicators does your company chose to share with CTA? By what 
process are they selected?
    Question 4b. How does your company decide which indicators to share 
with the Government? To your knowledge, how does CTA decide which 
indicators (if any) to share with the Government?
  <bullet> What criteria/process is used to select indicators/threat 
        intelligence to share with the Government?
  <bullet> What is the reason for not sharing more threat indicators 
        with the Government?
    Question 4c. What technical protocols does CTA use to share threat 
indicators?
    Answer. The Cyber Threat Alliance (CTA) is an excellent example of 
the private sector banding together to improve the overall safety and 
security of the internet. In 2014, Symantec, Fortinet, Intel Security, 
and Palo Alto Networks formed the CTA to work together to share threat 
information. The goal was to distribute detailed information about 
advanced attacks and thereby raise the situational awareness of CTA 
members and improve overall protection for our customers.
    Prior industry-sharing efforts were often limited to the exchange 
of malware samples, and the CTA sought to change that. Over the past 3 
years the CTA has consistently shared more actionable threat 
intelligence such as information on ``zero day'' vulnerabilities, 
command-and-control server information, mobile threats, and indicators 
of compromise related to advanced threats. By raising the industry's 
collective intelligence through these new data exchanges, CTA members 
have delivered greater security for individual customers and 
organizations. In short, the CTA is not about one vendor trying to gain 
advantage--we are all contributing and sharing with the community.
    Each member must share at least 1,000 samples of new Portable 
Executable (PE) malware per day that are not observed on VirusTotal 
over the preceding 48 hours at the time of sharing, and meet at least 
one of the following three criteria:
  <bullet> Mobile Malware.--At least 50 samples of new mobile malware 
        per day in the APK, DEX, or other popular mobile malware file 
        formats that are not observed on VirusTotal over the last 48 
        hours at time of sharing.
  <bullet> Botnets C2 Servers.--At least 100 botnet command-and-control 
        servers (C2), and/or peer-to-peer nodes, per week beyond those 
        listed on public forums such as ZeusTracker, must be different 
        than the previous week's dump from the contributing member; and 
        must be active upon sharing.
  <bullet> Vulnerabilities & Exploits Sites.--At least 100 attack sites 
        per week beyond those listed on public forums, must be 
        different than the previous week's dump from the contributing 
        member, and must be active upon sharing.
    CTA is also committed to initiatives such as developing industry 
best practices that will improve cybersecurity for individuals and 
governments. As CTA moves forward with its mission, Government 
partnerships will be an important piece of the process.
    Question 5a. What suggestions do you have for DHS to enhance the 
Nation's cybersecurity workforce, in both the public and private 
sectors?
    Question 5b. What actions can be taken by the Department acting 
alone, and what requires public-private collaboration?
    Answer. Today, there are an estimated 1 million cybersecurity jobs 
in the United States that supposedly cannot be filled. We believe that 
a new approach to IT professionals generally will help solve this 
problem. There are many general IT professionals in both Government 
agencies and in businesses around the world, and with in-house training 
they could become specialized security professionals. Their roles could 
in turn be filled by junior IT professionals or even recent graduates. 
Looking to existing IT staff to train for security roles has several 
benefits--these personnel will already know an organizations' systems, 
and providing another opportunity for career growth will improve 
retention and job satisfaction. Training the current IT workforce in 
cybersecurity is also fiscally smart, as it allows governments and 
enterprises to cut down their contract workforce and train from within, 
leading to a more secure IT environment.
    We do this at Symantec, in part by conducting an annual ``Cyber War 
Games'' exercise. This exercise takes IT professionals from 10 regions 
around the world and creates scenarios to encourage innovative thinking 
and growth in cybersecurity skills. These types of activities allow us 
to find hidden expertise in current employees as well as new expertise 
to bolster our own workforce. In addition, Symantec created the 
Symantec Career Connection (SC3). SC3 is an innovative program designed 
to help close the cybersecurity workforce gap while creating meaningful 
career paths for underrepresented young adult and veterans. Through 
targeted classroom education combined with hands-on training, SC3 
graduates are working amongst many of the world's largest and reputable 
companies.
    Thank you again for the opportunity to testify and to provide these 
further responses.
       Questions From Honorable James Langevin for Ryan M. Gillis
    Question 1a. AIS was one of the central accomplishments of the 
Cybersecurity Act of 2015, and I believe that real-time, machine-to-
machine sharing can make a real difference in protecting our networks. 
I have, however, been concerned by the lack of participation in AIS, 
particularly because in order to function, it needs to take advantage 
of the network effects of a robust pool of participants. Why do you 
think participation numbers are so low, particularly since we heard 
from the private sector repeatedly while working on the bill that this 
sort of initiative was urgently needed?
    What specific measures could DHS take to encourage private-sector 
participation?
    Question 1b. Does your organization/company participate in AIS?
    If yes: (a) When did you join the program? (b) What were your 
initial set-up costs to do so? (c) What factors motivated your decision 
to join AIS?
    If no: (a) Have you considered joining AIS? If so, what factors 
caused you to decline to participate? (b) What would need to change 
about the program to make it worthwhile to participate?
    Answer. Response was not received at the time of publication.
    Question 2. One of my goals this Congress is to get a better handle 
on cybersecurity metrics: Namely, are the actions we are taking having 
measureable improvements on our security? Based on your experience, how 
can we better measure cybersecurity outcomes?
    Answer. Response was not received at the time of publication.
    Question 3a. On December 29, 2016, the Department of Homeland 
Security released a Joint Analysis Report (JAR) regarding Russian 
malicious cyber activity designated as GRIZZLY STEPPE. Included in the 
JAR were indicators that were released in STIX and CSV formats.
    How did your organization/company utilize the JAR?
    Question 3b. Did you find the technical indicators of malicious 
Russian cyber activity useful? Why or why not?
    Question 3c. What proportion of the technical indicators was your 
organization/company aware of before the release of the JAR?
    Question 3d. Do you believe the JAR helped improve the Nation's 
cybersecurity?
    Answer. Response was not received at the time of publication.
    Question 4a. Your company is involved in the Cyber Threat Alliance.
    What indicators does your company chose to share with CTA? By what 
process are they selected?
    Question 4b. How does your company decide which indicators to share 
with the Government? To your knowledge, how does CTA decide which 
indicators (if any) to share with the Government?
  <bullet> What criteria/process is used to select indicators/threat 
        intelligence to share with the Government?
  <bullet> What is the reason for not sharing more threat indicators 
        with the Government?
    Question 4c. What technical protocols does CTA use to share threat 
indicators?
    Answer. Response was not received at the time of publication.
    Question 5a. What suggestions do you have for DHS to enhance the 
Nation's cybersecurity workforce, in both the public and private 
sectors?
    Question 5b. What actions can be taken by the Department acting 
alone, and what requires public-private collaboration?
    Answer. Response was not received at the time of publication.
       Questions From Honorable Cedric Richmond for Robyn Greene
    Question. Your organization, the Open Technology Institute, has 
taken a relatively hard line on two issues that are central to the 
current cybersecurity threat landscape--first, on the dangers of active 
cyber defense (i.e. allowing companies to ``hack back''); and second, 
that the Government should adopt a more transparent, Congressionally-
authorized process for when to disclose zero-day vulnerabilities in its 
possession. What are some of the key considerations policy makers 
should bear in mind on these issues?
    Answer. New America's Open Technology Institute (OTI) opposes 
proposals to authorize active cyber defense (also known as ``hacking-
back'') because they threaten to undermine cybersecurity rather than 
enhance it, and may result in harming innocent third parties. Hacking-
back is a form of digital vigilantism. As vigilantism is illegal in the 
physical world, so too should it remain on-line. As Congress carefully 
weighs the risks and rewards that may result from hack-back proposals, 
it will likely find that the risks are unjustifiably high.
    Hacking is dangerous whether you are a victim reacting to a cyber 
attack, a malicious actor, or a Government. Authorizing cyber attack 
victims to hack-back will almost certainly result in harms to innocent 
third parties. It is possible that a malicious actor could obtain 
malware used in a hack-back and turn it against innocent third parties. 
Further, attribution of the attack, though constantly improving, is 
still exceedingly difficult. When deploying an active cyber defense, it 
is difficult to guarantee that the device or network affected does not 
belong to an unrelated third party who has been misidentified as the 
malicious actor. Additionally, the hack-back could target a perceived 
malicious actor who is actually a person or entity that has been the 
victim of a cyber attack themselves, like a hospital or fire department 
whose network has been taken over by a botnet.
    Finally, even if an attack has been successfully attributed to a 
particular malicious actor, identifying that attacker can still be 
difficult and time-consuming. Because of the rapid-response nature of 
hacking-back, it is possible that an entity will be retaliating against 
foreign actors, including nation-states. This could put entities that 
choose to engage in hacking-back in a conflict of law with the country 
where their target is located. It could also raise diplomatic concerns. 
For example, if hacking-back was legal in 2014, Sony could have chosen 
to retaliate against its attackers who turned out to be agents of the 
North Korean government, a hostile foreign power, instead of seeking 
assistance from law enforcement.
    FBI Director Comey raised similar concerns at two speaking 
engagements this year. He was unequivocal in his opposition to allowing 
victims to hack-back. He cautioned that such an authorization was 
dangerous, and that it would interfere with the FBI's ability to 
conduct its investigations into cyber crimes.\1\ OTI agrees with this 
assessment and would urge Members of Congress to oppose any proposal 
that legalizes hacking-back.
---------------------------------------------------------------------------
    \1\ See James Comey, Dir. Fed. Bureau of Investigation, Speech at 
Boston Cybersecurity Summit 2017 (Mar. 8, 2017), https://
www.youtube.com/watch?v=VzhVYv7K4qc; and James Comey, Dir. Fed. Bureau 
of Investigation, Speech at U. of Tex. Austin (Mar. 23, 2017), https://
www.youtube.com/watch?v=iR5EwIbUvA0.
---------------------------------------------------------------------------
    Unlike hacking-back, establishing a permanent process for 
disclosing previously unknown vulnerabilities (often called zero-days) 
in the Government's possession is essential to improving cybersecurity. 
As we have seen from the Shadow Brokers disclosures,\2\ the arrest of 
an NSA contractor for hoarding zero-days at his home,\3\ and the recent 
CIA leaks,\4\ secrets get out. There is no way to guarantee that when 
the Government is in possession of zero-days and related exploits, that 
information will not eventually be leaked, posing significant and 
immediate risks of exploitation to Americans and internet users 
everywhere.
---------------------------------------------------------------------------
    \2\ See David E. Sanger, ``Shadow Brokers'' Leak Raises Alarming 
Question: Was the NSA Hacked?, NY Times (Aug. 16, 2016), https://
www.nytimes.com/2016/08/17/us/shadow-brokers-leak-raises-alarming-
question-was-the-nsa-hacked.html; Bruce Schneier, Another Shadow 
Brokers Leak, Schneier on Security (Nov. 1, 2016), https://
www.schneier.com/blog/archives/2016/11/another_shadow_.html; and Don't 
Forget Your Base, Medium (Apr. 8, 2017), https://medium.com/
@shadowbrokerss/dont-forget-your-base-867d304a94b1.
    \3\ Ellen Nakashima, Matt Zapotosky, & John Woodrow Cox, NSA 
Contractor Charged with Stealing Top Secret Data, Wash. Post (Oct. 5, 
2016), https://www.washingtonpost.com/world/national-security/
government-contractor-arrested-for-stealing-top-secret-data/2016/10/05/
99eeb62a-8b19-11e6-875e-2c1bfe943b66_story.html.
    \4\ Scott Shane, Matthew Rosenberg, & Andrew W. Lehren, Wikileaks 
Releases Trove of Alleged C.I.A. Hacking Documents, NY Times (Mar. 7, 
2017), https://www.nytimes.com/2017/03/07/world/europe/wikileaks-cia-
hacking.html.
---------------------------------------------------------------------------
    When the Government discovers or purchases vulnerabilities that put 
American internet users and companies at risk, it should disclose them 
as soon as possible so they may be patched. To ensure this happens, 
Congress should codify a interagency review and disclosure process. Any 
such process should be mandatory, such that no matter how the 
Government comes into possession of a zero-day vulnerability, it must 
submit it for review so that disclosure to the developer can be made in 
a timely manner.
    The review of vulnerabilities should be undertaken with a 
presumption in favor of disclosure, and a requirement for recurring 
review of any vulnerability that is not disclosed. The reviews should 
be conducted by a set group of stakeholders representing the prevailing 
interests in favor of and opposing disclosure. Those stakeholders 
should represent the equities of the U.S. economy, including the 
digital economy; domestic cybersecurity and critical infrastructure 
owners and operators; the intelligence community; and the civil rights 
and civil liberties communities.
    Finally, the process should include robust transparency mechanisms. 
The vulnerability review and disclosure process should be transparent 
about the points of inquiry it considers when making its assessments, 
and what agencies participate in the reviews. Congress should also 
require the review board to publish annual public reports that assess 
the efficacy of the process, and provide related metrics, such as the 
number of zero-days submitted for review, and the percentage of those 
zero-days that were disclosed to developers.
        Questions From Honorable James Langevin for Robyn Greene
    Question 1a. AIS was one of the central accomplishments of the 
Cybersecurity Act of 2015, and I believe that real-time, machine-to-
machine sharing can make a real difference in protecting our networks. 
I have, however, been concerned by the lack of participation in AIS, 
particularly because in order to function, it needs to take advantage 
of the network effects of a robust pool of participants. Why do you 
think participation numbers are so low, particularly since we heard 
from the private sector repeatedly while working on the bill that this 
sort of initiative was urgently needed?
    What specific measures could DHS take to encourage private-sector 
participation?
    Question 1b. Does your organization/company participate in AIS?
    If yes: (a) When did you join the program? (b) What were your 
initial set-up costs to do so? (c) What factors motivated your decision 
to join AIS?
    If no: (a) Have you considered joining AIS? If so, what factors 
caused you to decline to participate? (b) What would need to change 
about the program to make it worthwhile to participate?
    Answer. Though New America does not currently participate in the 
Department of Homeland Security's Automated Information Sharing (AIS) 
program, one of the concerns that we raised as CISA was being debated 
was that it would not address the need for two-way information sharing. 
Security experts and witnesses at the March 9, 2017 hearing were clear 
that for information sharing to be effective, the Government must be 
willing and able to increase its declassification and sharing of unique 
cyber threat indicators in a timely and actionable manner.\5\
---------------------------------------------------------------------------
    \5\ ``While DHS has made progress, it still needs to improve the 
quality and the quantity of the threat data it shares with the private 
sector to address this issue of the free rider. DHS should thus 
declassify larger categories of threat data and actively share them 
with the private sector. DHS should issue many more security clearances 
to qualified company representatives to enable access to the most 
sensitive, and potentially most valuable, pieces or classes of threat 
data.'' Current State of DHS Private Sector Engagement for 
Cybersecurity: Hearing Before the H. Homeland Sec. Subcomm. on 
Cybersecurity and Infrastructure Protection, 115th Cong. 7 (2017) 
(Written statement of Scott Montgomery, V. President and Chief 
Technical Analyst, Intel Security Group), http://docs.house.gov/
meetings/HM/HM08/20170309/105671/HHRG-115-HM08-Bio-MontgomeryS-
20170309.pdf. See also Sara Sorcher, Security Pros: Cyberthreat Info-
sharing Won't Be as Effective as Congress Thinks, Christian Sci. 
Monitor, Jun. 12, 2015, http://www.csmonitor.com/World/Passcode/2015/
0612/Security-pros-Cyberthreat-info-sharing-won-t-be-as-effective-as-
Congress-thinks.
---------------------------------------------------------------------------
    Rather than focusing on persuading more companies and Information 
Sharing and Analysis Organizations and Centers to join AIS, DHS should 
focus on showing these entities why joining AIS would be beneficial by 
increasing information sharing by the Government to the private sector. 
DHS should also endeavor to be transparent about how much information 
it shares with the private sector, and what the quality of that sharing 
has been.
    Additionally, many technology companies voiced opposition to CISA 
just before its passage citing to concerns, shared by the privacy 
community, about the civil liberties of their users.\6\ Companies may 
feel more comfortable participating in information sharing under CISA 
if Congress amended the law to address those concerns. Specifically, 
Congress could amend CISA to strengthen the requirement to remove 
personal or identifiable information before sharing by clarifying that 
such information is not directly related to a cyber threat unless it is 
necessary to ``detect, prevent, or mitigate'' it.\7\
---------------------------------------------------------------------------
    \6\ Robyn Greene, Tech Industry Leaders Oppose CISA as Dangerous to 
Privacy and Security, The Hill, Oct. 21, 2015, http://thehill.com/
blogs/pundits-blog/technology/257601-tech-industry-leaders-oppose-cisa-
as-dangerous-to-privacy-and.
    \7\ Dep't of Homeland Security & Dep't of Justice, Guidance to 
Assist Non-Federal Entities to Share Cyber Threat Indicators and 
Defensive Measure with Federal Entities under the Cybersecurity 
Information Sharing Act of 2015 5, https://www.us-cert.gov/sites/
default/files/ais_files/Non-
Federal_Entity_Sharing_Guidance_(Sec%20105(a)).pdf.
---------------------------------------------------------------------------
    Congress should also consider amending CISA to narrow the law 
enforcement use authorizations so that information shared can only be 
used for cybersecurity purposes and investigations into related 
computer crimes. Finally, Congress can resolve the privacy community 
and technology industry's concerns by removing the authorization for 
the President to designate a second authorized information-sharing 
portal.
    Question 2. One of my goals this Congress is to get a better handle 
on cybersecurity metrics: Namely, are the actions we are taking having 
measureable improvements on our security? Based on your experience, how 
can we better measure cybersecurity outcomes?
    Answer. The annual Verizon Data Breach Investigations Report is one 
of the best-available resources for measuring the effectiveness of our 
actions to improve cybersecurity. The report provides a good 60,000-
foot view of the state of cybersecurity threats and response. It can 
also help to provide guideposts for where to focus resources to yield 
the most improvement.
    For example, year after year, these reports make clear that the 
vast majority of cyber threats target previously known vulnerabilities, 
so Americans fall victim to data breaches simply because they have 
failed to maintain updated software. Verizon's 2016 report concluded 
that 85 percent of successful exploits used the same 10 
vulnerabilities, all of which have patches available.\8\ This marks an 
improvement over the previous year, where Verizon found that ``99 
percent of the exploited vulnerabilities were compromised more than a 
year after the CVE was published,'' and 97 percent of those exploits 
targeted just 10 vulnerabilities.\9\
---------------------------------------------------------------------------
    \8\ Verizon, 2016 Data Breach Investigations Report: Executive 
Summary 10 (2016), http://www.verizonenterprise.com/resources/reports/
rp_dbir-2016-executive-summary_xg_en.pdf. Full Report available at 
http://www.verizonenterprise.com/verizon-insights-lab/dbir/2016/.
    \9\ Verizon, 2015 Data Breach Investigations Report 15-16 (2015), 
https://msisac.cisecurity.org/whitepaper/documents/1.pdf.
---------------------------------------------------------------------------
    Thus, the reports show that one of the most meaningful ways to 
enhance cybersecurity would be to reduce the frequency of successful 
attacks that were preventable. Despite the improvements that are being 
made, Congress should place greater focus on identifying policy 
solutions that will encourage more and more regular vulnerability 
patching. Additionally, Congress should identify ways to incentivize 
companies to incorporate privacy by design as they build their products 
and services, such as by providing automatic security updates.
    Though Verizon's annual report, and similar reports from other 
companies are helpful, they do not provide the granular data that may 
be necessary to respond to more advanced threats or to identify certain 
trends. For this, improving metrics is key. DHS is currently 
collaborating with the insurance industry through the Cyber Incident 
Data and Analysis Working Group to try to establish a repository for 
sharing of current and historical non-personally identifiable cyber 
incident data.
    The goal of the repository would be to create a data-rich resource 
that can be analyzed to ``promote greater understanding about the 
financial and operational impacts of cyber events, the effectiveness of 
existing cyber risk controls in addressing them, and the new kinds of 
products and services that cybersecurity solutions providers should 
develop to meet the evolving risk mitigation needs of their 
customers.''\10\ Thus, if effective, the repository would yield new 
metrics that can be used to improve risk mitigation strategies, and may 
also positively impact the cybersecurity insurance market. Congress 
should follow the progress of this working group to determine if such a 
repository is an effective way to obtain more and more actionable 
metrics on the effectiveness of our cybersecurity strategy.
---------------------------------------------------------------------------
    \10\ Dep't of Homeland Sec., Enhancing Resilience Through Cyber 
Incident Data Sharing and Analysis: The Value Proposition for a Cyber 
Incident Data Repository 2 (2015), https://www.dhs.gov/sites/default/
files/publications/dhs-value-proposition-white-paper-2015_v2.pdf. For 
more resources on the CIDAWG, see Cyber Incident Data and Analysis 
Working Group White Papers, Dep't of Homeland Sec, https://www.dhs.gov/
publication/cyber-incident-data-and-analysis-working-group-white-papers 
(last accessed Apr. 13, 2017).
---------------------------------------------------------------------------
    Question 3a. On December 29, 2016, the Department of Homeland 
Security released a Joint Analysis Report (JAR) regarding Russian 
malicious cyber activity designated as GRIZZLY STEPPE. Included in the 
JAR were indicators that were released in STIX and CSV formats.
    How did your organization/company utilize the JAR?
    Question 3b. Did you find the technical indicators of malicious 
Russian cyber activity useful? Why or why not?
    Question 3c. What proportion of the technical indicators was your 
organization/company aware of before the release of the JAR?
    Question 3d. Do you believe the JAR helped improve the Nation's 
cybersecurity?
    Answer. New America did not utilize the Joint Analysis Report (JAR) 
regarding Russian malicious cyber activity designated as GRIZZLY 
STEPPE.

                                 [all]
</pre></body></html>
